<html>
<title> - NATIONAL MISSILE DEFENSE: TEST FAILURES AND TECHNOLOGY DEVELOPMENT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




   NATIONAL MISSILE DEFENSE: TEST FAILURES AND TECHNOLOGY DEVELOPMENT

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  VETERANS AFFAIRS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 8, 2000

                               __________

                           Serial No. 106-255

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
74-374                     WASHINGTON : 2001

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                        Robert A. Briggs, Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, Veterans Affairs, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
ILEANA ROS-LEHTINEN, Florida         TOM LANTOS, California
JOHN M. McHUGH, New York             ROBERT E. WISE, Jr., West Virginia
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARSHALL ``MARK'' SANFORD, South     EDOLPHUS TOWNS, New York
    Carolina                         BERNARD SANDERS, Vermont 
LEE TERRY, Nebraska                      (Independent)
JUDY BIGGERT, Illinois               JANICE D. SCHAKOWSKY, Illinois
HELEN CHENOWETH-HAGE, Idaho

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Advisor
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 8, 2000................................     1
Statement of:
    Coyle, Phillip, Director, Operational Test and Evaluation, 
      Department of Defense; Lieutenant General Ronald Kadish, 
      Director, Ballistic Missile Defense Office, accompanied by 
      Edward Warner, Assistant Secretary of Defense, Strategy and 
      Threat Reduction, Department of Defense; and Avis Bohlen, 
      Assistant Secretary, Bureau of Arms Control, Department of 
      State......................................................    64
    Graham, Dr. William, chairman and president National Security 
      Research, Inc.; Lawrence J. Korb, vice president and 
      director of studies, Council on Foreign Relations; Dr. 
      Lisbeth Gronlund, senior staff scientist, arms control 
      program, Union of Concerned Scientists; and Dr. Kim Holmes, 
      vice president and director the Kathryn and Shelby Cullom 
      Davis Institute, the Heritage Foundation, accompanied by 
      Baker Spring, research fellow, the Heritage Foundation.....   171
Letters, statements, etc., submitted for the record by:
    Bohlen, Avis, Assistant Secretary, Bureau of Arms Control, 
      Department of State, information concerning Strategic 
      Stability Cooperation Initiative...........................   125
    Chenoweth-Hage, Hon. Helen, a Representative in Congress from 
      the State of Idaho:
        Article entitled, ``Facing the Risks: A Realistic Look at 
          Missile Defense''......................................   159
        The Heritage Foundation Backgrounder.....................     7
    Coyle, Phillip, Director, Operational Test and Evaluation, 
      Department of Defense, prepared statement of...............    68
    Graham, Dr. William, chairman and president National Security 
      Research, Inc, prepared statement of.......................   175
    Gronlund, Dr. Lisbeth, senior staff scientist, arms control 
      program, Union of Concerned Scientists, prepared statement 
      of.........................................................   197
    Holmes, Dr. Kim, vice president and director the Kathryn and 
      Shelby Cullom Davis Institute, the Heritage Foundation, 
      prepared statement of......................................   214
    Kadish, Lieutenant General Ronald, Director, Ballistic 
      Missile Defense Office:
        Information concerning a closed hearing..................   153
        Information concerning differences in estimates....... 164, 166
        Information concerning Modification P00053...............   147
        Information concerning NMD RRFs..........................   131
        Prepared statement of....................................   108
    Korb, Lawrence J., vice president and director of studies, 
      Council on Foreign Relations, prepared statement of........   186

 
   NATIONAL MISSILE DEFENSE: TEST FAILURES AND TECHNOLOGY DEVELOPMENT

                              ----------                              


                       FRIDAY, SEPTEMBER 8, 2000

                  House of Representatives,
       Subcommittee on National Security, Veterans 
              Affairs, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room B-372, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Chenoweth-Hage, Tierney, 
Allen, Schakowsky, and Burton, ex officio.
    Also present: Representatives Kucinich and Turner.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; R. Nicholas Palarino, senior policy advisor; Alex 
Moore, fellow; Jason M. Chung, clerk; David Rapallo, minority 
counsel; and Earley Green, minority assistant clerk.
    Mr. Shays. The House Subcommittee on National Security, 
Veterans Affairs, and International Relations is now going to 
undertake a hearing entitled, ``National Missile Defense: Test 
Failures in Technology Development.''
    Under the National Missile Defense Act of 1999, ``It is the 
policy of the United States to deploy as soon as is 
technologically possible an effective National Missile Defense 
system capable of defending the territory of the United States 
against limited ballistic missile attack.'' Adopted with broad 
bipartisan support and signed by the President, the statute 
answered the question whether to deploy a national missile 
shield, but could not mandate when a technologically feasible 
system would be ready.
    When will effective and affordable National Missile Defense 
[NMD], technology, be ready? That is the question we pose this 
morning as we undertake oversight of a $10 billion technology 
development process that has yet to yield a deployable NMD 
system.
    The Reagan administration's Strategic Defense Initiative 
[SDI], hastened the demise of the Soviet Union. Since then, 
we've moved away from the global vision dubbed ``Star Wars'' to 
merely trying to hit a bullet with a bullet and missing more 
often than not.
    Without question, NMD program officials, today's stewards 
of the SDI legacy, confront complex technical challenges in a 
changing strategic, diplomatic and political environment. This 
is rocket science, and defending against emerging missile 
threats demands an unparalleled degree of technological 
precision in launch detection, target discrimination, command 
and control coordination, and target interception.
    Our oversight of other complex weapons systems, the F-22 
Raptor and the multirole Joint Strike Fighter, underscored the 
importance of permitting technology readiness to drive design 
and deployment decisions. In those programs, we saw a genuine 
sense of urgency to overcome test failures, conquer new 
technology and meet emerging threats.
    Is a similar sense of urgency propelling the NMD technology 
program? A 1998 review of the missile defense program found 
motion but not progress, a rush to failure caused in part by 
poor management and lack of aggressive oversight. The 
President's hastily announced decision last week to defer 
initial NMD deployment steps, ``until we have absolute 
confidence that the system will work,'' holds proven 
technologies hostage to an artificial all-or-nothing standard.
    Factors other than technical feasibility appear to be 
constraining NMD success. One of those factors, Russia's 
refusal to discuss necessary changes to the 1972 Anti-Ballistic 
Missile [ABM], Treaty, could have been ameliorated had the 
President authorized construction contracts for that part of 
NMD technology we know will work, the X-Band radar facility in 
Alaska. Under the pressure of inevitable, if distant, NMD 
deployment, the Russians might be more willing to accede to 
limited ABM changes rather than face further loss of 
international stature in the event the treaty is deemed a legal 
nullity or a strategic anachronism.
    The ballistic missile threat is real, and it is growing. 
China is developing weapons using stolen U.S. warhead designs, 
and appears willing to sell missile technology to rogue nations 
who may not be tamed by deterrence alone. North Korea could 
resume flight tests and acquire intercontinental missile 
capability at any time. Development of technology to defend 
against that threat should be pursued just as aggressively, 
unfettered by timidity over near-term diplomatic or political 
fallout.
    The next President deserves to choose from a complete menu 
of mature NMD technologies in deciding how best to protect our 
national security.
    Our witnesses this morning represent a wide range of views 
on how to implement the national policy on missile defenses. We 
welcome them all and look forward to their testimony.
    At this time I would like to recognize Mr. Tierney.
    Mr. Tierney. Thank you. I would just start this morning, 
Mr. Chairman, by thanking you for scheduling and conducting 
these hearings. I would also like to extend my appreciation to 
the witnesses today for their time, their insights, as well as 
their testimony.
    I think President Clinton is to be applauded for his 
decision last week to defer any decision on deployment of a 
National Missile Defense. Those who seek to politicize this 
issue do the Nation a disservice, including those who last 
December said they would welcome such a decision, but who have 
subsequently claimed that deferral somehow evidences a failure 
to strengthen America's defenses. As I stated earlier, such 
politicization demeans the seriousness of our need to establish 
defense priorities based on appropriate nonpolitical criteria.
    In addition, such assertions are patently inaccurate. Our 
country's defenses would only be substantially weakened should 
we move to deployment under current conditions. The President's 
decision seems to have been the only reasonable one available 
at this time, given the substantial delays in testing 
schedules, the severe cost overruns and several high-profile 
missile intercept failures.
    Moreover, it appears to have at least recognized that 
Russia, China and our NATO allies oppose deployment because it 
would violate the Anti-Ballistic Missile Treaty which they 
regard as a cornerstone to nuclear nonproliferation.
    As testimony submitted in writing for today's hearing by 
Professor Burton Richter clearly states, we are now in the 
third round of missile defense debates. In rounds one and two 
we concluded, after much effort, that the technology was not up 
to the job and we opted for arms control. The Nixon 
administration wanted to defend our missile force and instead 
signed the 1972 Anti-Ballistic Missile Treaty. The Reagan 
administration wanted to defend the entire Nation with what 
became known derisively and appropriately as the ``Star Wars'' 
defense system, but moved instead to decrease the nuclear 
threat through a series of treaties to reduce the number of 
nuclear warheads deployed on each side.
    Now some propose the intercept-in-space, hit-to-kill system 
that would be the most technologically challenging of possible 
alternatives. Rightfully, criteria for development have been 
set out and have been largely accepted. One, we talk of the 
changing threat for emerging missile states and the anticipated 
need for a national missile defense.
    Two, we talk about the cost of deployment. We talk about 
the effect of the National Missile Defense deployment on the 
United States/Russia nuclear arms reduction process and the 
broader strategic environment, including effects on our 
relationships with China, NATO allies and others.
    Last, we speak of the technological readiness of the system 
for deployment.
    While these hearings have been directed by the majority and 
the chairman mostly at the issue of technological readiness, we 
must recognize that none of the elements can be reviewed in a 
vacuum. Consideration of any one necessarily implicates some 
consideration of others. I should like to add yet another, a 
fifth or perhaps a subset of the fourth criteria we must 
consider before deployment, and that is the likely operational 
effectiveness of the planned National Missile Defense against a 
real-world attack, which would include countermeasures.
    The intercept tests conducted prior to this date and prior 
to the President's decision did not assess operational 
effectiveness of the planned National Missile Defense. That 
criterion for the deployment should be whether the fully 
deployed system would be able to deal with countermeasures, not 
the much more narrow criterion of whether the system can 
intercept cooperative targets on the test range. If there are 
countermeasures that would be available to emerging missile 
states that would defeat the full National Missile Defense 
system, then it would make no sense for the United States to 
begin deploying even the first stage until it demonstrates 
first on paper and then on the test range that the full system 
could be made effective against such countermeasures.
    There is no doubt the countermeasure technology exists in 
even rogue nations right now and that the capacity exists for 
them to develop other measures. For instance, a September 1999 
national intelligence estimate on the ballistic missile threat 
to the United States asserts that anti-simulation balloon 
decoys for nuclear warheads are readily available technology 
that emerging missile states could use to develop 
countermeasures to U.S. National Missile Defense systems. It is 
only slightly more difficult to implement measures using 
numerous balloons which would be much more effective as would 
be putting a warhead inside a balloon.
    The combination of methods, tactics of overwhelming the 
defense and other strategies, will be developed and may already 
exist. So before we deploy at any time, we must consider the 
four criteria, or the five as I have noted, and satisfy 
ourselves that the deployment of a National Missile Defense 
will actually be needed, as opposed to reliance on deterrence 
and diplomacy; that costs which seem to be spiraling even as 
our confidence in the system remains uncertain; that those 
costs are in a range warranting deployment of a National 
Missile Defense as our best means to answering any threat.
    A system that in 1996 was estimated to cost between $9 
billion and $11 billion now appears to be nearing $50 billion 
and can be expected to increase. As the Union for Concerned 
Scientists write, the proposed U.S. National Missile Defense 
system may decrease the security of the United States. Russia 
and China would respond to the deployment of such a system by 
deploying a greater number of warheads than might otherwise 
have been planned.
    In addition, Russia would likely increase its reliance on 
launch-on warnings to ensure that any retaliatory strike would 
be large enough to overwhelm the National Missile Defense 
system.
    A decision to deploy a National Missile Defense system 
would also have a generally negative effect on U.S. relations 
with Russia and China and would threaten cooperative efforts to 
decrease the number of nuclear weapons, improve controls on 
weapons and weapons materials, and combat proliferation.
    Finally, the National Missile Defense system could prompt 
emerging missile states to concentrate on our modes of 
delivery. We are a long way from achieving the kind of 
technological readiness that would provide confidence in the 
system. The number of tests with real-world conditions would 
tell if the system would work. A significant number of 
additional tests than are currently planned would be necessary 
to establish a high enough level of confidence. A National 
Missile Defense would need to be tested in many differing 
operational environments to take into account different 
possible countermeasures, each of which would require its own 
set of tests to estimate the system's performance under that 
environment.
    There must be objective, independent test assessments, with 
authority, meaning at least that the Department of Defense 
should not be able to disregard the sound advice of the 
director of operational tests and evaluation.
    As Professor Richter said, while the system proposed now 
has a less ambitious goal than Star Wars, the task is still 
very difficult and extraordinarily complex and challenging. The 
intercept-in-space, hit-to-kill system now in development is 
the most technically challenging of all the possible 
alternatives. It is the easiest to confuse with relatively 
simple decoys. The proposed test program is inadequate to 
ensure the necessary reliability before we begin to spend big 
money on National Missile Defense. The proposed system is not 
ready to graduate from development to deployment, and maybe it 
never will be.
    Thank you.
    Mr. Shays. I thank the gentleman.
    At this time I would recognize the gentlelady Mrs. 
Chenoweth-Hage.
    Mrs. Chenoweth-Hage. Thank you, Chairman Shays. I would 
like to thank the subcommittee for taking the time, as you have 
and are doing now, to examine this very, very critical issue of 
the feasibility and deployability of the National Missile 
Defense system. By holding these hearings, Chairman Shays, you 
are opening up an issue that is so vitally important and of 
great interest to the American people. I thank you for being 
here and holding this hearing after the House has temporarily 
recessed.
    Mr. Chairman, since the dawn of the space age, we have 
often heard the crowing of the pessimists. Statements like ``it 
can't be done'' or ``it is simply too expensive'' have been the 
norm for the day with many programs where technology was the 
central component that existed. Now, people said this about the 
development of our military fighters in the 1970's and about 
our tanks in the 1980's and our stealth technology in the 
1980's and the 1990's, but each time these pessimists have been 
proven wrong.
    The genius of the American people is such that the 
seemingly insurmountable becomes surmountable. Specifically in 
the case of the National Missile Defense system, we are 
overcoming the failures that have so far been encountered. 
Failures to a certain extent are always expected. Now, any 
fourth grade student learns in his science lessons that 
failures are central to the scientific process, but they are 
overcome, just as we are overcoming many of the technical 
failures we are now encountering.
    Mr. Chairman, when Ronald Reagan originally proposed his 
Strategic Defense Initiative, people ridiculed it by calling it 
``Star Wars.'' The press accused him of proposing the 
impossible and people inflamed the public by saying research in 
this area could cause a war. President Reagan refused to take 
no for an answer, and as a result, we are now much closer to 
defending the American public from ballistic missiles.
    One of the arguments that people of goodwill on both sides 
of the National Missile Defense debate raise is the Anti-
Ballistic Missile [ABM], Treaty of 1972, in that it prohibits 
the deployment of a National Missile Defense shield. However, I 
question this. Personally, I do not believe that the ABM Treaty 
still constrains us in this way, because with the death of the 
Soviet Union, many scholars argue that the ABM Treaty is no 
longer binding.
    Mr. Chairman, at this point, I would like to ask unanimous 
consent to enter into the record three papers that explore the 
legal viability and application of the ABM Treaty to national 
missile defense and the timely report by Senator Thad Cochran 
regarding national missile defense.
    Mr. Shays. Without objection, so ordered.
    [Note.--The report entitled, ``Stubborn Things, a Decade of 
Facts About Ballistic Missile Defense,'' may be found in 
subcommittee files.]
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4374.001
    
    [GRAPHIC] [TIFF OMITTED] T4374.002
    
    [GRAPHIC] [TIFF OMITTED] T4374.003
    
    [GRAPHIC] [TIFF OMITTED] T4374.004
    
    [GRAPHIC] [TIFF OMITTED] T4374.005
    
    [GRAPHIC] [TIFF OMITTED] T4374.006
    
    [GRAPHIC] [TIFF OMITTED] T4374.007
    
    [GRAPHIC] [TIFF OMITTED] T4374.008
    
    [GRAPHIC] [TIFF OMITTED] T4374.009
    
    [GRAPHIC] [TIFF OMITTED] T4374.010
    
    [GRAPHIC] [TIFF OMITTED] T4374.011
    
    [GRAPHIC] [TIFF OMITTED] T4374.012
    
    [GRAPHIC] [TIFF OMITTED] T4374.013
    
    [GRAPHIC] [TIFF OMITTED] T4374.014
    
    [GRAPHIC] [TIFF OMITTED] T4374.015
    
    [GRAPHIC] [TIFF OMITTED] T4374.016
    
    [GRAPHIC] [TIFF OMITTED] T4374.017
    
    [GRAPHIC] [TIFF OMITTED] T4374.018
    
    [GRAPHIC] [TIFF OMITTED] T4374.019
    
    [GRAPHIC] [TIFF OMITTED] T4374.020
    
    [GRAPHIC] [TIFF OMITTED] T4374.021
    
    [GRAPHIC] [TIFF OMITTED] T4374.022
    
    [GRAPHIC] [TIFF OMITTED] T4374.023
    
    [GRAPHIC] [TIFF OMITTED] T4374.024
    
    [GRAPHIC] [TIFF OMITTED] T4374.025
    
    [GRAPHIC] [TIFF OMITTED] T4374.026
    
    [GRAPHIC] [TIFF OMITTED] T4374.027
    
    [GRAPHIC] [TIFF OMITTED] T4374.028
    
    [GRAPHIC] [TIFF OMITTED] T4374.029
    
    [GRAPHIC] [TIFF OMITTED] T4374.030
    
    [GRAPHIC] [TIFF OMITTED] T4374.031
    
    [GRAPHIC] [TIFF OMITTED] T4374.032
    
    [GRAPHIC] [TIFF OMITTED] T4374.033
    
    [GRAPHIC] [TIFF OMITTED] T4374.034
    
    [GRAPHIC] [TIFF OMITTED] T4374.035
    
    [GRAPHIC] [TIFF OMITTED] T4374.036
    
    [GRAPHIC] [TIFF OMITTED] T4374.037
    
    [GRAPHIC] [TIFF OMITTED] T4374.038
    
    [GRAPHIC] [TIFF OMITTED] T4374.039
    
    [GRAPHIC] [TIFF OMITTED] T4374.040
    
    [GRAPHIC] [TIFF OMITTED] T4374.041
    
    [GRAPHIC] [TIFF OMITTED] T4374.042
    
    [GRAPHIC] [TIFF OMITTED] T4374.043
    
    [GRAPHIC] [TIFF OMITTED] T4374.044
    
    [GRAPHIC] [TIFF OMITTED] T4374.045
    
    [GRAPHIC] [TIFF OMITTED] T4374.046
    
    [GRAPHIC] [TIFF OMITTED] T4374.047
    
    [GRAPHIC] [TIFF OMITTED] T4374.048
    
    [GRAPHIC] [TIFF OMITTED] T4374.049
    
    [GRAPHIC] [TIFF OMITTED] T4374.050
    
    [GRAPHIC] [TIFF OMITTED] T4374.051
    
    Mrs. Chenoweth-Hage. Thank you, Mr. Chairman.
    While I am concerned about the development of National 
Missile Defense, I am not one that is overly concerned with 
test failures. Tests occur precisely to resolve problems before 
deployment of our National Missile Defense system. I have great 
faith in the ingenuity of our research scientists, and I rest 
easy knowing that America possesses the very best research 
scientists and laboratories in the world.
    And with ongoing research into National Missile Defense, we 
are on the cusp of being able to protect America from rogue 
states like North Korea, Iran and Iraq. We cannot fail in our 
efforts to protect the American people.
    So, Mr. Chairman, again thank you very much for holding 
this meeting. By exploring and exploding some of the myths 
surrounding the technical feasibility of National Missile 
Defense, we are providing an important service for the American 
people. Only through effectively addressing these myths will we 
ever be able to defend the United States against missile 
attacks.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much.
    It would be my intention to recognize Mr. Allen and then 
Ms. Schakowsky and then Mr. Turner who is a member of the full 
committee and Mr. Kucinich, who is a member of the full 
committee. Both of you are equal participants. It just will be, 
your order will be after the regular members, but fully 
participate.
    Mr. Allen.
    Mr. Allen. Thank you, Mr. Chairman. I want to welcome all 
the panelists here today and begin by thanking our chairman.
    When I was elected to Congress, this is what I thought 
committee hearings would be like. That is, you would have 
people with all different points of view coming before us and 
expressing their opinions, and we would have a chance to sort 
out the differences. But too often I have found that the panels 
are weighted so much to one side or another that we don't have 
that opportunity. So I particularly appreciate Chairman Shays' 
proceeding as he has with the variety of different panelists 
and perspectives that we will hear today.
    Second, I do want to begin by saying, let's remember what 
this system is: This is a very limited system designed to 
protect against a handful of missiles launched by a rogue 
nation like--so-called rogue nation like North Korea or Iran or 
Iraq. That's it. It is not a shield that protects us from major 
nuclear powers like Russia. It is not a shield that would 
protect us against what China has or could develop in the 
future. It is aimed simply against those ``states of concern,'' 
as they are now called.
    If we are going to make a rational decision about how to 
proceed with a national missile defense and at what speed, I 
think we have to keep in mind the four factors that should 
guide us. They have been stated before, but they bear 
repeating.
    First, the status of the threat at the time of the decision 
to deploy. There is no point in spending $50 billion or $60 
billion on a system if there is no obvious threat that needs to 
be dealt with.
    Second, here as we struggle with our budget on a regular 
basis, cost has to be a factor. Just within the last 12 months, 
the cost of this system has multiplied significantly.
    Third, the state of the technology, and here I would say 
there are two technologies. First, there is the technology of 
being able to hit a bullet with a bullet, the ability to 
intercept a missile that is fired at the United States. But 
second, there is the technology of dealing with potential 
countermeasures. That subject has been given more attention in 
the last few months, but not in my view nearly enough, because 
if the countermeasures that are available to so-called ``states 
of concern'' are such that they could overwhelm the kinds of 
systems that we could develop, then the system will not work as 
advertised.
    Finally, we have to pay attention to our arms control 
agenda, because in the last analysis, diplomacy, if it works, 
is always cheaper than an arms race. In this case, diplomacy 
should not be ignored or pushed aside as we move ahead.
    I happen to believe that if a national missile defense 
system works as advertised and strengthens our national 
security, we should build it, but if a National Missile Defense 
system will not work as advertised or if it will diminish our 
national security, we should not deploy it, we should not 
proceed. It is the answer to that fundamental choice that I 
believe confronts us in Congress, and the American people as 
well, that I hope this hearing today will illuminate. And I 
again thank Chairman Shays.
    Mr. Shays. I thank the gentleman.
    Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman, very much for 
holding this hearing today to discuss our National Missile 
Defense program and its technological feasibility. I also want 
to thank Congressman Tierney for all of his work on this 
subject and for requesting this hearing today.
    Last year, when the House of Representatives debated H.R. 
4, a bill making it the policy of the United States to deploy a 
national missile defense system when technologically feasible, 
I stood on the House floor and warned my colleagues that this 
policy would not enhance the security of the United States, but 
that it could actually bring this Nation closer to war.
    Since then, we have seen our neighbors around the world 
express opposition--NATO allies, Russia, China and others. 
Russia has warned that it would abandon arms reduction 
agreements if we go forward with the National Missile Defense 
program. China has warned it may increase offensive production, 
and I stand by the declaration I made last year.
    Since the Reagan administration, we have been urged by 
wishful thinkers to deploy a system for which workable 
technology does not exist. Now many years and many billions of 
dollars later, we are still pursuing what I view as an 
irresponsible, likely unnecessary and unrealistic policy.
    Believe me, I am pleased that President Clinton deferred 
the decision to deploy to the next administration. Had it not 
been for the sound advice of some of today's witnesses and 
others, the situation may have been different. To me, NMD is 
just another example of the Department of Defense spending 
billions of taxpayer dollars on programs that are destined for 
failure or are not necessary.
    As many of my colleagues know, I strongly believe we need a 
comprehensive strategic review of our defense policy, and I am 
pleased that today we can start by taking a closer look at 
national missile defense.
    I would like to end with a quote which is from a document 
produced by one of our witnesses today, Mr. Coyle: 
``deployment,'' he says, ``means the fielding of an operational 
system with some military utility which is effective under 
realistic combat conditions against realistic threats and 
countermeasures when operated by military personnel at all 
times of day or night and in all weather. Such capability is 
yet to be shown to be practicable for NMD.''
    Mr. Coyle, of course, will have an opportunity to 
elaborate, but to me that sums it up. Not only does deployment 
risk a whole new arms race and the alienation of our 
traditional allies and adversaries, it does not work. I know my 
constituents expect better.
    Again, Mr. Chairman, I appreciate the opportunity to hear 
from our witnesses and look forward to a healthy discussion 
today.
    Mr. Shays. Thank you.
    The Chair recognizes Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. It is a pleasure to be 
here with the subcommittee today, and I appreciate your 
allowing those of us who are not members of the committee to 
join with the committee. I, of course, take a great interest in 
the work of your subcommittee as a member of the full 
Government Reform Committee, as well as because of my work as a 
member of the Research and Development Subcommittee and the 
Procurement Subcommittee of the Armed Services Committee.
    I had the opportunity to be an original cosponsor of the 
National Missile Defense legislation. I was pleased to do so. I 
thought it was the right thing to do. I also enjoyed the 
opportunity to go with a delegation of the Armed Services 
Committee, under the leadership of subcommittee Chairman Curt 
Weldon, prior to the consideration of that legislation by the 
House of Representatives, to Moscow to present a report to 
members of the Russian Duma that outlined the information that 
we had collected that indicated that there was a real threat to 
our national security from nations such as Korea and Iran.
    That meeting was very productive. Though it did not result 
in our counterparts in the Duma concurring with our proceeding 
with such a defense system, I think it did represent a good-
faith effort on the part of the Congress to present to the 
members of the Duma and their defense committee our thoughts 
and our reasoning and to present it prior to the passage of the 
legislation in the Congress.
    We have, I think, today, a greater military superiority 
over any potential foe than we have possessed at any time in 
our history. I know there is a lot of discussion, particularly 
in the Presidential race, about our military readiness. Though 
we always have room for improvement, I am convinced that we do 
possess a military that is second to none, for which we should 
all be very proud, and we are very grateful to those who serve 
in the uniform of the armed services who defend us every day. 
It is in our national interest and in the interest of world 
peace to maintain that unquestioned superiority.
    National missile defense is, in my opinion, an essential 
element of achieving that objective. History teaches us that 
nations inevitably pursue the development of increasingly 
sophisticated weapons, and I think that the old adage, 
``Eternal vigilance is the price of peace,'' is one we must 
continue to be mindful of.
    There is no question that this issue we are discussing 
today must be approached with reasoned judgment. There are 
legitimate issues that must be addressed, issues such as the 
scope and nature of the threat we face; the technological 
readiness for deployment and the diplomatic issues, including, 
of course, the impact on the ABM Treaty. I have no doubt that 
the threat is real, that North Korea is developing the ability 
to deliver a nuclear weapon to the continental United States. I 
think that threat may also exist from Iran and other nations, 
like Iraq.
    There are those who desire to achieve military power 
through the use of nuclear weapons. That is not to say that the 
delivery of a nuclear weapon by a missile is the only method 
that may be chosen by a potential foe.
    I also understand that it is important to be sure that the 
technology is sufficient to successfully deploy a system. 
Otherwise, we will pursue a reckless course, spending millions 
of dollars we would not otherwise have to spend. But I am 
convinced that we have the ability to be in a position to 
deploy--that the technology will and can be sufficient to 
accomplish the goal.
    Finally, I also believe that as we pursue the diplomatic 
front, and we certainly should pursue it in every way possible, 
that at the end of the day our allies, as well as those who are 
potential foes, should be able to understand that this is an 
effort that we are making that is in the interest not only of 
our own security but in the security of world peace.
    At the end of the day, if we do not achieve agreement with 
those other nations, I think it will still be in our national 
interest to deploy a limited system.
    I concur with the President's decision to defer deployment 
until the next administration, not because I question the 
ability to achieve a system that will work, but because I have 
evidenced by the comments of Governor Bush and some of our 
Republican colleagues in the Congress that there is a debate 
that will take place regarding the type of system that should 
be deployed.
    The information that I have indicates that the threat 
currently is a limited one, and that a system that has the 
capability of defending against limited attacks will be 
appropriate, but it is clear that there are others who choose a 
more, ``robust approach,'' a more ``Star Wars approach,'' as 
was advocated in the Reagan administration. I think that 
Congress should engage in that debate, and that issue deserves 
our attention.
    So I am grateful, Mr. Chairman, that you have called this 
hearing today to give us all the opportunity to begin the 
course of making a reasoned judgment about a very important 
issue to the American people, and I appreciate the opportunity 
to share in this discussion.
    Mr. Shays. Thank you, Mr. Turner. The committee is grateful 
to have your participation, and also Mr. Kucinich.
    Mr. Kucinich, you can close up here.
    Mr. Kucinich. Thank you very much, Mr. Chairman, for 
holding this committee meeting. I certainly want to express my 
appreciation to Mr. Tierney and the other members of the 
committee for the work that they have done on this issue. As 
some of the members know, this is something that I have been 
working on for the last year, and I appreciate the fact that 
Mr. Shays has called the hearing, which I believe is one of the 
first opportunities we have had in this House to get into this 
issue.
    I would like, in some brief remarks here, to pose a number 
of questions, and I think the first question that has to be 
asked is, is this trip necessary? Why are we asking the 
American people to even consider forking over an additional $60 
billion when we have already gone a great distance since 1983, 
when the Reagan administration first proposed Star Wars, to 
prove that this concept doesn't work; that it is an idea in 
search of an enemy; that it would subvert any effort to be able 
to have fiscal responsibility in the Federal Government; that 
it would undermine our efforts to maintain nuclear 
nonproliferation; that it would violate the ABM Treaty; and 
that it would generally be a disaster on a scale that hasn't 
been seen in this country with respect to trying to maintain 
American leadership for peace in the world?
    I would submit that peace through proliferation is an 
Orwellian construction which defies credibility; that you 
cannot tell the world, as we are in a new millennium, that the 
way that we can achieve peace is through an arms buildup.
    Let's sweep aside for a moment the debate over whether or 
not this is technically possible, because it is not. Let's 
sweep aside for a moment the debate over whether or not we want 
to commit tens of billions of dollars to this, because I don't 
believe the American people do. Let's go right to the crux, 
what I think is the crux, of this overarching debate, and that 
is, do we really want to get into an era of nuclear 
proliferation?
    Are we going to go back to the days of duck-and-cover 
drills, where our children are going to be told to get under 
their desks and get into a crouch and close their eyes and pray 
that they don't see the flash and pray that they aren't 
incinerated in some nuclear conflagration? Or are we going to 
use this opportunity and this debate to come back to the 
irreducible conclusion that the only way to peace is through 
diplomacy and the way to nuclear arms reduction is through 
reducing and eliminating nuclear arms, which was the central 
purpose of the Nonproliferation Treaty and of the ABM Treaty.
    This hearing today isn't about castigating people who are 
serving our country well and who are dedicated to America. We 
are all good Americans. We all love our country. You don't run 
for Congress unless you love your country. You don't serve in 
the military unless you love your country.
    This isn't about whether we love our country. We all love 
America and we can all love peace in the world, and we have 
different views about how to achieve peace in the world. But I 
think that when we get away from our titles--Congressman, 
General, Colonel--and just get to being people shopping at the 
West Side Market in Cleveland, people just want to live, they 
want to survive and they don't want their government putting 
them in a position where the peace of the world can be at risk.
    And that's actually, as Ms. Schakowsky said earlier, that's 
actually where we are going with this. Over a whacky idea that 
will never work, we are engaging in discussions that can 
actually create destabilization on the issue of peace.
    Now, when we get into the questions and answers, I am going 
to get into the cost discussions, because the American 
taxpayers are interested about whether their money is being 
wasted or not. But I just appreciated a moment here to just try 
to interject a note of just playing straight out from the 
shoulder discussion about an idea whose time should have been 
long past and about an idea that for some reason, like the 
movie ``The Alien,'' just when you think it is gone, it comes 
out of some compartment.
    So thank you for all being here. I certainly look forward 
to the discussion today, and I look forward to this continuing 
debate inside the House of Representatives and across the 
country.
    Thank you very much.
    Mr. Shays. Thank you. I appreciate the panel's patience, 
and we have just a little housekeeping to take care of and then 
we will get right to the witnesses.
    I ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record, and that the record remain open for 3 days for that 
purpose; and without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record and 
without objection, so ordered.
    I ask unanimous consent that written statements from the 
following individuals be included in the record: Ambassador 
Henry F. Cooper, board chairman, High Frontier; Dr. Burton 
Richter, director emeritus, Stanford Linear Accelerator Center; 
and Mr. Joseph Cirincione, director, nonproliferation project, 
Carnegie Endowment Diamond for International Peace.
    I will just introduce our witnesses and they can begin 
their testimony. We have a panel of four individuals, three of 
whom will testify and we have two panels: Mr. Phillip Coyle, 
Director, Operational Test and Evaluation, Department of 
Defense; testimony from Lieutenant General Ronald Kadish, 
Director of Ballistic Missile Defense Office, Department of 
Defense, accompanied by the Honorable Edward Warner, Assistant 
Secretary of Defense Strategy and Threat Reduction, Department 
of Defense; and our third testimony is from the Honorable Avis 
Bohlen, Assistant Secretary, Bureau of Arms Control, Department 
of State.
    The way we are going to do this is we are going to have a 
5-minute, and we will roll it over for another 5 minutes, 
giving you 10 minutes each for your testimony and then we will 
get right to questions.
    I will be absent for about 25 minutes, and we will give the 
floor to Mrs. Chenoweth to start.
    Mr. Warner, you may start.
    Mr. Warner. I don't have an opening statement, sir.
    Mr. Shays. I am sorry. Mr. Coyle, we are starting with you 
and then we are going to Mr. Kadish and then we will go to Ms. 
Bohlen.
    Mr. Coyle. Chairman Shays----
    Mr. Shays. I am sorry. I do need to swear you in before I 
go, if you would stand.
    Is there anyone else who may be testifying that is 
accompanying you, who may answer a question? If so, I would 
invite them to stand.
    It will just be the four of you? OK.
    [Witnesses sworn].
    Mr. Shays. I note the record that all four plus one have 
sworn and affirmed.
    Thank you. You may be seated and, Mr. Coyle, you may begin.

  STATEMENTS OF PHILLIP COYLE, DIRECTOR, OPERATIONAL TEST AND 
 EVALUATION, DEPARTMENT OF DEFENSE; LIEUTENANT GENERAL RONALD 
KADISH, DIRECTOR, BALLISTIC MISSILE DEFENSE OFFICE, ACCOMPANIED 
BY EDWARD WARNER, ASSISTANT SECRETARY OF DEFENSE, STRATEGY AND 
   THREAT REDUCTION, DEPARTMENT OF DEFENSE; AND AVIS BOHLEN, 
  ASSISTANT SECRETARY, BUREAU OF ARMS CONTROL, DEPARTMENT OF 
                             STATE

    Mr. Coyle. Chairman Shays, Mr. Tierney, members of the 
committee, thank you for the opportunity to discuss the testing 
of the National Missile Defense system this morning. I have not 
had the opportunity to address this committee before, and I 
appreciate the opportunity to do so.
    You requested that today's testimony focus on the impact of 
the test results to date, on technological maturity and 
deployment schedules. You also asked that we address the 
relationship between the Anti-Ballistic Missile Treaty and the 
current proposals to design, test and deploy an effective 
missile system. First, I would like to briefly discuss the 
progress so far. The NMD program has demonstrated considerable 
progress toward its defined goals in the last 2 years. The 
battle management, command, control and communication systems 
have progressed well. The potential X-Band radar performance 
looks promising as reflected in the performance of the ground-
based radar prototype.
    A beginning systems integration capability has been 
demonstrated, although achieving full systems interoperability 
will be challenging.
    The ability to hit a target reentry vehicle in a direct 
hit-to-kill collision was demonstrated in the first flight 
intercept test last October. However, in this test, 
operationally representative sensors did not provide initial 
interceptor targeting instructions, as would be the case in an 
operational system. Instead, for test purposes, a Global 
Positioning System signal from the target RV served to first 
aim the interceptor. We were not able to repeat such a 
successful intercept in the two subsequent flight intercept 
tests. Also, the root cause of the failure in the most recent 
flight intercept test has not been determined.
    Because of the nature of strategic ballistic missile 
defense, it is impractical to conduct fully operationally 
realistic intercept flight testing across the wide spectrum of 
scenarios. The program must, therefore, complement its flight 
testing with various types of simulations.
    Overall, NMD testing is comprised of interrelated ground, 
hardware and software in-the-loop testing, intercept and 
nonintercept flight testing, computer and laboratory 
simulations and man-in-the-loop command and control exercises. 
Unfortunately, these simulations have failed to develop as 
expected.
    This, coupled with flight test delays, has placed a 
significant limitation on our ability to assess the technical 
feasibility of the NMD system.
    The testing program has been designed to learn as much as 
possible from each test. Accordingly, the tests so far have all 
been planned with backup systems so that if one portion of the 
test fails, the rest of the test objectives might still be met.
    Developmental tests in a complex program, especially those 
conducted very early, contain many limitations and 
artificialities, some driven by the need for specific early 
design data and some driven by test range safety 
considerations.
    Additionally, the tests are designed so that they will not 
produce debris in orbit that will harm satellites.
    Also, the program was never structured to produce 
operationally realistic test results this early. Accordingly, 
it was not realistic to expect these test results could support 
a full deployment decision now, even if all the tests had been 
unambiguously successful, which they have not been.
    Notwithstanding the limitations in the testing program and 
failures of important components in all three of the flight 
intercept tests, the program has demonstrated considerable 
progress.
    Compliance with the ABM Treaty has not had an adverse 
impact to date on the developmental testing of the NMD system. 
In the future, we desire additional ground-based interceptor 
test launches from more operationally representative locations 
than the existing Kwajalein Missile Range. Additional target 
launch sites which are not restricted by the treaty would 
expand the test envelope beyond that currently available, as 
recommended by the Welch panel, to validate system simulations 
over the rest of the operating regimes.
    Furthermore, we need a radar to skin track the incoming RV, 
reentry vehicle, rather than tracking a beacon transponder as 
has been done with a radar on Oahu. We need this during early, 
mid-course flight in order to support creation of the Weapon 
Task Plan which first aims the interceptor.
    Some of the options for these improvements could raise ABM 
Treaty issues. Any NMD test activity must be sufficiently well 
defined in order to properly assess the ABM Treaty implications 
and determine whether the activity can be conducted under the 
existing treaty.
    Under the program of record, test results are not likely to 
be available in 2003 to support a recommendation then to deploy 
a C-1 system in 2005.
    This is because the currently planned testing program is 
behind, because the test content does not yet address important 
operational questions and because ground test facilities for 
assessment are considerably behind schedule.
    NMD testing needs to be augmented to prepare for realistic 
operational situations in the operational test phase and is not 
yet aggressive enough to keep pace with the currently proposed 
schedules for silo and radar construction and missile 
production. The testing schedule, including supporting modeling 
and simulation, continues to slip while the construction and 
production schedules have not.
    Important parts of the test program have slipped a year in 
the 19 months since the NMD program was restructured in January 
1999. Thus, the program is behind in both the demonstrated 
level of technical accomplishment and in schedule.
    Additionally, the content of individual tests has been 
diminished and is providing less information than originally 
planned.
    I am especially concerned that the NMD program has not 
planned or funded any intercept until IOT&E operational testing 
with realistic operational features such as multiple 
simultaneous engagements, long-range intercepts, realistic 
engagement geometries, and countermeasures other than simple 
balloons. While it may not be practical or affordable to do all 
of these things in developmental testing, selected stressing 
operational requirements should be included in developmental 
tests that precede IOT&E to help ensure sufficient capability 
for deployment.
    For example, the current C-Band transponder tracking and 
identification system alluded to earlier, which is justified by 
gaps in radar coverage and range safety considerations, is 
being used to provide target track information to the system in 
current tests. This practice should be phased out prior to 
IOT&E; this will ensure that the end-to-end system will support 
early target tracking and interceptor launch.
    There is nothing wrong with the limited testing program the 
Department has been pursuing, so long as the achieved results 
match the desired pace of acquisition decisions to support 
deployment. However, a more aggressive testing program with 
parallel paths and activities will be necessary to achieve an 
effective interim operational capability by the latter half of 
this decade. This means a test program that is structured to 
anticipate and absorb setbacks that inevitably occur.
    The NMD program is developing test plans that move in this 
direction.
    The time and resource demands that would be required for a 
program of this type would be substantial, as documented in the 
Congressional Budget Office report on the budgetary and 
technical implications of the NMD program. The Safeguard 
missile program conducted 125 flight tests; the Safeguard 
program was an early version of NMD. Similarly, the full 
Polaris program conducted 125 flight tests, and the full 
Minuteman program conducted 101 flight tests.
    Rocket science has progressed in the past 35 years, and I 
am not suggesting that 100 or more NMD flight tests will be 
necessary. However, the technology in the current NMD program 
is more sophisticated than in those early missile programs, and 
we should be prepared for inevitable setbacks.
    It is apparent that in these early programs an extensive 
amount of work was done in parallel from one flight test to 
another. Failures that occurred were accepted and the programs 
moved forward with parallel activities as flight testing 
continued. As in any weapons development program, the NMD 
acquisition and construction schedules need to be linked to 
capability achievements demonstrated in a robust test program, 
not to schedule per se.
    This approach supports an aggressive acquisition schedule 
if the test program has the capacity to deal with setbacks. On 
three separate occasions, independent panels chaired by Larry 
Welch--General, Air Force, retired--have recommended an event-
driven not schedule-driven program. In the long run, an event-
driven program might take less time and cost less money than a 
program that must be regularly rebaselined due to the realities 
of very challenging and technical operational goals.
    Aggressive flight testing, coupled with comprehensive 
hardware in-the-loop and simulation programs, will be essential 
for NMD. Additionally, the program will have to adopt a 
parallel fly through-failure approach that can absorb tests 
that do not achieve their objectives in order to have any 
chance of achieving fiscal 2005 deployment of an operationally 
effective system. As noted by the CBO, the Navy's Polaris 
program successfully took such an approach 30 years ago.
    Deployment means the fielding of an operational system with 
some military utility which is effective under realistic combat 
conditions against realistic threats and countermeasures, 
possibly without adequate prior knowledge of the target cluster 
composition, timing, trajectory or direction and when operated 
by military personnel at all times of the day or night and in 
all weather. Such a capability is yet to be shown practicable 
for NMD. These operational considerations will become an 
increasingly important part of tests and simulation plans over 
the coming years.
    In the full statement of my testimony, which has been 
provided to the committee, I make a series of recommendations 
to enhance the testing program. This includes more realistic 
flight engagements, tests with simple countermeasures beyond 
those planned, flight intercept tests with simple tumbling RVs 
and tests with multiple simultaneous engagements.
    Madam Chairman, I would be pleased to answer any questions 
you may have.
    [The prepared statement of Mr. Coyle follows:]

    [GRAPHIC] [TIFF OMITTED] T4374.052
    
    [GRAPHIC] [TIFF OMITTED] T4374.053
    
    [GRAPHIC] [TIFF OMITTED] T4374.054
    
    [GRAPHIC] [TIFF OMITTED] T4374.055
    
    [GRAPHIC] [TIFF OMITTED] T4374.056
    
    [GRAPHIC] [TIFF OMITTED] T4374.057
    
    [GRAPHIC] [TIFF OMITTED] T4374.058
    
    [GRAPHIC] [TIFF OMITTED] T4374.059
    
    [GRAPHIC] [TIFF OMITTED] T4374.060
    
    [GRAPHIC] [TIFF OMITTED] T4374.061
    
    [GRAPHIC] [TIFF OMITTED] T4374.062
    
    [GRAPHIC] [TIFF OMITTED] T4374.063
    
    [GRAPHIC] [TIFF OMITTED] T4374.064
    
    [GRAPHIC] [TIFF OMITTED] T4374.065
    
    [GRAPHIC] [TIFF OMITTED] T4374.066
    
    [GRAPHIC] [TIFF OMITTED] T4374.067
    
    [GRAPHIC] [TIFF OMITTED] T4374.068
    
    [GRAPHIC] [TIFF OMITTED] T4374.069
    
    [GRAPHIC] [TIFF OMITTED] T4374.070
    
    [GRAPHIC] [TIFF OMITTED] T4374.071
    
    [GRAPHIC] [TIFF OMITTED] T4374.072
    
    [GRAPHIC] [TIFF OMITTED] T4374.073
    
    [GRAPHIC] [TIFF OMITTED] T4374.074
    
    [GRAPHIC] [TIFF OMITTED] T4374.075
    
    [GRAPHIC] [TIFF OMITTED] T4374.076
    
    [GRAPHIC] [TIFF OMITTED] T4374.077
    
    [GRAPHIC] [TIFF OMITTED] T4374.078
    
    [GRAPHIC] [TIFF OMITTED] T4374.079
    
    [GRAPHIC] [TIFF OMITTED] T4374.080
    
    [GRAPHIC] [TIFF OMITTED] T4374.081
    
    [GRAPHIC] [TIFF OMITTED] T4374.082
    
    [GRAPHIC] [TIFF OMITTED] T4374.083
    
    [GRAPHIC] [TIFF OMITTED] T4374.084
    
    [GRAPHIC] [TIFF OMITTED] T4374.085
    
    [GRAPHIC] [TIFF OMITTED] T4374.086
    
    [GRAPHIC] [TIFF OMITTED] T4374.087
    
    Mrs. Chenoweth-Hage [presiding]. Thank you very much, Mr. 
Coyle, for your testimony.
    The Chair now recognizes General Kadish for his testimony.
    General Kadish. Madam Chairman, members of the committee, 
thank you for the opportunity to testify on the National 
Missile Defense program this morning and to discuss the impact 
of the test results to date on our technological maturity and 
the challenges we face. I have not had the privilege of 
appearing before your committee until today, and I am pleased 
to be able to do so.
    In general, there are basically two ways to look at the 
program's progress to date, and they could be termed the 
``glass half-full'' and the ``glass half-empty.'' While our 
objective is to make the glass completely full, my assessment 
at the moment is that it is half full. I say this because we 
have made remarkable progress and substantial technical 
progress, despite two high profile test failures.
    As you know, we have been aggressively pursuing the 
development of the NMD system to achieve operational status as 
soon as practicable.
    Mrs. Chenoweth-Hage. General, excuse my interpretation. 
Would you pull your microphone closer?
    General Kadish. Our complex goal of fielding a system 
within a short timeframe is not unprecedented. Indeed, it has 
been compared with the urgent programs to deploy our Nation's 
first nuclear ICBM force.
    On average, it took 4\3/4\ years for the Poseidon, Polaris, 
Trident I and----
    Mrs. Chenoweth-Hage. General, would you please start over.
    General Kadish. OK.
    Mrs. Chenoweth-Hage. Thank you very much.
    General Kadish. In general, there are two ways to look at 
the program's progress to date, and they could be termed the 
``glass half-full'' or the ``glass half-empty.'' While our 
objective is to make the glass completely full, my assessment 
at the moment is that it is half full. I say this because we 
have made remarkable and substantial technical progress despite 
two high-profile test failures.
    As you know, we have been aggressively pursuing the 
development of the NMD system to achieve operational status as 
soon as practicable.
    Our goal of fielding a complex system within a short 
timeframe is not unprecedented. Indeed, it has been compared 
with the urgent programs to deploy our Nation's first ICBM 
force. On average it took 4\3/4\ years for the Poseidon, 
Polaris, Trident I and II sea-launch ballistic missile programs 
and a Minuteman I, II and III ICBM programs to field the 
capability. That is from the engineering, manufacturing and the 
development stage to the achievement of initial operational 
capability.
    While the proposed NMD system is in some ways a more 
complex system than its predecessors, each of these earlier 
programs had its own significant managerial, technical, 
schedule and political challenges to meet. In other words, our 
goal of defending the entire country against an emerging threat 
by an NMD system on an aggressive acquisition schedule does not 
represent an unprecedented divergence from the way we have 
procured some major systems in the past. However, it does 
represent a major divergence from the way we have normally 
pursued weapon system programs over the past 20 years.
    I should also point out that all development programs 
experience problems, especially in their early stages and when 
pioneering new military capability. The Atlas ICBM program 
experienced 12 failures in its 2\1/2\ year flight testing 
history and the Minuteman I program suffered 10 failures in a 
3\1/2\ year testing program. The Corona program in the early 
sixties to deploy our first strategic reconnaissance satellite 
survived 12 failures and mishaps before the first satellite 
could be successfully orbited. Its engineering challenges 
included mating an unproven satellite to a booster, launching a 
multistage rocket, separating the payload in space, ensuring 
the right orbit, orienting and operating optical sensors and 
coordinating the ejection of film capsules, and recovering the 
undamaged capsule after reentry.
    The point is that birthing a revolutionary technology and 
making it useful is a tough engineering job that requires 
discipline, patience and vision. To expect all activities to be 
successful is unrealistic given the history of such endeavors. 
When our Nation faced great need, program support by our 
national leadership persisted despite frustrations resulting 
from test failures and technical difficulties. As a result, 
once troubled programs have made profound contributions to our 
national security.
    Over the past 11 months the NMD program has had two 
failures in the three intercept flight tests conducted so far. 
While these were disappointments, we were able to collect 
valuable information on the integration of the system and we 
have a full schedule still ahead.
    Let me briefly discuss a little different perspective on 
operational testing. These early integrated flight tests that I 
mentioned do not meet the generally accepted definition of 
operational realistic testing that Mr. Coyle pointed out. They 
were never intended this early in the development phase. Ours 
is ``walk before you run'' approach. We have just recently 
entered the fully integrated testing phase after which the 
tests in our current plan will become progressively more 
stressful. The increasing complexity of our tests will involve 
among other things greater discrimination challenges, longer 
ranges, higher closing speeds and day and nighttime shots. The 
way our current testing program is planned, we will do a series 
of tests that become increasingly operationally realistic by 
the time the final independent operational test assessments 
must be made. This occurs years later in the program test 
series.
    Now I'd like to discuss some other fact of life testing 
issues, specifically range limitations.
    Range limitations are an inescapable reality and a direct 
result of the fact that our test range extends over about 4,000 
square miles of the Pacific Ocean. These test restrictions 
include safety constraints on missile overflight and impact 
areas. I'm sure we'd hear about it if the missile parts came 
raining down on Californians or Hawaiians or startled fishermen 
in the Pacific Ocean. We also don't want to add to the space 
debris, that it might threaten orbital or space launch paths. 
The effect of these restrictions is that we are permitted to 
flight test in only a limited part of the designed operating 
envelope and along different geometries than those from which 
potential missile threats might appear. We have to use robust 
simulations that are firmly anchored on and updated from data 
from earlier ground and flight tests to test the system under 
conditions our test ranges cannot permit.
    These restrictions were highlighted in both General Welch's 
and Mr. Coyle's independent reports and we need to address them 
as we proceed with the program. We are doing that. It's not 
that we don't want to change the restrictions but the cost, 
risk and policy issues must be resolved. These fact of life 
constraints, however, do not represent a problem for the near 
term, but we can increase our confidence in the system as we 
proceed if they are addressed now.
    Just to give you an example, let's consider the necessary 
role of the so-called C band beacon transponder and the global 
positioning system [GPS], equipment attached to the target 
warheads. These are necessary outgrowths of our testing 
limitations. None, I repeat none, of this equipment in any way 
aids the kill vehicle in finding, discriminating or 
intercepting the target during the final stages of the flight 
test.
    The C band beacon is necessary for the surrogate radar in 
Hawaii to act as if it were an upgraded early warning radar 
since we do not have one down range for the test. The GPS 
system allows the manager controlling the test to monitor the 
location of the target for range safety. It also provides the 
engineers examining post test data a critical source of 
validation information. It helps us to know what we saw or 
thought we saw at any precise time during the engagement.
    These beacons answer two of the most critical needs of any 
test program, ensuring the safety of all in the area, in this 
case the South Pacific, and ensuring we receive a comprehensive 
and adequate set of data. Should our other tracking systems 
fail during the test and thus not provide the target's location 
adequately, we would as a last resort use the GPS data to 
direct the kill vehicle to its sensor acquisition area in order 
to salvage the end game aspects of the test. In this case, we 
recognize it would no longer be a successful integrated system 
test, but it would provide more and useful information on the 
autonomous homing and discrimination capability of the kill 
vehicle. Again, this is only as a backup in the event of radar 
failure in the middle of what is a very expensive flight test.
    Finally, I'd like to discuss countermeasures. 
Countermeasures and counter-countermeasures are part of the 
continuing interaction of offensive and defensive systems 
throughout history. They are not new, nor are they unforeseen 
or unplanned for. The NMD system is itself a countermeasure 
against the threat of ballistic missiles. The United States 
understands the challenge of missile countermeasures. We've 
been in the missile business for a number of decades now and 
we've developed some very sophisticated sensors, computers and 
discriminants. We are continuing to refine these capabilities.
    But it is fair to say that we have not fully tested the NMD 
systems against countermeasure suites we expect. It's too early 
in our development effort. Our early test objectives are 
focused on accomplishing the basic technology of hit to kill. 
We do, however, have great confidence based on the testing and 
analysis we have done so far that we will be effective against 
the countermeasures we expect, and our future testing will 
confirm that confidence.
    Still, critics continue to fuel the skepticism surrounding 
the issue by using a simple technique, theory and practical 
application are the same. In other words, countermeasures may 
be easy science on paper, but effective ones are not all that 
simple to develop and even less simple to implement. The 
engineering challenges are very substantial. Structural issues 
can affect range, accuracy and payload, and no nation can place 
confidence in the effectiveness of its program without testing. 
Those who argue that a system can be defeated by 
countermeasures usually base their argument on assumptions that 
favor the offense while downplaying the capabilities of our 
emerging defensive system.
    In my view, credible, sophisticated countermeasures are 
costly, tough to develop, and difficult to make effective 
against our NMD design. Simple, cheap attempts can be readily 
countered by our system. I have made more extensive comments on 
this countermeasure issue in my written comments.
    In summary, Madam Chairman, I believe our glass is half 
full. We have made remarkable progress. We have shown that the 
foundation of our system hit to kill is achievable. While the 
test failures we've had so far are certainly disappointments, 
they are not unprecedented for the program of this scope.
    We have major challenges ahead as we work to continue to 
fill the glass and my goal is to fill it, but our progress to 
date has been solid. The challenges are no longer ones of basic 
science or technology. We know our fundamental design can work. 
The challenges before us are those of engineering and 
integration and building reliability into the system.
    Engineering, the schedule challenges and the technology 
integration tasks are tough. We are, however, ready to proceed 
aggressively.
    Thank you.
    [The prepared statement of General Kadish follows:]


    [GRAPHIC] [TIFF OMITTED] T4374.140
    
    [GRAPHIC] [TIFF OMITTED] T4374.141
    
    [GRAPHIC] [TIFF OMITTED] T4374.142
    
    [GRAPHIC] [TIFF OMITTED] T4374.143
    
    [GRAPHIC] [TIFF OMITTED] T4374.144
    
    [GRAPHIC] [TIFF OMITTED] T4374.145
    
    [GRAPHIC] [TIFF OMITTED] T4374.146
    
    [GRAPHIC] [TIFF OMITTED] T4374.147
    
    [GRAPHIC] [TIFF OMITTED] T4374.148
    
    [GRAPHIC] [TIFF OMITTED] T4374.149
    
    [GRAPHIC] [TIFF OMITTED] T4374.150
    
    [GRAPHIC] [TIFF OMITTED] T4374.151
    
    [GRAPHIC] [TIFF OMITTED] T4374.152
    
    [GRAPHIC] [TIFF OMITTED] T4374.153
    
    Mrs. Chenoweth-Hage. Thank you, General Kadish, for your 
testimony. The Chair now recognizes Ms. Bohlen for her 
testimony.
    Ms. Bohlen. Thank you, Madam Chairman. Madam Chairman, Mr. 
Tierney, members of the committee, I thank you for the 
opportunity to appear before you today to discuss our national 
missile defense program and how it relates to the Anti-
Ballistic Missile Treaty.
    It is this administration's position that we should not 
move forward with deployment of an NMD system until we have 
full confidence that that system will work and until we have 
made every reasonable diplomatic effort to minimize the cost of 
deployment and to maximize the benefit. I am obviously not in a 
position to speak on the technical or programmatic issues 
related to this system. General Kadish and Mr. Coyle have 
authoritatively addressed those aspects of the program. 
Instead, Madam Chairman, I will focus my brief remarks on the 
diplomatic and political context in which we have pursued the 
development of an NMD system and the diplomatic and foreign 
policy ramifications of deploying such a system.
    When the President decided last summer for planning 
purposes on an initial NMD architecture, he stated that he 
would make a decision on whether to deploy this system based on 
four criteria; our assessment of the threat, technological 
feasibility, cost and the overall impact on national security. 
A week ago today, as you know, the President announced that the 
NMD program is sufficiently promising and affordable to justify 
continued development and testing but despite impressive 
progress, that there is not sufficient information about the 
technical and operational effectiveness of the entire NMD 
system to move forward with deployment at this time.
    In making this decision, the President took into account 
the four criteria I just mentioned, and he made clear that we 
will continue to work with our allies and with Russia and with 
China to strengthen their understanding of and support for our 
efforts to meet the emerging ballistic missile threats and to 
explore, where appropriate, creative ways we can cooperate to 
enhance their security against this threat as well.
    Let me say just a few words about the diplomatic and 
foreign policy context of NMD. At the end of the day, as the 
President has repeatedly stated, no country can exercise a veto 
over a decision that he or a future President might conclude is 
in the best interest of the United States. But as he also noted 
in his speech last Friday, while an effective NMD can be an 
important part of our national security strategy, it can never 
be the sum total of that strategy or of a strategy to deal with 
nuclear and missile threats. We cannot fail to take the views 
and security requirements of our friends and allies into 
account as we move forward on this program. We have an 
obligation to do what is necessary to achieve consensus within 
the NATO and Pacific alliance which are essential to our own 
security and to reassure others of the steadfast commitment of 
the United States to preserving the international arms control 
regimes that they have come to rely on for their own security.
    To quote the President again, ``Over the past 30 years, 
Republican and Democratic Presidents have negotiated an array 
of arms control treaties with Russia. We and our allies have 
relied on these treaties to ensure strategic stability and 
predictability with Russia to get on with the job of 
dismantling the legacy of the cold war and to further the 
transition from confrontation to cooperation with our former 
adversary in the most important arena, nuclear weapons.'' We 
continue to believe that the ABM Treaty is, ``a key part of the 
international security structure we have built with Russia and 
therefore a key part of our national security.''
    For that reason, we have sought to strengthen and preserve 
the treaty even as we pursue our efforts to develop a national 
missile defense. We continue to believe that strategic 
stability based on mutual deterrence between ourselves and the 
Russians is still important in the post cold war period because 
we and the Russians still have large nuclear arsenals. The ABM 
Treaty provides a framework for ensuring strategic stability 
between our two countries, reducing the risk of confrontation 
and providing a basis for further strategic reductions.
    Clearly, deployment of the NMD system we are developing 
would require changes to the ABM Treaty. The deployment of an 
ABM radar at Shemya, AK, of 100 ground-based interceptors and 5 
upgraded early warning radars for the defense of all 50 States 
would violate the obligation contained in article I of the 
treaty not to deploy an ABM system to defend national 
territory. Such activities would also be inconsistent with the 
locational restrictions of article III of the treaty.
    We of course do not believe that the proposed system would 
violate the core purposes of the treaty and in fact believe 
that updating the treaty to permit a limited NMD would 
strengthen it. Accordingly, since last summer we have engaged 
at the highest levels in extensive discussions with Russia with 
the objective of reaching agreement on modifications in the ABM 
Treaty which would permit us to move forward with the limited 
NMD system proposed by this administration within the ABM 
Treaty. We have to this end provided to Russia a draft protocol 
to the treaty.
    Among U.S. allies, support for NMD is strongly conditioned 
on first securing Russia's agreement to cooperatively amend the 
ABM Treaty. In the broader international community as well, 
support for U.S. non-proliferation objectives on other foreign 
policy priorities is also often linked to preservation of the 
ABM Treaty.
    The degree to which other nations perceive that they have a 
stake in preserving the ABM Treaty was clear during this year's 
MPT review conference. For our allies and others the ABM Treaty 
is a touchstone of U.S.-Russian strategic stability. It is 
clearly perceived as an important foundation of the whole 
structure of international strategic security.
    In the consultations that Under Secretary John Holum has 
conducted with his Russian counterparts, as well as discussions 
at other levels, we have addressed three broad areas designed 
to meet specific Russian concerns. First, we have made clear to 
Moscow that in deploying a limited NMD system we are responding 
to a new threat from long-range ballistic missiles in the hands 
of states that threaten international peace and stability and 
we're not seeking to change the core foundation of strategic 
stability with Russia. We have told our Russian intelocutors 
that we believe the ABM Treaty should be preserved and 
strengthened by adapting it to a new strategic environment that 
did not exist in 1972, using the amendment procedures that are 
established by the terms of the treaty itself. We have proposed 
only those treaty changes that we believe are necessary to 
allow the United States to address those threats we expect will 
emerge in the near term while also establishing the basis for 
further adaptations of the treaty in the future should the 
emerging threat warrant.
    Second, we have sought to demonstrate to the Russians that 
a limited NMD system will not threaten their strategic 
deterrent and cannot be made to have that capability. Indeed, 
criticism by Russian officials of our NMD program has not 
focused so much on the impact of our proposed system on their 
deterrent but rather on their concerns that these deployments 
would establish an infrastructure that would allow future 
breakout.
    Finally, we have proposed to the Russians a series of 
confidence building and transparency measures. To date, as you 
know, the Russians have not agreed to our proposals to amend 
the ABM Treaty, but we have come considerably closer to 
agreement on some key aspects of the problem; for example, on 
the nature and reality of the threat. This progress is 
reflected in the joint statement on a Strategic Stability and 
Cooperation Initiative that was signed by Presidents Clinton 
and Putin in New York on Wednesday, and I have copies of that 
initiative if the members of the committee have not had a 
chance to see that yet and would be happy to submit it for the 
record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4374.088
    
    [GRAPHIC] [TIFF OMITTED] T4374.089
    
    [GRAPHIC] [TIFF OMITTED] T4374.090
    
    [GRAPHIC] [TIFF OMITTED] T4374.091
    
    Ms. Bohlen. We have also been pursuing close consultations 
with our NATO and Pacific allies who have all made clear that 
they hope the United States will pursue strategic defense in a 
way that preserves the ABM Treaty. Their support is important 
to us for a number of reasons. Our European and Asian allies 
are crucial to our efforts to counter the proliferation of 
weapons of mass destruction, including ballistic missiles and 
missile technology, efforts which continue to be a strong line 
of defense against the threat of missile proliferation. 
Moreover, an effective NMD will require the consent of two 
allies to upgrade the radars that are situated on their 
territory.
    Our allies have uniformly welcomed the President's decision 
to defer a decision on deployment as providing more time for 
discussion of the emerging ballistic missile threat and the 
role of ballistic missile defense in responding to that threat. 
We will continue this dialog with our allies in the months 
ahead. We have also made clear to China that our national 
missile defense efforts are not directed against them.
    In sum, Madam Chairman, the President's decision has given 
us more time to work toward narrowing our differences with 
Russia and to involving our allies in shaping a coordinated 
response to the emerging ballistic missile threat. We continue 
to believe that an effective NMD system can be developed and 
deployed within the context of resolving the concerns of our 
allies and the objections of Russia.
    Let me conclude by reiterating a point the President made 
in his speech last Friday. He said, ``No nation can have a veto 
over American security. Even if the United States and Russia 
cannot reach agreement, even if we cannot secure the support of 
our allies at first, the next President may nonetheless decide 
that it is in America's national interest to go forward with 
deployment of NMD. But by the same token, since the actions and 
reactions of others in the world bear on our security, clearly 
it would be far better to move forward in the context of the 
ABM Treaty and allied support. America and the world will be 
better off if we explore the frontiers of strategic defenses 
while continuing to pursue arms control, to stand with our 
allies and to work with Russia and others to stop the spread of 
deadly weapons.''
    Thank you.
    Mrs. Chenoweth-Hage. Thank you, Ms. Bohlen, for your 
testimony, and the Chair now first recognizes Mr. Tierney. We 
are in a section now where each member will be recognized for 5 
minutes for their questions. Mr. Tierney.
    Mr. Tierney. Thank you, Madam Chairwoman. Mr. Coyle, thank 
you for your testimony.
    As I mentioned during my remarks earlier, I am particularly 
concerned about the issue of countermeasures. Let me make sure 
that I understand your written testimony. You stated that 
targets in flight tests will have at most unsophisticated 
countermeasures and that they will employ only simple balloon 
decoys. Did I get that right?
    Mr. Coyle. That's correct.
    Mr. Tierney. Are you talking about just flight test prior 
to the deployment readiness review or all flight tests with 
test programs?
    Mr. Coyle. Both. The tests prior to the Development 
Readiness Review only had a simple balloon as the decoy, and 
the tests that are projected out into the future, that is, for 
the flight intercept test I should say, only use simple 
balloons as decoys.
    Mr. Tierney. So other countermeasures that are readily 
available, cooled shrouds, for example, that reduce the 
radiation emitted by warheads, there's no planned tests for 
that?
    Mr. Coyle. Those would not meet the definition of an 
unsophisticated threat. The C1 system is designed only to meet 
the so-called unsophisticated threat, and so a countermeasure 
like a cooled shroud that you mentioned would have to be dealt 
with with future versions of the NMD system called C2 or C3.
    Mr. Tierney. Those types of countermeasures do exist, yet 
there's no plans made to deal with them, at least in the C1 
stage. And now would that also be true for tumbling RVs and 
things of that nature, other countermeasures?
    Mr. Coyle. A tumbling RV is a different matter that 
actually might be the simplest thing for a nation to deploy. 
The easiest thing of all is don't even spin up the RV, just let 
it plop off the end. It's not as accurate when you do that but 
it is simpler, and so that's one of the reasons why I've 
recommended, and so has General Welch's panel, that we try some 
tests with tumbling RVs along the way.
    Mr. Tierney. On the balloon decoys that are scheduled for 
tests later in the program, to your knowledge, will they have a 
shape or motion similar to the target reentry vehicle?
    Mr. Coyle. Some of the balloons will be about the same 
size, but they won't have the same motion as the reentry 
vehicle.
    Mr. Tierney. What about our radar on the ground, has the X-
Band radar been tested during a flight test to determine 
whether it can deal with sophisticated or unsophisticated 
decoys?
    Mr. Coyle. So far the only decoys we have used have been a 
single, simple balloon. Later on, there will be tests with 
balloons that have radar absorbing material on them but just 
balloons.
    Mr. Tierney. Just balloons.
    General Kadish. Mr. Tierney, can I add to that a little 
bit?
    Mr. Tierney. Sure.
    Mrs. Chenoweth-Hage. General Kadish.
    General Kadish. The flight test program we have does not 
only consist of intercept flight tests. We have other flight 
tests that we call risk reduction flight tests that we fly 
against the radar and other sensors separately, and we have 
done a number of those tests against a wide range of 
countermeasures, including jammers. So although they were not 
intercept tests they were against our sensors and we'd be glad 
to provide that data to you in the appropriate context.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4374.092
    
    [GRAPHIC] [TIFF OMITTED] T4374.093
    
    Mr. Tierney. I assume Mr. Coyle has that data.
    Mr. Coyle. Yes, and those are fine tests to do. We 
certainly support them, but they're not intercept tests and so 
they only go as far as they go.
    Mr. Tierney. I guess what I'm talking about here is two 
things. One is effectiveness, whether or not you test, see if 
it works. One is level of confidence in any of this. If you 
test and it works once, that doesn't give us a great deal of 
confidence as it might if you tested several times or test all 
the different permutations that we could expect to see.
    Mr. Coyle, in your testimony you stated there might be 
different synergistic effects when multiple missiles are 
deployed. What did you mean by that?
    Mr. Coyle. Well, we probably should assume that if a so-
called rogue state were to send intercontinental ballistic 
missiles toward the United States that they wouldn't just send 
a single missile, that they might send two or more, maybe 
several, and so part of the challenge would be to see that you 
could deal with more than one incoming missile at once.
    Mr. Tierney. Does the current flight test plan test against 
multiple targets at all?
    Mr. Coyle. So far there are no tests like that planned.
    Mr. Tierney. Now the Rumsfeld Commission reported that 
countries with the technology to develop missiles most likely 
have the technology to develop countermeasures. So I am 
assuming you would agree that this is not a side issue to be 
dealt with somewhere down the road.
    Mrs. Chenoweth-Hage. Gentleman's time is up.
    Mr. Tierney. May I finish the question?
    Mrs. Chenoweth-Hage. Yes, please do.
    Mr. Tierney. Thank you. You would agree with me, sir, that 
this is not a side issue to be dealt with somewhere down the 
road, that this is a fairly integral part of our determination 
of whether or not this system is going to be effective and 
whether or not we'll have a sufficiently high level of 
confidence in the system?
    Mr. Coyle. Yes. That's why we've been recommending that 
these other kinds of tests would need to be done.
    Mr. Tierney. Thank you. Thank you.
    Mrs. Chenoweth-Hage. Thank you, Mr. Tierney.
    Ms. Bohlen, I guess I need to have you explain to me like 
Vince Lombardi used to, this is a football, because the issue 
of the viability of the ABM Treaty still troubles me. The 
original ABM Treaty of course was signed with the Soviet Union, 
the Union of Soviet States, and that no longer exists, and 
while the Confederation of Independent States is who our 
administration is working with, a new treaty with a new 
signator has not been accomplished that has been ratified by 
the U.S. Senate. How is it then that the administration is 
relying so heavily on an ABM Treaty that has not been ratified 
or the old treaty, that one of the two signators no longer 
exists?
    Ms. Bohlen. Madam Chairman, I will answer your question in 
two parts if I may. First of all, obviously this is a complex 
issue with many, many parts to it, and I think the 
administration's position is well-known but to have a complete 
answer, perhaps the best thing would be to submit a question in 
writing.
    But I would just add to that I think we have operated on 
the general principle that, as a matter of international law, 
agreements in force between the United States and the Soviet 
Union at the time of the dissolution of the Soviet Union are 
presumed to continue in force with respect to the Soviet 
successor state, and I think there is a long record on this 
going back to the Bush administration. So that is the second 
part of my answer, but if you would be pleased to submit a 
question we would be very happy to answer it.
    Mrs. Chenoweth-Hage. Thank you. I will, Ms. Bohlen. I think 
it troubles many Americans that we're engaging in a contract or 
a treaty where one of the two signators no longer exists, and 
it is an assumption on the part of the administration, but the 
Senate has a role here, as do the American people, and having 
the administration produce a signed treaty that must be 
ratified by the Senate. Is there--and I thank you for your 
answer and I will submit my question in writing and look 
forward to your written answer.
    Is there anyone else on the panel who would like to address 
this issue?
    I want to thank you for your testimony and while I agree 
that diplomacy is exceedingly important, I guess I just have to 
think that as we move from a nation whose major military policy 
was mutual assured destruction to a new vision in the future, 
not so new, since the 1980's, of protecting and defending 
Americans from foreign attack as our No. 1 priority, I hope in 
the future, I think it's a very worthy, worthy goal, and I 
guess I just have to echo what my former boss, former Senator 
Steve Symms used to say, I'm a dove, I just think we ought to 
be the best armed doves on the planet, and I think that--he 
said that back in the 1980's and I think it still holds true.
    General Kadish, your testimony was very informative, a very 
interesting study, but I do want to ask you. As you know, the 
President announced, and this has been referred to in testimony 
today, that he was deferring to the next administration the 
decision on whether to deploy the planned national missile 
defense system. Now, neither the President nor the Department 
of Defense provided information on the effect that this 
decision will have on the near term national missile defense 
options for our next President, whomever that might be. General 
Kadish, what was your organization's recommendation to the 
administration regarding the decision to defer to the next 
administration the decision on whether to deploy the planned 
NMD system?
    General Kadish.
    General Kadish. Madam Chairman, we in the program office 
and at the Ballistic Missile Defense Organization worked very 
hard to provide all the information required for the decision, 
and we presented that information as factually as possible up 
through the decisionmakers, and we did not provide a specific 
recommendation but an integrated assessment of the status of 
the program.
    Mrs. Chenoweth-Hage. I see. My time is up and I now 
recognize Mr. Allen for his questions.
    Mr. Allen. Thank you very much.
    Let me return quickly to the subject of countermeasures. In 
your testimony, General Kadish, you said that this is a system 
to defend all 50 States against a limited attack involving 
intercontinental ballistic missiles with unsophisticated 
countermeasures launched by states of concern such as North 
Korea, Iran and Iraq. Well, buried in the word 
``unsophisticated'' is an important issue. It seems to me that 
we--almost any state--let me back up for a moment.
    The Rumsfeld Commission some time ago warned us that North 
Korea was proceeding more rapidly than some in our Intelligence 
Community had expected with the development of missile 
technology. It is easier, so far as I can tell and you can 
react to this, to determine how a country is proceeding on its 
missile technology than on its countermeasure technology, and 
it seems to me that we have limited information, classified, 
about the countermeasure technology that states of concern may 
have or may acquire in the future and on the other hand our own 
sensors, the technology surrounding our own sensors and our 
ability to discriminate among countermeasures, such as decoys 
of one kind or another, is also classified and yet if an 
adversary that can build an ICBM has sophisticated and not 
unsophisticated countermeasures, this system may not work at 
all. And if you would react to that I'd appreciate it.
    General Kadish. Mr. Allen, as I tried to point out, there 
is no military system that I'm aware of that is perfect either 
on the offense or the defense. So with that as a basic 
assumption, some of them, however, are pretty good, and the 
basic architecture that we laid out for the national missile 
defense program is that we would start with an initial 
capability that we termed for purposes of discussions C1, for 
unsophisticated countermeasures based on the Intelligence 
Community's best estimate of what we would expect to see in the 
timeframe that we're talking about, in the 2005 or mid-decade 
area. In addition, the system has inherent capability to go 
beyond that, even though we would not necessarily design and 
test aggressively to some of the more sophisticated 
countermeasures in the early phases. But we had always planned 
to have followon phases, at one time called capability two, or 
capability three as we now refer to it, where the sophisticated 
countermeasures would be incorporated into our testing and 
design activities.
    So you need to look at the National Missile Defense program 
not as an end item that is static forever. If you do, we miss 
the point here because we will never be successful against the 
countermeasure issue. We do not view it that way. We view it as 
an ongoing aggressive activity that addresses the 
countermeasures in an action response method based on our best 
intelligence and the inherent capability of the system.
    Mr. Allen. If I can get one more question in, we've had all 
this conversation about Shemya, the construction of radar 
facilities at Shemya, AK. Let's suppose that through 
negotiation or otherwise North Korea abandons its missile 
program. Of what use against Iran or Iraq would be a radar 
facility at Shemya, AK?
    General Kadish. Iran and Iraq, there would be little use. 
It's in the wrong spot, and the curvature of the Earth plays a 
major activity.
    Mr. Allen. Let me make just one--this is not a question but 
one comment. One, it's maybe beyond the scope of these hearings 
today, but one concern I have is that it seems to me that 
advocates of missile defense are not taking account of the 
logical and necessary responses that some others in the world 
would have to make, and it is not just Russia, it's not just 
the ABM Treaty. It is also China, and China now has about 20 
ICBMs, a very limited force. It seems to me that an almost 
automatic response by the Chinese to the development of this 
system would be to increase their missile force. That sets off 
potentially a chain reaction with India and Pakistan, causes me 
great concern. As I say, maybe, Ms. Bohlen, if that's something 
you feel you could address today, I'd appreciate it.
    Ms. Bohlen. My first answer to that would be that China is 
already, independently of our national missile defense program, 
as you know, engaged in a strategic modernization program. This 
is unrelated to what we have done so far and this will 
considerably increase their force, increase their survivable 
force.
    China's objections are well-known. They have been very 
public. We have had a dialog with them also to try to persuade 
them that the system is not in any way directed against them or 
against their deterrent.
    Obviously in their minds it becomes very much linked with 
the whole issue of Taiwan and theater missile defenses in the 
region. So we have tried to establish a clear boundary between 
those, those two issues and we will continue those efforts at 
dialog. But we also anticipate that whatever is decided about 
NMD, the Chinese strategic force will be considerably larger in 
a few years than it is now. Thank you.
    Mr. Warner. If I might comment also, Mr. Allen, just on the 
link of India and Pakistan, China has a range of missiles of 
varying ranges, ones of a theater character, ones they are 
expanding substantially, for instance, and those that are 
opposite Taiwan. It is really theater range missiles that pose 
the main threat to South Asia as they would see it. So the 
growth in their ICBM capability is unlikely to be that directly 
relevant.
    I believe that growth is underway very much as Ms. Bohlen 
just described. The strategic modernization of China's force 
has been well underway for well over a decade. We anticipate 
expansion and greater technological capability over time, the 
South Asia piece, not lessening it at all, but it tends to be 
more related to the pattern at which China modernizes its 
intermediate range missiles which can easily range into those 
countries.
    Mr. Shays [presiding]. Thank you. Mr. Kucinich, you have 
the floor for 5 minutes. We'll be coming back with a 10-minute 
round after Members have gone the first time, and I would like 
to note that the chairman of the full committee Mr. Burton is 
here and we'll go to you after Mr. Kucinich.
    Mr. Kucinich. Mr. Shays, I'd be happy to yield to Mr. 
Burton, at least yield, you know, my place to him if you would 
come back to me.
    Mr. Burton. Thank you, Mr. Kucinich. I don't want to be 
redundant. I just got here so if I cover some ground that has 
not yet, or that has already been covered, please forgive me.
    One of the things that's concerned me as the chairman of 
the committee and as a Member of Congress, and I think my 
colleagues as well, has been the theft of nuclear secrets at 
Los Alamos and Livermore, and a lot of people have said that 
the theft of those secrets could be analogous to what happened 
with the Rosenbergs back in the fifties. I mean, it's a major, 
major problem and we've talked to a number of people about 
that. As I understand it, the W-88 warhead technology is now in 
the possession of the Chinese Communist Government and they 
also have other technology through their connections with Loral 
and Hughes and other companies regarding their space satellite 
technology. They now have the ability to build an ICBM, and 
they also have the ability to put multiple warheads on one 
missile and they also have the technology to put that on a 
mobile launch vehicle that could be hidden in woods or 
someplace else which would be very difficult for our spy 
satellites to pick up.
    And the question I have, and I address this to any one of 
you, is that how long will it be before they, and I know this 
is an estimate or guesstimate, how long will it be before they 
have a mobile launched ICBM or permanently fixed ICBM silos 
with multiple warheads such as the W-88 warhead where they can 
put 8 to 10 on one missile, how long will it be before they 
have one of those operational, and what does it mean for U.S. 
security, and do we have any way, do we have any way right now 
or in the foreseeable future to intercept and shoot down the 
multiple warhead missile if it's launched at the United States? 
In other words, how long is it going to take for them to 
perfect it, in your estimation? Once it's perfected, if they 
launched at the United States do we have any defense for it? 
And also because of the MIRVing, because they got as many as 10 
warheads on it, once those split apart in the outer atmosphere, 
could we shoot down all 10 of those smaller missiles with the 
W-88 warhead or would we just lose a bunch of cities in the 
United States?
    I know it's a pretty big question, but I'd like to have an 
answer if I could. Thank you, Mr. Chairman.
    Mr. Warner. There has been a recent national intelligence 
estimate on these matters, and it's at the classified level. I 
could--let me just generally say, the Chinese have been--their 
next generation capability, both of intermediate range and long 
range, is mobile in character, one of their main efforts. So 
they have a mobile missile capability in train. I don't have 
the unclassified date so I won't speculate on that, but we can 
certainly make an arrangement to make that available to you.
    Similarly, we've long believed that the Chinese have the 
capability to move toward multiple independent reentry 
capability in the years ahead, and I'm virtually positive that 
also is examined in that estimate and we would be happy to 
bring it to you.
    Mr. Burton. How about the last part of the question, let's 
say for instance--and I'm not asking you to divulge any 
classified information because you don't want to give the exact 
timetable--and any one of you can answer this. Let's say, for 
instance, that they do in 5 years have an ICBM that is mobile 
launched or in a silo that has multiple warheads and they 
launch it at the United States. Do we have any defense 
capabilities that would shoot down those incoming ICBM 
missiles, the MIRV warheads, and if we don't they could hit as 
many as what, 8 or 10 cities, and I presume that would amount 
to a real devastation of our economy and also cost us maybe 20, 
30, 40, 50 million people?
    Mr. Warner. Let me turn to General Kadish on the scheduling 
and timing but put a couple of things quickly into context. 
First, of course the primary objective of the NMD system 
being--that has been examined and developed by this 
administration has been linked to the question of the so-called 
states of concern like North Korea, Iran, Iraq. It is a fact 
that it inherently has capability to also intercept missiles 
from nations like China or Russia or it would have when it were 
available.
    On when it is available now will depend, as President 
Clinton made the decision last week, now on the next President. 
We have a program underway that will provide an option for the 
next President to have such a capability in the middle part of 
this decade if he chooses to move in that direction, whoever 
that may be.
    Mr. Burton. So what you're saying is if we--the next 
President were to move very expeditiously on this some time 
within 5 or 6 years we could have a system that could intercept 
and shoot down multiple warhead missiles coming in?
    Mr. Warner. The C1 capability is generally aiming at--the 
C1 and C1 enhanced is somewhere between a handful to a few tens 
of reentry vehicles in flight. So by the time the C1 enhanced 
were deployed, which could be in 2006, 2007 timeframe. Now as 
to the issue of whether it would include--it would depend on 
the degree of the countermeasures that might accompany the 
Chinese attack because this one, as we've just talked about, is 
against simpler countermeasures.
    Mr. Burton. Thank you, Mr. Chairman.
    Mr. Shays. Be happy to have you respond.
    Ms. Bohlen. Could I just add to that? I think it's worth 
pointing out that we have no defenses against China's present 
strategic system. It's not the addition of a mobile system that 
will make us more vulnerable. A more important point is I think 
you need to focus on the limited size of the force and of the 
modernization. Clearly we are not looking at a modernization 
that would in any way or dimension approach the size of the 
Russian force which is still arrayed against us or has been 
arrayed against us.
    Mr. Burton. If the chairman would just give me just a 
second, I know, but that begs the issue. One missile launched 
at the United States, hitting New York City or Chicago or Los 
Angeles, would be devastating as far as loss of population and 
what it would do to our economy, just one, and so whether or 
not they have the capability to launch 30, 40, 50 or 60 
missiles at one time really isn't the issue. Do we have the 
ability to shoot down or stop a missile of that type from 
hitting the United States? We do not have at the present time 
and, according to what was just said, we're looking at the 
middle of the decade at the very earliest, the next decade. 
That is if the President, the new President, gets on the stick 
and gets the daggone thing underway.
    So the big concern that I have is, you know, we don't 
anticipate conflict with anybody in the future, but you don't 
know what might happen, and so it seems to me that the 
responsible thing to do would be to get on with it as quickly 
as possible, and unfortunately, that's not what's happening 
right now.
    Thank you very much. Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman. I'd like 
to direct my first question to Mr. Coyle. In your testimony on 
page 27 under observations and conclusions, you come up with--
you say, additionally the program will have to adopt a 
parallel, quote, fly through failure approach that can absorb 
tests that do not achieve their objectives in order to have any 
chance of achieving a fiscal year 2005 deployment of an 
operationally effective system. I want everybody to think about 
this for a moment.
    Now, where I come from, Cleveland, OH, if something fails, 
it doesn't fly or if something doesn't fly, it fails. You can't 
keep flying if you keep failing. Now, right here in your 
comment, you talk about a fly through failure approach which 
implies that it fails but it keeps flying. Do you want to help 
me with that?
    Mr. Coyle. Yes, sir. The only point I was trying to make 
there was that there will be failures in the test program, and 
if everything is in series, every time you have a failure, it 
sets back the whole program and the whole program will take 
longer and longer and longer. If the country expects to be able 
to achieve the kind of capabilities we're talking about on a 
2005, 2006, 2007 time scale, we'll have to do things in 
parallel, such that if you have a failure in one test you can 
in parallel go ahead with the second one.
    Mr. Kucinich. I understand what you're saying now, except 
what it implies is that, well, General Kadish was saying we are 
going to walk first, then we are going to try to run. What 
you're saying is even if we haven't learned how to walk, we're 
getting ready to become an Olympic sprinter. It's kind of an 
interesting construction that you have there because I think 
through all of this we need to explore the illogic that is 
laden heavily throughout all of these propositions advancing 
this system.
    Now, I wonder, Mr. Coyle, is there any maximum monetary 
threshold above which you would recommend that the NMD is not a 
cost effective weapons system?
    Mr. Coyle. I think that's a question for somebody else. I'm 
just a test person.
    Mr. Kucinich. OK. Well, let me ask it to someone else. 
General Kadish, is there any maximum monetary threshold above 
which you would recommend that the NMD is not a cost effective 
weapons system?
    General Kadish. In the program management business and 
development business, Congressman, there's a balance between 
cost, schedule, risk and deploying and making weapons systems 
work, and that's an integrated process. Basically, what I can 
do is provide you our best estimates.
    Mr. Kucinich. What's the maximum? Just give me a maximum 
number? Is it $60 billion, $100 billion, $200 billion? What 
would it be?
    General Kadish. I think, again, I could provide estimates 
of what we think a particular program----
    Mr. Kucinich. We're just here among friends. Give me a 
number.
    General Kadish. I agree wholeheartedly with Mr. Coyle.
    Mr. Kucinich. Well, is there anyone here that has any 
numbers at all, anyone? I have a document that was handed here, 
national missile defense cost estimate increases 1996 to the 
year 2000. It started off, I think Mr. Tierney was the one that 
was able to come up with this. It started out with an amount of 
$9 to $11 billion and it's now at $50.5 billion. Now, you all 
remember that Star Wars took us into the stratosphere of 
spending on R&D of over $60 billion. We're now including all 
the estimated costs into the troposphere fiscally of over $100 
billion and more. I just wonder, General, is there any level of 
spending on NMD technology that could cause the Department of 
Defense to sacrifice procurement of other weapons, paying for 
operations and maintenance of the aging and increasingly 
expensive arsenal of planes, ships, etc?
    General Kadish. As a taxpayer, we're all concerned, 
certainly I am, about what things cost and work hard every day 
to do that and make sure that we are proper stewards. Our 
current estimates for the program which are under a major 
revision now because of the President's decision was in the 
neighborhood of a $20 billion acquisition cost of which $5.7 
has already been spent and about a $32 billion life cycle cost 
for 20 years. Now, the CBO has done estimates and included more 
of the system elements than we would have included, but it's of 
that magnitude that we currently have as an estimate, and as we 
go through the congressional appropriations process and the way 
we do our budgeting, it's for the Congress and the 
administration to decide whether that's adequate.
    Mr. Kucinich. I appreciate that. I would like to submit for 
the record this attachment. How much time do I have? Do I have 
another minute?
    Mr. Shays. Your time is over now, but you will have a 
significant amount of time in your followup.
    Mr. Kucinich. OK. Thank you.
    Mr. Shays. I'm told that the decisions I make today will 
have impact 10 years from now and that what we have today were 
made by Members of Congress, Senate, the President 10 years 
earlier, and so it's hard for me to kind of visualize that. 
We're in a world 10 years from now, but I sure want to make 
sure I'm making the right decisions now.
    I had voted against deployment of SDI and GPALS. I had 
voted for research. I represent, I guess, kind of in the middle 
here. My colleagues to my right didn't vote for the National 
Missile Defense Act of 1999, and my colleagues on--to my left, 
my other Republicans probably voted for deployment earlier, but 
this is the law. It is the policy of the United States to 
deploy as soon as technologically possible an effective 
national missile defense capable of defending the territory of 
the United States against limited missile, ballistic missile 
attack. Mr. Warner, I want to know if you believe that this is 
in fact the law.
    Mr. Warner. Yes, sir. It was signed by the President.
    Mr. Shays. Does it have your total support?
    Mr. Warner. Yes, sir.
    Mr. Shays. General Kadish.
    General Kadish. Yes, Mr. Chairman.
    Mr. Shays. Mr. Coyle.
    Mr. Coyle. Yes, sir.
    Mr. Shays. Ms. Bohlen.
    Ms. Bohlen. Yes, sir. I would only add that the President 
issued a statement at the time that made clear this was to be 
taken in a context of arms control developments and 
appropriations--I'm sorry, I don't have the exact language, but 
I think the two things have to be seen together. That 
represents administration policy.
    Mr. Shays. Mr. Warner, is it your view that now it is not 
technically possible but it will be?
    Mr. Warner. We have a program underway that we believe has 
made great progress that has demonstrated the fundamental 
technologies that in light of the recent testing difficulties 
and some other issues has greater schedule risk than we would 
have hoped; that is, the date at which it would be available, 
but certainly it is our belief that we should, as the President 
directed, continue the development to in fact see if we can 
meet the test that--remember, we talked about the four tests 
that the President has laid out. One of them is the one 
directly related to this law, and that is, is it 
technologically feasible. I believe for limited national 
missile defense we as a Nation can develop that capability and 
will be able to do so within the next several years.
    Mr. Shays. General Kadish.
    General Kadish. I would agree with that assessment, Mr. 
Chairman. We--at this point in time we've been aggressively 
testing the system that we have put together over the last 24 
to 36 months, and we continue to do so and, as we continue to 
test it, will get more confidence in it. But we do have 
confidence we can move this system along within a very short 
period of time.
    Mr. Shays. Mr. Coyle.
    Mr. Coyle. Mr. Chairman, my job is to make sure that 
military equipment is adequately tested in realistic, 
operational situations. It's not unusual for new military 
systems to do quite well in early technical testing, early 
developmental testing and then have great difficulty when they 
get to more realistic operational testing.
    Mr. Shays. I hear you there, but it's not a question of 
whether we're going to deploy, it's when, and the when depends 
in part on whether the technology is there. My question is, you 
don't believe the technology is present but do you believe it 
will be?
    Mr. Coyle. As I said in my testimony, that's yet to be 
shown to be practicable. By that I meant able to be reduced to 
practice so that you could depend on it in a realistic 
operational situation, and that's why I said it the way I did, 
and so my view is it's too early to tell and we won't know the 
answer to your question until we get to operational testing.
    Mr. Shays. Thank you. I am going to come back for a 
followup. Ms. Bohlen, I would guess I'd still like to ask your 
opinion, whether you think it will be technologically possible.
    Ms. Bohlen. Mr. Chairman, with due respect I don't feel I'm 
the most competent person to address that question. I defer to 
my colleagues. I would note that the President said in his 
speech last Friday that there is not sufficient information 
about the technical and operational effectiveness of an NMD 
system to move forward at this time.
    Mr. Shays. Let me just say, Mr. Burton, I don't need to 
yield you time because I'll give you full time to start as 
chairman, then we'll go to Mr. Tierney. So you have time to ask 
your questions.
    Mr. Burton. Thank you, Mr. Chairman. I won't take much 
time. First of all, I appreciate very much your--and Mr. 
Tierney, I will be through here in just about 1 minute but I 
really appreciate you yielding to me.
    One of the things that staff has just brought to my 
attention which really concerns me is there is opposition by 
some people in the Congress and in the country for us building 
a missile defense system, but as I understand it, China in 1993 
purchased from the Russians the S-300, which is a missile 
defense system, and they're currently negotiating to buy the 
Russian S-400 system, and our question is, why would it be 
logical for us to expect the Chinese, who could potentially be 
a problem for us down the road, to build a missile defense 
system around Beijing when we in the United States can't or 
won't build a missile system? Does that seem logical to you?
    Ms. Bohlen. Mr. Chairman, I will defer to my colleague, Mr. 
Warner, but I would just note that we have a theater missile 
defense system. I think the systems you were talking about fall 
in that general range.
    Mr. Burton. I'm not talking about----
    Ms. Bohlen. And we are permitted under the ABM Treaty to 
have a site which we have chosen not to exercise.
    Mr. Burton. I'm not talking about a theater missile defense 
system. I'm talking about a fully launched missile defense 
system that would protect the United States, the continental 
United States.
    Mr. Warner. The point--the illustrations that you cite of 
the S-300 and S-400 are Russian theater missile defense 
systems. The Chinese--the Russians are enthusiastically seeking 
to merchandise those systems and have been for the last 
decades.
    Mr. Burton. But we have none around American cities or 
around any part of the continental United States?
    Mr. Warner. We have theater missile defense systems under 
development. Our general purpose, our explicit purpose for them 
is to deploy them to protect our troops in the field.
    Mr. Burton. But none around the United States or planned 
around the United States or anything?
    So what we could do is Beijing, around Beijing and around 
major cities in China, they can deploy a theater missile 
defense system like the S-300 or the S-400. But around 
Washington, DC, Los Angeles, Chicago, New York we cannot deploy 
a theater missile defense system or any kind of a missile 
defense system so they protect Beijing. Washington, DC, is fair 
game.
    Mr. Warner. They protect Beijing against theater missile 
threats, shorter-range missiles from somewhere near their 
territory.
    Mr. Burton. Would those theater defense missile systems be 
effective in any way against an ICBM?
    Mr. Warner. They would not.
    Mr. Burton. You are sure?
    Mr. Warner. We have looked at that very carefully.
    Mr. Burton. OK. Thank you very much.
    Mr. Shays. Mr. Tierney, you have 5 minutes. We will roll it 
over for another 5 minutes.
    Mr. Tierney. Thank you, Mr. Chairman.
    Let me get back to one issue that you brought up, Mr. 
Chairman, a little while ago about what the policy is in this 
country. We talked about the policy of deploying a system as 
soon as technologically possible. But I think it also goes on 
to talk about an effective system. The fact of the matter is if 
the system cannot be shown to be effective, then perhaps we 
shouldn't deploy it, and, again, I go back to the issue of 
having confidence in the effectiveness. It's not enough to show 
that it works once or it works twice. In order to have it do us 
any good at all, it's going to have to be shown that it works 
to such a degree that we can have confidence to employ it and 
to deal with it as if it was going to work sufficiently, 
regularly to be effective. Also the whole policy is subject to 
the annual authorization of appropriations, so the Congress 
very much has something to say about where we go on this.
    In section 3, the third section of the legislation that 
also we mention, which talks about the need to seek continued 
negotiated reductions in Russian nuclear forces, the idea being 
that now we have a conflict, it doesn't say how we are going to 
resolve the conflict, if there is one, between deploying the 
system and negotiating reductions, and we have to work and 
decide that.
    I think there are circumstances that we can see that would 
serve to actually encourage proliferation and undercut the 
effectiveness of the national missile defense system if we're 
not careful in how we proceed on this. So I think we have to be 
on record in discussing and considering all of those aspects in 
determination of whether or not we go forward.
    Mr. Coyle, maybe it would be helpful if you briefly 
discussed or described what your office does and what your 
responsibilities are as the primary advisor to the Secretary of 
Defense on testing and evaluation issues.
    Mr. Coyle. Yes, sir. My responsibility and the 
responsibility of my office is to oversee the testing programs 
that are conducted of military equipment, and in particular to 
be sure, as I said earlier, that they're adequately tested in 
realistic operational situations, which can mean, you know, in 
the mud and the rain and the dirt or against countermeasures, 
all of the things that can arise in real combat. I approve the 
test and evaluation master plans that are submitted by the 
military departments for each of these testing programs. I 
approve the operational test plans when we get to that phase, 
when we get to operational tests--we're not there yet with 
national missile defense--and I report to the Secretary and to 
others, to the Congress as well, on the results of such tests.
    Mr. Tierney. So I think it would be fair to say that 
Congress created your position outside the weapons program 
offices to ensure that their testing and evaluation are up to 
par?
    Mr. Coyle. That's correct.
    Mr. Tierney. How would you rate the technological 
difficulty of this program in relation to other defense 
acquisition programs?
    Mr. Coyle. I think this is probably the hardest thing we've 
ever tried to do. This is more difficult than the F-22 fighter 
aircraft; more difficult than the Comanche helicopter; more 
difficult than any aircraft carrier or submarine or tank or 
truck that we've ever tried to build.
    Mr. Tierney. With respect to the President's four criteria 
in deciding whether or not there is going to be deployment, how 
would you say the program is faring to date?
    Mr. Coyle. I would say the progress to date is about what I 
would have expected. What was difficult was that we faced a 
deployment readiness review, with implications there in the 
word ``deployment,'' when we were still very early and are 
still very early in the developmental test program.
    Mr. Tierney. Well, you have raised concerns, I think, in 
your role as director of IOT&E. In 1999, your report, for 
example, stated that ``undue pressure has been placed on the 
program and that test conditions do not suitably stress the 
system in a realistic enough manner to support acquisition 
decisions.''
    Did you also make a formal report during the deployment 
readiness review?
    Mr. Coyle. I did, yes, sir.
    Mr. Tierney. What was your recommendation in that report?
    Mr. Coyle. That report pointed out the limitations in the 
tests that have occurred so far. Much of that discussion is in 
my long statement for this hearing. So that report pointed out 
the limitations in the tests so far, and also pointed out the 
ways in which the tests were not realistic, the ways in which 
the testing program had slipped and other matters that I 
alluded to in my short statement.
    Mr. Tierney. Can you provide the subcommittee with that 
report?
    Mr. Coyle. Certainly.
    Mr. Tierney. Mr. Chairman, I would ask that it be accepted 
on the record.
    Mr. Shays. Without objection.
    Mr. Tierney. In the context of the deployment readiness 
review, I have a hard time seeing how anyone examining the 
information could possibly make a decision to deploy at this 
particular point in time, especially when nowhere in the 
testing program are there flight tests against some very basic 
countermeasures of multiple warheads. And I think our 
intelligence agencies tell us that those will be the norm. Why 
isn't the Department of Defense listening? Having read your 
report, why are they still going forward recommending 
deployment at this stage while it seems, to me at least, that 
your report was very well-founded on some logical information?
    Mr. Coyle. It might be better if General Kadish or Mr. 
Warner answered that question.
    Mr. Tierney. General Kadish, can you tell me--assuming that 
you've read Mr. Coyle's report, and assuming that all that he 
says in there is accurate, why it is that the Department of 
Defense still made a recommendation to deploy when it seems 
fairly clear that it's very, very premature at this point?
    General Kadish. I think it's helpful to understand how the 
program is structured and the confusion that surrounds this 
word ``deployment.'' What we have done and offered to the 
Congress and the President was to say that we have a 
development program that's aggressively ongoing even today that 
it is trying to bring this technology into the field. In order 
to meet a date early in this mid-decade, we have to back up 
from 2005, the date we establish as the earliest we could do 
this program, at the same time that we're developing it and 
build the system at the same time we're testing it and 
designing it. That's the way national programs of importance in 
a very short time have to be done, so that you make decisions 
to move to the next build cycle on an incremental basis based 
on the results of your test, and that's the program we 
constructed.
    And this thought of deployment is that--is the decision to 
build the system. That could be done incrementally, or it could 
be done all at once, but you take a risk in any military 
program when you design and build it at the same time. You need 
to do that, unfortunately, because of the way the world works 
in order to meet a shorter time horizon for a program of this 
nature. If you want to do as Mr. Coyle suggests and wait until 
you're all finished with the development, do operational 
testing with real soldiers under realistic conditions, which we 
intend to do, and then build the system, then you have an 
automatic delay of at least 4 to 5 years before you can have a 
useful capability in the field. So that's the problem.
    Mr. Tierney. Or under your plan, General, we can build 
something that doesn't work, and then we're really up the 
river, huh?
    General Kadish. In the plan that we have put forth, there 
were event-based milestones that checked our progress, and we 
just passed one of those, the DRR if you will, that would check 
our progress, and the country could make the decision whether 
it was worthwhile to proceed.
    Mr. Tierney. And we decided in this instance at least it's 
not yet?
    General Kadish. The President made his decision based on 
the information we provided.
    Mr. Tierney. Based on the failures to date and the other 
considerations that were there.
    I think there's some concern about the significant delay in 
various aspects of the program, General, but let's talk first 
about the booster.
    As I understand it, the flight test was supposed to be 
integrated, right?
    General Kadish. [Nodding in the affirmative.]
    Mr. Tierney. They haven't yet used the launch vehicle that 
was intended for this system, right?
    General Kadish. That's correct. We never planned to use 
that launch vehicle because we started the program very 
aggressively, and we used a surrogate booster for our first 
test.
    Mr. Tierney. So it's not integrated to that extent?
    General Kadish. It is not integrated to that extent. And 
that was the way it was planned.
    Mr. Tierney. But even the surrogate booster failed, is that 
right, in the IFT-5?
    General Kadish. That's correct.
    Mr. Tierney. Now, the new booster is supposed to undergo 
its first boost vehicle test in February of this year, so the 
results could be factored into the deployment readiness review, 
but that test was delayed at least originally until July, 
right?
    General Kadish. That's right.
    Mr. Tierney. And now subsequently it's been scheduled for 
when?
    General Kadish. Right now early next year in the January/
February timeframe. We haven't really scheduled a test at this 
point in time.
    Mr. Tierney. So this first booster was--has not occurred, 
it's been delayed over a year, it's not available for 
deployment readiness review at this point?
    General Kadish. Right. And never planned to be so.
    Mr. Tierney. Well, then, it wasn't very integrated I guess 
is my point.
    Mr. Coyle, why is it important that the actual booster be 
tested with the system rather than a surrogate?
    Mr. Coyle. The actual booster will subject the kill vehicle 
on top of it to faster speeds, higher speeds and greater 
accelerations, and so you would want to make sure that this 
very energetic new booster doesn't, in effect, hurt the kill 
vehicle when it's launched.
    Mr. Tierney. The third booster test, the one where you 
actually combine the booster and the kill vehicle, how far has 
that been delayed now?
    Mr. Coyle. My recollection is over a year.
    Mr. Tierney. And I think, Mr. Coyle, that you mentioned 
that even a greater impact might be felt with delays in the 
simulation and ground test facilities. Can you tell us what the 
LIDS system is and what it's supposed to do?
    Mr. Coyle. It's a, if you will, computer simulation system 
which allows various aspects to of the overall system to be 
played, to be tried out in simulation.
    Mr. Tierney. And the use of this system, at least 
initially, was supposed to be available for the deployment 
readiness review?
    Mr. Coyle. That's correct.
    Mr. Tierney. And how long has the development of that 
system been delayed now?
    Mr. Coyle. Again, my recollection is at least a year.
    Mr. Tierney. Now, I think both of those were being 
developed by Boeing; is that right?
    Mr. Coyle. Yes, sir.
    Mr. Tierney. General, is it true that you recently withheld 
part of Boeing's bonus because of delays in the booster in the 
LIDS program?
    General Kadish. Among other things, yes.
    Mr. Tierney. How much in dollar numbers were they docked 
for that?
    General Kadish. I would have to get back to you with the 
specific dollar amount if I take that for the record, but it 
was about a 50 percent reduction.
    Mr. Tierney. So about $20 million?
    General Kadish. I believe that's the range.
    [The information referred to follows:]

    Modication P00053, which incorporates the award fee amount 
awarded for the 4th Award Fee Period, reduced the total amount 
awarded for the 4th Award Fee Period by $21,058,307.

    Mr. Tierney. I'll get back to this.
    Mr. Shays. Thank you.
    Mrs. Chenoweth-Hage.
    Mrs. Chenoweth-Hage. Thank you, Mr. Chairman.
    General Kadish, I am impressed with your testimony because 
as we move in this Nation from a policy of mutual assured 
destruction to a policy of mutual assured survivability, there 
is nothing more important that the military and the Congress 
can engage in in accomplishing that vision. And very often the 
military, like Members of Congress, catch an awful lot of 
flack, but I appreciate the perseverance that you have 
demonstrated. Perseverance is the key to America's 
survivability and to America being able to achieve peace 
through strength. And I appreciate your testimony very much.
    I did want to ask Mrs. Bohlen, the administration, as you 
have testified to, has been negotiating with the Russians to 
amend the ABM Treaty. These attempts, as we know, have been 
unsuccessful, and the Secretary of Defense also said that 
development and deployment of the boost-phase intercept systems 
for the national defense would not obviate the need to amend 
the ABM Treaty.
    I would like to direct this question to both you, Ms. 
Bohlen, and Mr. Warner. My question is, what specific changes 
need to be made to the ABM Treaty to deploy the limited ground-
based national missile defense system now planned; and that is 
to say, after it's been ratified by the U.S. Senate?
    Ms. Bohlen.
    Ms. Bohlen. Thank you. Clearly at some point or another, 
deployment of the national missile defense system, which has 
been under development and testing in this administration, 
would require changes to the ABM Treaty. Just to recall what I 
said in my statement, the deployment of an ABM radar at Shemya, 
of 100 ground-based interceptors and 5 upgraded early warning 
radars for the defense of all 50 States--this is just the C-1 
program--would violate the obligations contained in article I 
of the treaty not to deploy an ABM system to defend national 
territory. These activities would also be inconsistent with the 
locational restrictions of article III.
    What we have proposed to the Russians is a draft protocol 
to the treaty which would in effect amend the treaty in such a 
way as to permit these activities, to render them not contrary 
to the treaty, while at the same time retaining the provisions 
of the treaty that underpin the relationship between us of 
strategic stability.
    I think if I could take that a little bit farther, and I 
would be happy to talk with you further about the specifics, I 
think what we're trying to do with the ABM Treaty is to 
preserve those elements which we continue to think are 
valuable, which are those that define our strategic 
relationship with the Russians. I don't think that even those 
who support a more robust national missile defense want to 
really take issue with that relationship of strategic 
stability. It is very important in this post-cold war world. We 
continue to have large nuclear arsenals, and we do not want to 
send a signal that we are trying to undercut the effectiveness 
of the other country's offense. So that is the core of the ABM 
Treaty that we're trying to preserve.
    At the same time it is clear that we have moved into a new 
strategic environment with the threat that is coming from the 
ballistic missile potential of the countries of concern that we 
have talked about this morning, and we need to be in a position 
to respond to that threat. And it is by the way, a threat that 
threatens not only the United States, but the Russians and our 
European allies as well.
    So our problem is not to throw the baby out with the bath 
water. We think that the core of strategic stability, which is 
at the heart of the ABM Treaty, is something good and something 
we want to preserve, but it needs to be adapted to new 
conditions, and that is the essence of the task that we've been 
trying to do in our discussions with the Russians over the last 
year.
    Mrs. Chenoweth-Hage. Thank you, Ms. Bohlen.
    Mr. Warner.
    Mr. Warner. I would like to reinforce the last issue that 
Ms. Bohlen was just speaking about. We believe that mutual 
deterrence with Russia is still a very important dimension of 
our relationship in the world, and we want to sustain it. What 
we're really saying is that these are not mutually exclusive. 
We can sustain mutual deterrence with Russia because the 
limited national missile defense system we would deploy even in 
its two phases is one that would not threaten the Russian 
retaliatory deterrent. And that is different, and I am just 
being clear, that's quite different than the vision that, for 
instance, President Reagan had in the 1980's.
    On the question of changes to the ABM Treaty, there was one 
additional element that came up as well. One of them was the 
question of covering the whole 50 States or national territory. 
That's banned by the treaty in article 1. We would have to 
amend that. Another one was location not in Grand Forks, which 
is currently what we've declared as our ABM area. There's also 
a technicality that the location of the X-Band ABM radar was 
going to be a lot more widely separated from the interceptors. 
Even when we went to Alaska, we put the radar in Shemya, and we 
would plan to put the interceptors in central Alaska. So we 
needed relief not only being in Alaska, but in the separation 
between radar and interceptors.
    There was a third element, and that is we would upgrade the 
five early warning radars, the three that were the classical 
ballistic missile early warning radars in Alaska, Greenland and 
the United Kingdom, and two that are in the United States, one 
in California, one in Massachusetts.
    We understand our plans would make those radars capable of 
helping effect an ABM intercept. That's different than the role 
they play today when they are just warning. So we also had to 
propose, and did in the proposed protocol, changes to article 6 
and article 9 that would anticipate that these early warning 
radars could, in fact, play a role in ABM intercept 
engagements.
    Mrs. Chenoweth-Hage. Thank you, Mr. Warner.
    Mr. Chairman, I guess our major concern as I hear across 
America is we don't--we're nervous. The American people are 
nervous about an ABM Treaty with Russia constraining us from 
protecting the American people from a missile defense attack 
from rogue nations. And so that's why I've really zeroed in on 
this particular issue. And I don't want to get particularly 
political on you, Mr. Chairman, but I know as a woman that the 
No. 1 issue that women are concerned about in America today is 
this issue. I can tell you it's not a health issue. It is where 
will America be in 10 years. And is our military providing for 
the defense of America?
    Thank you very much, Mr. Chairman. I yield back the balance 
of my time.
    Mr. Shays. I thought you were going to bawl me out for 
calling you Hage-Chenoweth instead of Chenoweth-Hage.
    Mr. Allen.
    Mr. Allen. Thank you, Mr. Chairman.
    Mr. Coyle, General Kadish said a few moments ago that in 
light of the President's decision, there would have to be some 
reassessment of the projected cost of this program. And in your 
testimony--I may have heard him wrong, but I can come back to 
that. In your testimony you said you had some recommendations 
for additional testing to deal with some of the complexities 
that we're talking about, and just to run through them quickly, 
in your testimony you said there should be--you said the target 
suites used in integrated flight tests need to incorporate 
challenging, unsophisticated countermeasures that have the 
potential to be used against the NMD C-1 system; for example, 
tumbling RVs and nonspherical balloons. And you recommend use 
of the large balloon be discontinued because it doesn't mimic 
in any way the current test RV, the reentry vehicle.
    The second, you said engagement times of day and solar 
position need to be planned to stress the acquisition and 
discrimination process by all the sensor bands, and you have to 
look at the effects of weather.
    Then you said, third, when an interceptor is launched 
against a target cluster before the RV is actually identified, 
it is resolved and discriminated against, you have to do some 
testing there. And then you said at least--since it's not 
likely that only one missile would be fired by a state of 
concern that somehow believed its cause, its interest would be 
advanced by firing missiles at the United States, that you 
ought to do at least some engagement with two, at least two, 
incoming missiles.
    My question to you--and you had another example as well--
have--does this mean some additional time and some additional 
cost in the program if your recommendations are accepted? I am 
not asking you how much, but--Mr. Coyle's office is looking at 
the costs for these proposals, both the proposals that I've 
made and that General Welch's panel made, and he perhaps should 
be the best to comment about that, whether or not it would take 
additional time will depend on how you do it. And as I said 
earlier, if you do everything in series, certainly it will take 
longer, which is why if the country intends to achieve dates on 
the order of 2005 or 2006 or 2007, I would recommend that the 
testing program be done with more things happening in parallel.
    Mr. Allen, General Kadish, do you have a comment?
    General Kadish. We have taken Mr. Coyle's as well as 
General Welch's and other recommendations internal to the 
program to enhance our ability to test the system, and we've 
taken those very seriously. They do cost money, and in some 
cases a lot of money. And we are now in the process of trying 
to balance the schedule, the cost and the technical risks 
associated with those. But I can assure you we're taking every 
one of those seriously and will continue, because as this 
program is in development phase, as long as we are allowed to 
continue, there will be more discoveries of things we ought to 
do that would make sense. So we are proceeding along those 
lines.
    Mr. Allen. Do you foresee at some future time, weeks or 
months in the future, that you would come back and say, we've 
rethought the system, here's a new schedule, here's a new 
estimate of cost? Is that something you're planning to do?
    General Kadish. Yes, Congressman. We do that as a matter of 
course. And I insist on us always trying to improve what we're 
doing. And we're looking very carefully at the way we're doing 
business now and where we will make the required adjustments 
based on what we see so far to make it as effective as we can.
    Mr. Allen. Do you have any date in mind in which you 
might----
    General Kadish. Yesterday was good for me, but the process 
is a comprehensive one, so it's going to take some weeks. And 
as we go, we will be talking to Mr. Coyle, Dr. Gansler and all 
the leadership at OSD.
    Mr. Allen. Thank you.
    I have one other question. And in looking at some of the 
press--this is more for you, Ms. Bohlen, than anyone else.
    In looking at some of the press reflecting the debate in 
the administration over what it takes, what would be--what work 
at Shemya would be a violation of the ABM Treaty?
    It sounded as if there were three interpretations depending 
in part on which agency, but also maybe crossing agencies. One 
interpretation that Mr. Cohen advanced was that the United 
States would not violate the treaty until workers had laid 
rails to support the Shemya radar. That's a move that wouldn't 
happen until 2002. I gather that another legal interpretation 
was that the United States would be in violation at the point 
when workers begin pouring concrete, which was previously 
scheduled to occur in May. And a third interpretation was that 
the violation would not occur until the concrete foundation for 
the radar site is complete, somewhere in between the two times.
    You know, if you look back at history, in 1983 we, the U.S. 
Government, objected to the Soviets' construction of a large-
phased array radar near Krasnoyarsk in Siberia. And the Reagan 
administration argued that the radar was a violation of the ABM 
Treaty. They said Krasnoyarsk was a symbol of Soviet duplicity. 
And in 1989, the Soviets admitted that that radar had been 
built at a location not permitted under the ABM and was a 
technical violation of the treaty, and they subsequently 
dismantled it.
    Is the Department of State and the Pentagon as well taking 
a look at--let me rephrase that. Has this dispute within the 
administration lawyers been resolved, to your knowledge, or are 
there still these three interpretations of what would 
constitute a violation of the ABM Treaty?
    Ms. Bohlen. Mr. Allen, at this point I would say the point 
is moot because the President has decided not to proceed with 
construction of the Shemya radar at this time.
    There were a number of options which are under review, but 
there was no decision made with respect to any of them, and at 
this moment, as I say, the question is moot. When Secretary 
Cohen spoke, he was expressing his views on this. It was not--
there is no administration position on this.
    Mr. Allen. Would you agree with me that the question will 
no longer be moot when another administration is confronted 
with the same issue? Of course, I think your response is going 
to be, that will depend on the state of our negotiations with 
the Russians, and I wouldn't accept that as an answer.
    Ms. Bohlen. I think the question will certainly arise 
again, and if the next administration decides to go forward 
with the present plans which include the construction of the 
Shemya radar, it will certainly arise.
    Mr. Warner. The point on timing and options is exactly as 
she said. We made clear, of course, whatever the Rubicon you 
cross, where you have, in fact, begun construction, we made 
no--we made clear to the Russians we understand putting an ABM 
radar on Shemya is a violation of the treaty. So I mean, unlike 
Krasnoyarsk, we are not going through any charade as they did 
for quite a time and sort of claimed that the radar that was 
coming in at Krasnoyarsk is not relevant. Whatever the point is 
at which it might violate the treaty, we understand that a 
treaty violation will occur when you finally have this radar.
    Mr. Allen. Thank you all very much.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    Mr. Kucinich, you have 5 minutes, and then it will roll 
over for another 5 minutes.
    Mr. Kucinich. Thank you, Mr. Chairman.
    Mr. Chairman, to General Kadish, do you believe that a 
nuclear war would have devastating consequences for all 
mankind?
    General Kadish. I believe any war has devastating 
consequences.
    Mr. Kucinich. What about a nuclear war?
    General Kadish. Of course.
    Mr. Kucinich. And do you think that effective measures to 
limit antiballistic missile systems would be a substantial 
factor in curbing the race in strategic offensive arms and 
would lead to a decrease in the risk of outbreak of war 
involving nuclear weapons?
    General Kadish. Congressman, I am a developer of weapons 
systems, and I feel a little out of my lane to answer that type 
of question. Perhaps Mr. Warner would tell you. Those are 
serious policy questions that are out of my responsibility at 
this point in time.
    Mr. Kucinich. So what you're saying then is that all you do 
is build the weapons whether there's a war or not?
    General Kadish. What I am saying is I might have personal 
opinions about those issues, but in my official 
responsibilities, my primary responsibility is to develop the 
missile defenses for this country as directed.
    Mr. Kucinich. Thank you.
    The reason why I asked that question, I actually developed 
those two questions from the preface of the ABM Treaty. And so 
if we look at where all this started years ago in 1972, an ABM 
Treaty--the purpose of the ABM Treaty was specifically to limit 
antiballistic missile systems that would be a factor in curbing 
the race of strategic offensive arms and to lead to a decrease 
in the outbreak of war involving nuclear weapons. Now, I would 
like to ask the administration's representative here, how does 
the administration's position square with article 5 of the 
treaty which says that each party undertakes not to develop 
tests or deploy ABM systems, etc. Haven't you already violated 
the treaty?
    Ms. Bohlen. No, it is not our view that we've already 
violated the treaty. I think all the development and testing 
activities we've conducted--but I would defer to General Kadish 
and Mr. Coyle on that.
    Mr. Kucinich. You haven't answered my question, and I want 
to go to Mr. Warner.
    Mr. Warner.
    Mr. Warner. Article 5----
    Mr. Kucinich. I want to go to Mr. Warner with a question 
here.
    You said that according to the work on this treaty you're 
doing with the Russians, that you can have a shield that would 
not threaten Russia's retaliatory deterrence. Did you say that?
    Mr. Warner. I did.
    Mr. Kucinich. OK. I just want to follow the logic of this. 
So we're asking American taxpayers to pay for a missile shield 
that can be by definition penetrated by Russia?
    Mr. Warner. That is, in fact, the proposal; a limited 
national missile defense, not a comprehensive defense.
    Mr. Kucinich. OK. I just want to make sure that I 
understand what's being advanced here.
    Mr. Warner. Could we answer your article 5 question?
    Mr. Kucinich. I have just 5 minutes, and we will have more 
time. I want to ask General Kadish a question.
    As you know, it's illegal to misuse the classification 
system, to hide allegations of fraud or to reclassify 
previously unclassified information. That's Executive Order 
12958 at subsection 1.8(a) and 1.8(c). Now, as you know, 
someone at the Department of Defense classified documents 
produced by Professor Postal of MIT that alleged that every NMD 
test has failed and that--secondly, that there was considerable 
evidence that NMD contractor TRW had defrauded the government.
    Why has the Department of Defense classified Professor 
Postal's allegations of fraud, and do you consider Department 
of Defense's classification of these allegations of fraud to be 
proper?
    General Kadish. We take all allegations of fraud very 
seriously. And we have aggressively, in my view, investigated 
them across--not only within our purview, but also with outside 
agencies including the Department of Justice. So--and that 
applies to beyond Dr. Postal's particular allegations.
    In that particular case I would prefer to talk to you 
offline a little bit about the details, but I will say in 
general the classification of Dr. Postal's information was not 
to the allegations he made, but some of the information upon 
which it was based. So we need to discuss that further in 
closed session, but I'll be glad to do that with you, 
Congressman.
    [The information referred to follows:]

    If a closed hearing were to be held the Ballistic Missile 
Defense Organization would have participants representing the 
legal, security, and technical perspectives. In addition, 
representatives from OSD Policy and TRW corporate should be 
invited. However, as there is currently a General Accounting 
Office (GAO) investigation underway, we believe that it will 
provide all desired insight into this issue, eliminating the 
need for a closed hearing or other meeting.

    Mr. Kucinich. Well, actually, General, with all due 
respect, it's been my experience that it's better to have these 
discussions in public.
    General Kadish. My only--excuse me for interrupting you. My 
only comment along that line is not to--it gets into classified 
information. That's the reason why.
    Mr. Kucinich. Of course. But knowing there's an Executive 
order against classifying allegations of fraud, what steps are 
you taking to investigate whether the Executive order was 
violated by Department of Defense employees?
    General Kadish. The Department is taking steps to look at 
those issues across a broad front.
    Mr. Kucinich. It's been--it's my understanding that the 
Department of Defense's inspector general is not investigating, 
that he's waiting for a GAO report. Do you know anything 
contrary to that?
    General Kadish. As far as the DOD IG, I am not specifically 
aware of any activity they are doing, but GAO is looking at it 
as well as other looks, as far as I know.
    Mr. Kucinich. So if there's reasonable grounds to conclude 
that there has been a violation of law regarding classification 
of allegations of fraud, would you refer--if you found that 
out--the case to the Attorney General?
    General Kadish. To the proper authorities immediately.
    Mr. Kucinich. I would like to go to this issue of states of 
concerns, which a few months ago were rogue nations, which a 
few months before that were terrorist states, which a few 
months before that may have been countries getting money from 
the United States. Which of the rogue nations are you getting 
ready to defend against, General? Who are the rogue nations?
    General Kadish. The direction we have is North----
    Mr. Kucinich. States of concern.
    General Kadish. The direction we have in terms of the 
capability of the system is for North Korea and the Middle 
East, Iran, Iraq and possibly Libya.
    Mr. Kucinich. So if any of these nations become our friends 
in the next few years, will you disband the program?
    General Kadish. The responsibility that I have is to 
continue a development program unless directed otherwise and 
possibly deploy. So I would defer that to a national decision.
    Mr. Kucinich. Sure.
    Now, if a state of concern or a rogue nation or previously 
unfriendly nation intended to harm the United States, which 
mode of weapons delivery is most likely? For example, smuggling 
a suitcase of radioactive material and explosive detonator in a 
commercial freighter to a U.S. port, using the--or using the 
most advanced and expensive weapons technology to launch and 
successfully target a U.S. city with an intercontinental 
ballistic missile, which is most likely?
    General Kadish. I think the Intelligence Community as well 
as the President stated that the most likely would be other 
means of delivery.
    Mr. Kucinich. So you would say the less expensive, less 
complex delivery method would be most likely?
    General Kadish. If the question is most likely. I would 
point out, however, that there is a reason why countries 
develop ballistic missiles, and it's not to threaten only their 
neighbors.
    Mr. Kucinich. And how would NMD protect against less 
complex, less expensive threats?
    General Kadish. I may defer to Mr. Warner, but from my 
point of view, in the development phase there are other means 
of protection this country has that even exist today for the 
terrorist threat. You can argue about how good those means are, 
but they do exist.
    In the case of ballistic missiles, there is no defense if 
one should be launched, so the country has to decide whether 
that is a worthwhile, even though unlikely, event to protect 
ourselves against.
    Mr. Kucinich. And according to what Mr. Warner said 
previously, if Russia--we would look to a treaty where Russia 
would be able to have a retaliatory ability against our shield.
    I would just like to conclude with this thought until we 
get to the next round. When I sit in these hearings, I get a 
sense of--with all due respect, because I know you're trying to 
serve the country as best you can, and you're not making the 
policy. Somebody is making the policy though. If they're not in 
this room, someday they ought to be hauled before a 
congressional committee and made to account. But I get a 
feeling that I'm seeing the development for a trailer for the 
second version of Dr. Strangelove, because what we're doing 
here is we're really trying to condition the American people to 
accept a new climate of fear. And I have to say, just as one 
American, one Member of Congress from Cleveland, OH, I don't 
like that. I think that we can do better as a country in 
creating a world that believes that peace is possible, not that 
war is inevitable. And this idea that somehow that we will 
prepare for peace through spending tens of billions of dollars, 
Mr. Chairman, for preparation for war is hard to take. I just 
have to mention that until I get my next opportunity to speak.
    Mr. Shays. Let me just say that I am going to exercise my 
10 minutes, and then Mr. Tierney has some questions he wants to 
ask, and then we do want to get on to the next panel. I 
appreciate the patience of the next panel.
    I would like to touch on a number of issues. I'm sorry 
we're jumping around a bit, but hopefully there will be a sense 
of completeness to this. It's my sense that we've moved from 
SDI to GPALS--Global Protection Against Limited Strikes--to now 
a system of national missile defense that is somewhat limited 
attempting to deal with rogue nations and maybe an errant 
missile from China or the Soviet Union.
    It's also my understanding that the ABM Treaty under 
article 14 allows each party may propose amendments to this 
treaty, and agreed amendments shall enter into force in 
accordance with the procedures governing the entry into the 
force of this treaty. So, I mean, we wrote into the ABM the 
fact that we may someday want to amend it. It also allows each 
party shall, in exercising its national sovereignty, have the 
right to withdraw from this treaty if it decides that 
extraordinary events related to the subject matter of this 
treaty have jeopardized its supreme interests. This is article 
15.
    So this is not--while it is a significant untaking, it is 
certainly within the agreement of the ABM. And it is logical 
that Members would be concerned about a national missile 
defense system because the concept of ABM is deterrence, that 
logically one group would say, after your first strike, we can 
obliterate you, so you're not going to want to do the first 
strike. But there is obviously a concern with rogue nations.
    I, like my colleague from Cleveland, fear the possibility 
of a nuclear weapon being literally brought in the trunk of a 
car or the back of a truck or put on a ship and brought to port 
in the United States and detonated, or chemical weapons. I 
mean, those are possibilities. But I also fear that 10 years 
from now I would have voted against a limited national defense, 
and a missile is on its way, and I think to myself what kind of 
decision did I make today?
    And obviously costs are a factor in destabilization, but I 
would love to just understand what it takes to get the Russians 
to sit down. And it would seem to me that one of things it 
might take to get them to sit down, to realize they have a 
benefit in this since it is a limited national missile defense, 
is for us to have moved forward with the radar in Alaska. And I 
would like to know why did the President decide not to move 
forward with the radar since the technology is clearly, I 
think, there to move forward? And maybe I'll just throw it open 
to the floor. I would like that explained to me.
    Mr. Warner. Well, as he announced it in his speech a week 
ago at Georgetown, the main factor was, to him, that there were 
now questions about the technical feasibility. He wanted the 
development program to go ahead.
    Mr. Shays. Not of the radar.
    Mr. Warner. No, but of the overall system; that those 
tended to, in his view, shove the initial operating capability 
out a year--he spoke of how it was capable of now being fielded 
in 2006 or 2007--and given the fact that now that this 
deployment would probably be a year later, there was not the 
same pressure to get the radar construction under way that 
there would have been if you were trying to make 2005.
    Mr. Shays. I'll follow that up, but, General Kadish, do you 
have a comment, Mr. Coyle, about the radar itself? Is the radar 
technologically there?
    General Kadish. I think you have to look at this as an 
entire system, and we've tried to evaluate it as an entire 
system.
    Mr. Shays. We will do that after you answer my question, if 
you would.
    General Kadish. The radar has progressed very well in the 
overall testing. It is probably one of the better elements in 
terms of our expectations.
    Mr. Shays. Mr. Coyle.
    Mr. Coyle. I would agree with that.
    Mr. Shays. So there was really no technological reason why 
we needed to wait on the radar.
    Now, you wanted to make your point that we need to look at 
this as a whole, but, Ms. Bohlen, isn't it true that if we 
moved forward, we would be calling the question, which the 
Russians seem to be forcing us to do? Are they sitting down 
with us?
    Ms. Bohlen. They were sitting down with us, Mr. Chairman. 
And as I indicated earlier, I think we have made some progress, 
not as much, obviously, as we hoped. But in the sense that they 
now accept that there is a threat, this was stated clearly in 
the joint statement of the two Presidents at the Moscow summit 
in June, there was absolutely explicit recognition that there 
is a threat out there of missile proliferation, and that it 
poses a threat to international stability.
    The Russians are seized with the issue. I think they will 
certainly look at the totality of the system, and they will 
look at what the next administration does on this.
    Mr. Shays. By a vote of 317 for it, Congress and the 
President signed into law the fact that we will have a national 
missile defense system. That's going forward. Now, it is 
subject, obviously, to annual appropriations of Congress, but I 
thought we got beyond the issue of whether, and the question is 
when. And so it would strike me that we had a viable part of 
the system that we could begin to implement, and that there 
would be a positive side effect to that, and that would simply 
be to force the Russians to know we're serious. I don't think 
they think we're serious. I think they think that we're going 
to back off.
    And as far as our allies not being for the system, I don't 
think they fear what we fear, and I think they may have reason 
not to fear it, but we have a reason to fear it. We think those 
missiles will be directed at us, not them.
    Ms. Bohlen. Well, I would say that for the allies certainly 
the threat in time is more immediate for them, the threat from 
the Middle East, and I think we have gotten their attention on 
this issue. There are many concerns out there, as you know. 
They are concerned about what happens if we can't get the 
Russians to agree to amend the ABM Treaty. They are concerned 
about what this does to strategic stability. They are concerned 
about decoupling. They are concerned about what steps they 
should take to protect themselves.
    So I think this gives us more time to pursue that dialog, 
and I think it's very important that we have allied support.
    Mr. Shays. My fear is that it will convince them that we're 
not serious. I mean, we had one part of the program we could 
begin to implement that we know works, and we decided not to, 
and I still am wondering why. Maybe one of you could tell me 
why we needed to stop there when we could have begun to build 
it?
    Ms. Bohlen. I think as Mr. Warner just said, we would not--
the delay in the radar----
    Mr. Shays. Let Mr. Warner say. I am not hearing it right 
now.
    Ms. Bohlen. We won't have a system.
    Mr. Warner. If the overall system is not going to be 
available until 2006, and we think that there is a challenging 
but achievable path to build the radar in Shemya, operationally 
test it and have it ready in about 4 years, then you can delay 
the beginning of that whole construction until the summer, the 
spring/summer of 2002 instead of the spring/summer of 2001.
    Mr. Shays. I know you can do that. I'm just wondering why 
we're----
    Mr. Warner. I am saying the context was that if there was 
no pressure to get started, why take that step now? The 
Russians are clearly waiting for the new President. There is no 
doubt about that. They began to signal that, in my view, to us 
in our talks with them certainly by the spring of this year, if 
not earlier. I mean, they know there's an election coming. They 
know that this, the legacy of whatever this President had done, 
would be subject to review by the next President. So, in a 
sense, we could never escape from the fact that there was going 
to be a new occupant of the White House. And the Russians in a 
sense said, once we've looked at the balance of all of this, 
we'll wait and see who that is and what he wants to do. And 
that, to my view, is where we stand on the question.
    And the Russians were willing to do some things in the 
interim. They did, in fact, acknowledge the threat. They've 
joined us in a series of cooperative activities, an agreement 
signed in New York just 2 days ago, but on the whole they're 
saying, we'll wait and deal with the next administration.
    Mr. Shays. Right. But your testimony still stands that the 
technology exists now that we could have moved forward?
    Mr. Warner. I want to clarify that. My personal judgment is 
that overall we will be successful, but it will have to be 
demonstrated. In that sense, I mean, I completely agree with 
Mr. Coyle. I think we have the fundamentals to do the job, but 
I can't say we've yet fully demonstrated it.
    Mr. Shays. I'm talking about the radar.
    Mr. Warner. I'm sorry. About the radar? The radar is in. We 
believe it has come along very well to do the task we have 
asked of it.
    Mr. Shays. I just want the record to show that there is no 
technological reason not to move forward with the radar.
    Mr. Warner. That was not cited by the President as one of 
the issues that he took into consideration, any difficulty with 
the radar.
    Mr. Shays. Thank you. I will yield to the ranking--not 
yield, but give the ranking member--excuse me. Would the 
gentleman mind if I just yield?
    Do you have a question?
    Mrs. Chenoweth-Hage. I do. I have a comment, Mr. Chairman, 
that I would like to make for the record, in response to Mr. 
Kucinich's question. I think it was a very interesting and 
probing question about terrorism versus realistic attack of an 
ICBM.
    In making my statement I would like to enter into the 
record officially an article entitled, ``Facing The Risks. A 
Realistic Look at Missile Defense,'' by John Train, who has 
been appointed as a contributing editor of Strategic Review and 
has received appointments from Presidents Reagan, Bush and 
Clinton. And to sum up his testimony, he answers Mr. Kucinich's 
question. He said, ``The administration may settle for a 
shallow and vulnerable missile defense that might not bother 
the Russians or some of the potential aggressors it's supposed 
to protect us from. An fanatic can attack the U.S. using other 
weapons, notably biological and chemical, against which we must 
defend ourselves. But many unstable countries are also at great 
expense building missiles that can hit the U.S. in coming 
years. One reason to erect defenses is to reduce the temptation 
for their use.''
    He concludes by saying, ``We are likely to be attacked at 
our weakest point and should leave no inviting apertures.''
    I think that sums it up, especially in view of the fact 
that we know North Korea is spending far more money on building 
a missile defense system than they are feeding their starving 
people.
    Thank you, Mr. Chairman.
    Mr. Shays. Without objection, we will put that in the 
record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4374.094
    
    [GRAPHIC] [TIFF OMITTED] T4374.095
    
    [GRAPHIC] [TIFF OMITTED] T4374.096
    
    [GRAPHIC] [TIFF OMITTED] T4374.097
    
    [GRAPHIC] [TIFF OMITTED] T4374.098
    
    Mr. Shays. Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    General, let me just pick up a little bit on the cost, if I 
can, for a second. As I understand it, this program started 
with an estimate of around $9 to $11 billion. I have a CRS 
report that tells us the estimate in January 1999 was $10.6 
billion, but yet CRS said by February 2000, about a year later, 
this estimate rose to $26.6 billion. What caused that sharp 
increase?
    General Kadish. When you're dealing with cost estimates, 
you have to define the time period and the elements that are 
included in the cost.
    Mr. Tierney. Well, this was from 1999, when it was $10.6 
billion, to February 2000, when it was $26.6 billion. So I 
think we're asking what elements changed to get that increase?
    General Kadish. I would probably be better off if we did 
this in response to the record, but just in general what I 
would say is that the $20 billion figure, that includes $5.7 
billion from 1991 to the present as well as what our best 
estimate at the time of what the ground-based system, the NMD 
system, was going to take to build. That gets you to about a 
$20 billion figure. Now, those elements are, of course, under 
review right now based on the decisions that have been taken. 
But that--and I would like to be more specific for the record 
to make sure that we line up what the CBO and the CRS say 
versus what our estimate is, because the time horizons as well 
as the elements are very important.
    [The information referred to follows:]

    The difference between the estimates is attributable 
primarily to a difference in the number of fiscal years 
included and the number of missiles fielded by the program.
The FY00O President's Budget submission (dated Feb 99) included 
$10.5B (cumulative total for FY1999-FY2005). $26.2 billion can 
be derived from the estimate that supported the FY01 
President's Budget submission (dated Feb 00) and is the 
cumulative total for FY1991-FY2015. Additionally, the $26.2 
billion included funding for: an additional 80 interceptors 
which expanded the number of interceptors in the missile site 
from 20 to 100, upgrades for X-band radar in Alaska that was 
added as part of the C1 expanded program, and for implementing 
the Welch Panel (Independent Review Team) recommendations.

    Mr. Tierney. Well, it jumped up that much by February 2000. 
But the CPO in April 2000 said it was going to be $29.5 
billion. And then the CPO--the JOA--GAO, rather, in May 2000 
said it was going to be $36.2 billion. So, I mean, all these 
figures keep jumping.
    General Kadish. Right. And a large part of the reason for 
what is implied as massive changes in the cost estimate, 
significant changes, is because we added missiles. The original 
cost estimate, as I recall, that we did was for 20 missiles in 
2005, and that was it, our so-called C-1 capability. But when 
we went to the expanded C-1 where there were 100 missiles by 
2007 under the old program, then the cost estimates, of course, 
had to be included for those new missiles that we added to the 
program.
    Mr. Tierney. GAO says that added about $2 billion. Would 
that be about right?
    General Kadish. About $2 billion is about the number I 
remember for a large part of the missiles, right.
    Mr. Tierney. So that still leaves a significant jump from 
$10.6 billion to $26.6 billion on that. Do you have some idea 
what the rest of that was all about?
    General Kadish. Again, I would like to be able to line 
those up in a more disciplined manner to show you comparisons 
than I can here in testimony.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4374.099
    
    Mr. Tierney. More recently as you went into the deployment 
readiness review, your office was charged with evaluating the 
program as it stood in July or perhaps August of this year. I 
think you came up with a new cost estimate for the DRR of $40.3 
billion, right?
    General Kadish. There were a range of cost estimates done 
not only by us, but by independent estimators within the 
Department.
    Mr. Tierney. But yours was $40.3 billion, right?
    General Kadish. The actual number, I can't remember exactly 
what it is, but it was around the $36--life cycle cost, it was 
about $36, as I recall.
    Mr. Tierney. If I give you a copy of your National Defense 
Review Agenda, your internal document, would that help you, 
because that has it at $40.3 billion.
    General Kadish. All right. If you take the cost comparison 
that we did, the FYDP or the future years defense program, the 
acquisition costs, total acquisition costs, and put it from 
2001 to 2028, from fiscal year 2001 to fiscal year 2028, and 
then your dollars, which means fully inflation-adjusted, if you 
add an additional $5.7 from the earlier timeframe, from 1991, 
which then gets you from 1991 to 2028, it's $40.3.
    Mr. Tierney. And that's the number you came up with on your 
internal review?
    General Kadish. That's right.
    Mr. Tierney. But the cost analysis improvement group, can 
you tell us who they are?
    General Kadish. They are an independent cost estimating 
agency within the Department of Defense.
    Mr. Tierney. They came up with $43.2 billion, right?
    General Kadish. They came up with about $1 billion more 
than what we did.
    Mr. Tierney. We came to $43.2 billion. That's a little more 
than $1 billion more.
    General Kadish. Well, I guess I'm talking about the 
acquisition costs.
    Mr. Tierney. So if we were to take their number, we are at 
$43 billion, and I understand there are other costs that aren't 
included in those estimates, one of them being the operational 
requirements document interoperability requirements. Those 
aren't in your numbers, am I right?
    General Kadish. We did a full cost----
    Mr. Tierney. As much as I would like to get an explanation, 
either it was or it wasn't. Was that in your number, the 
interoperability?
    General Kadish. Yes, it was.
    Mr. Tierney. So that's in your $40.3 billion?
    General Kadish. Yes.
    Mr. Tierney. OK. As I read your internal document, it does 
not reflect that it is but that's fine. How much were Mr. 
Welch's adjustments?
    General Kadish. We did our best estimate of what those 
elements would cost, and those are in our estimates as of this 
time. But all these estimates are under review, based on what 
the President's decision is, and we need to do an awful lot of 
work to make sure that we get the best estimate we can on the 
program.
    Mr. Tierney. Does your figure also include the alternative 
booster program costs?
    General Kadish. No.
    Mr. Tierney. That's another billion dollars or so.
    General Kadish. Should we decide to do that, that decision 
has not been taken.
    Mr. Tierney. Does it include restructuring of the program 
to remedy any testing delays?
    General Kadish. No, it does not.
    Mr. Tierney. It does not, all right. OK.
    General Kadish. Well, let me make sure I get that question 
right. For the test delays, yes. OK? For the additional time 
required in the extension of the program, no.
    Mr. Tierney. Well, with regard to the extension of the 
program, Mr. Coyle, you provided on page 5 of your testimony a 
figure too that shows graphically I think the slips in the 
flight test, the booster test and the LIDS that you identified 
earlier in that development. You also provided a general 
estimate of the range of slippage. I think basically the 
program is losing ground at the rate of 20 months every 3 
years; is that correct?
    Mr. Coyle. Yes, sir, that's correct.
    Mr. Tierney. If you extend that out, by what date would the 
program be able to field all 100 intercepters?
    Mr. Coyle. If the program were to continue to slip at the 
current rate, it would extend the date another couple 2\1/2\ 
years.
    Mr. Tierney. So 100 interceptors due 2007, and that's 7 
years; 20 months for every 3 years would be 47 months. So a 4-
year delay, right?
    Mr. Coyle. Yes.
    Mr. Tierney. So actually, 2007 becomes 2011?
    Mr. Coyle. Yes, sir.
    Mr. Tierney. OK. Now GAO reported that the program cost 
increased by $124 million every month the program slips. So by 
your calculation, that would add about another $5.8 billion?
    Mr. Coyle. The arithmetic sounds right to me.
    Mr. Tierney. Well, I did it in advance just to make sure. 
That's not my strong suit.
    OK. Let me just finish up here then. Ms. Bohlen, the State 
Department has obviously been conducting negotiations on the 
system and if we just disregarded the concerns of our NATO 
allies as some people have proposed, and that would abrogate 
the ABM treaty, is it likely that England and Denmark would 
allow us a place to forward deploy our radar sites?
    Ms. Bohlen. I think that's a very real question, Mr. 
Tierney.
    Mr. Tierney. In all likelihood, they wouldn't if we just 
went against their wishes?
    Ms. Bohlen. I think we can't absolutely say because you 
can't predict the circumstances under which this might happen.
    Mr. Tierney. But it is a pretty good bet?
    Ms. Bohlen. But we cannot take it for granted that we would 
have their permission, either to upgrade the early warning 
radars that we are talking about for the present system or 
building the X-band radars that we want for the later phase.
    Mr. Tierney. Without them, certainly that prevents us from 
being able to field the kind of proposed missile defense system 
that we are envisioning?
    Ms. Bohlen. Well, I would defer to General Kadish and Mr. 
Coyle on whether there are alternatives.
    Mr. Tierney. Well, Mr. Coyle, if we didn't have the support 
and England and Denmark didn't allow us to place our forward 
deployed radar sites on their territory, would that pretty much 
do away with our ability to field the system as it is currently 
envisioned?
    Mr. Coyle. Perhaps there would be some other alternative. I 
don't know.
    Mr. Tierney. Ms. Bohlen, I have seen a copy of an article 
from Jane's Intelligence Review that quotes several top level 
Russian officials. One is Defense Minister Igor Sergeyev, who 
declares that Russia must develop new weapons capable of 
neutralizing any U.S. ABM system. Another, Major General 
Vladimir Dvorkin, director of the Russian Defense Ministry's 
Central Research Institute suggests that Russia could redeploy 
its real mobile ICBMs if our defense system goes ahead. So I 
think that people argue a little simplistically that while 
Russia shouldn't have a veto over U.S. defense policy--I think 
we would all agree on that--but don't you think that those 
statements or statements like that should at least let us know 
that our actions have potential repercussions and we should at 
least take them into account? I assume your department would 
say that.
    Ms. Bohlen. I would certainly agree that our actions will 
have potential repercussions. What the Russians might do in 
reality if a future President decided to withdraw from the ABM 
treaty, again, it would depend very much on the circumstances.
    I hark back to what was said earlier, what Mr. Warner said. 
I think the Russians realize that they will have to face up to 
the problem, and I think they are waiting for a new 
administration to see exactly what the dimensions of the issue 
will be and what they will have to negotiate on.
    I think we would certainly not want to minimize the 
consequences if we were to withdraw from the ABM treaty, and I 
think that was certainly a factor that weighed in the 
President's decision.
    Mr. Tierney. Thank you. General, let me just say, isn't it 
fairly accurate--the 1999 National Intelligence Estimate said 
that one potential effect of our deploying a National Missile 
Defense system in violation of the ABM treaty would be for 
Russia or China to actually sell sophisticated countermeasures 
to other countries. Isn't that a real potential, that even 
though some of these so-called rogue nations may not have 
sophisticated countermeasures at present, that they could be 
purchased on the market from a ready seller at some point?
    General Kadish. That would be part of a proliferation 
regime, obviously. The challenge, however, even if 
countermeasures are sold, we have the ability to go through our 
C-3, our upgrade of the system, to handle that, and I would 
assert that just getting countermeasures is not enough. They 
have to integrate them into the total weapons system that they 
have and that is not a trivial challenge.
    Mr. Tierney. I will let you go on that because the chairman 
wants to move along, but I have a problem with the idea that we 
always assume that it's going to be too difficult for the rogue 
nations to have a missile system--to have countermeasures, but 
not too difficult for them to have missiles.
    General Kadish. We don't assume it would be too difficult. 
We assume that we could handle them based on our system design.
    Mr. Tierney. Which we don't provide the testing on, but 
thank you.
    Mr. Shays. I thank all four of you. I would welcome you 
each to make a closing remark if you would like to, if you have 
any comments to make. You have been very patient with this 
committee and we appreciate it, and we look forward to getting 
to the next panel. Thank you very much.
    Our next panel is the Honorable Lawrence J. Korb, vice 
president and director of studies, Council on Foreign 
Relations; Dr. Lisbeth Gronlund, senior staff scientist arms 
control program, Union of Concerned Scientists; Dr. William 
Graham, chairman and president National Security Research, 
Inc.; and Dr. Kim Holmes, vice president and director the 
Kathryn and Shelby Cullom Davis Institute, the Heritage 
Foundation.
    I welcome you all to stand so I can swear you in.
    Mr. Korb. Mr. Chairman, I have a statement for the record.
    Mr. Shays. No, we are going to swear you in, Mr. Korb.
    Mr. Korb. You have to swear us?
    Mr. Shays. You took my hand signal. You don't have to put 
your hand up yet. You are like me here. You are eager.
    I hope we have four witnesses. If you would raise your 
right hands. Thank you.
    [Witnesses sworn].
    Mr. Shays. I note for the record that all of our witnesses 
have responded in the affirmative.
    Have I left out a witness here? I am sorry. I should have 
pointed out, Mr. Baker Spring, research fellow is with the 
Heritage Foundation.
    Mr. Spring, you are welcome to respond to questions as 
well.
    Maybe we could slide in a little bit to get you into this 
group just a speck. Here. We are set. Thank you.
    Mr. Korb, you are going to start out. I think we realize 
that you have waited a while and I appreciate you being here.
    Yes, Dr. Graham?
    Mr. Graham. Mr. Chairman, I have a concern with my 
schedule. I had originally been told I would be able to leave 
by noon.
    Mr. Shays. Let me ask you this.
    Mr. Graham. I deferred my schedule to 12:45, but I have a 
hard cutoff.
    Mr. Shays. We are going to accommodate you. Dr. Korb will 
be happy to accommodate you. Correct? Or do you have a problem, 
too?
    Mr. Korb. I do, too, but I was told we would be out by 
noon.
    Mr. Shays. That's what we thought.
    Let me ask you, do you have a flight or do we have a flight 
here? Do you want to negotiate between the two of you?
    Dr. Graham will go, and if you could keep it to 5, maybe 
and we will go from there.
    Mr. Graham. Thank you, Mr. Chairman. I will go as quickly 
as I can and then I must excuse myself.
    Mr. Shays. I understand. I apologize.

   STATEMENTS OF DR. WILLIAM GRAHAM, CHAIRMAN AND PRESIDENT 
   NATIONAL SECURITY RESEARCH, INC.; LAWRENCE J. KORB, VICE 
     PRESIDENT AND DIRECTOR OF STUDIES, COUNCIL ON FOREIGN 
 RELATIONS; DR. LISBETH GRONLUND, SENIOR STAFF SCIENTIST, ARMS 
  CONTROL PROGRAM, UNION OF CONCERNED SCIENTISTS; AND DR. KIM 
  HOLMES, VICE PRESIDENT AND DIRECTOR THE KATHRYN AND SHELBY 
CULLOM DAVIS INSTITUTE, THE HERITAGE FOUNDATION, ACCOMPANIED BY 
     BAKER SPRING, RESEARCH FELLOW, THE HERITAGE FOUNDATION

    Mr. Graham. I have been asked to testify on test failures, 
technology development and ABM treaty provisions.
    Let me state by way of background that I believe both 
General Kadish and Dr. Coyle are exceptionally able 
individuals. On the other hand, I am not here to defend the 
current program. I believe that based on an assertion by Dr. 
William Perry when he was Secretary of Defense, that if the 
United States ever needed a national ballistic missile defense 
system the country could take 3 years to develop it and 3 years 
to deploy it, the infamous three-plus-three system. I could 
find no substance to that plan when it was proposed by Dr. 
Perry and none now. I believe it was probably designed to 
respond to congressional critics of the lack of any NMD program 
by the administration in the mid-1990's, and they are now 
struggling with a three-plus-five variant of that program, and 
their testimony is evidence to that struggle.
    Is there a need for ballistic missile defense? I served as 
a commissioner on the Commission to Assess the Ballistic 
Missile Threat to the United States, the Rumsfeld Commission. 
Its findings were very different from those put forward by the 
intelligence community at that time, and I believe they are 
well enough known that I won't go into those, although I 
believe the testimony did show, for example, that China is 
building new land-based and submarine-based ballistic missiles; 
Iran is building ballistic missiles; North Korea, Syria, Libya, 
and probably Iraq as well.
    Some believe that these ballistic missile developments by 
countries potentially hostile to the United States can best be 
handled by nuclear deterrence, arms control and diplomatic 
means. The problem with this approach is that it has been 
practiced for decades and has led to a current world situation 
where both missile and weapons of mass destruction, nuclear, 
chemical, biological threats continue to grow and proliferate. 
This, in turn, gives rise to potential situations where 
deterrence, as we traditionally understand it, may no longer be 
effective.
    The answer to a failing policy is not more of the same but 
the formulation of a new policy.
    While nuclear deterrence and diplomacy will continue to 
play an important role in U.S. counter proliferation policy, 
missile defenses and other military measures will strengthen 
U.S. counter proliferation policy, providing substance and 
therefore diplomatic leverage. Arguments to the effect that 
U.S. development and deployment of ballistic missile defense 
systems will trigger a new arms race are specious in view of 
the fact that the proliferating nations are already racing at 
full speed. What we must now do is try to counter that growing 
threat.
    Let me address technical feasibility for a moment. Many 
have questioned the feasibility and the testing methodology of 
the ballistic missile defense systems. This is especially the 
case with the national defense rather than the theater defense 
systems, since I believe as a result of U.S. coalition and 
Israeli experience of being attacked by ballistic missiles 
during the Gulf war, the need for theater missile defenses is 
now widely understood and accepted.
    The technical feasibility can be addressed from the vantage 
points of both U.S. experience and technology. And I will 
summarize this very quickly, but I will say that the purpose of 
testing, such as Dr. Coyle accurately described, is several 
fold, but the earliest part, the developmental testing, is to 
try to validate and improve the models that are used in the 
development of the system and to detect and compensate for any 
items or characteristics that were overlooked in the 
development of the models.
    You would expect and look for failures of the models and, 
to some degree, failures in the tests during that time. In 
fact, in insistence on low risk early successes in the 
developmental testing, I believe poses severe threat to U.S. 
leadership in the development of advanced technology in 
general, and cutting edge technology weapons systems in 
particular.
    This was a matter of direct concern to me when I was a 
science advertiser to the President and one I have had a 
continuing interest in. Systems that are required to be low 
risk from the outset must avoid the introduction of new and 
frequently untested technologies. Since the development and 
introduction of new technologies is, in fact, America's strong 
suit and one we have invested a great deal of money in, 
insisting on low risk complete early test success is tantamount 
to giving up much of the strong, unique advantage that the 
United States has acquired through its enormous investment in 
science and technology.
    The time to hold weapons systems to a high standard of test 
success is in the late phases of engineering development and 
especially in operational test and evaluation. By this time, 
the problems encountered in system development should have been 
worked out. A system should be ready for deployment.
    I believe Dr. Coyle's testimony, in fact, in reality, has 
pointed out that the administration has substantially 
underfunded operational tests and evaluation assets and 
capability for national missile defense systems, and that 
underfunding and under support should be rectified.
    On the other hand, while it isn't surprising there have 
been failures to date, there is an unusual disturbing aspect to 
the failures encountered so far. In most cases, they have not 
occurred in the new cutting edge technology aspects of systems 
tested, but rather in technologies that were developed decades 
ago and are now well understood features of rocket and missile 
design. The failures to date are typical of those caused by a 
lack of systems integration experience, rather than a lack of 
knowledge of missile and rocket design, and may be related to 
several characteristics of the defense industrial base today. 
These include rapid downsizing of the defense industry over the 
last decade; a small number of new systems that have been 
developed during that time period; the absence of new systems 
being produced, deployed and operated for several decades in 
the ballistic missile defense area, particularly national 
missile defense; and the inability of the defense industry to 
attract new technical talent and mentor its technical work 
force in the face of strong economic competition from the high 
technology commercial sector.
    The United States is learning once again that engineering, 
programmatic and operational experience is a difficult and 
expensive capability to acquire and an easy capability to lose.
    Nonetheless, as I summarize in the----
    Mr. Shays. How much more do you have? I am conscious of Dr. 
Korb as well.
    Mr. Graham. About 2 or 3 minutes, Mr. Chairman.
    Mr. Shays. And I am just going to let you get on your way 
afterwards.
    Mr. Graham. Thank you. I have given in my paper a table of 
15 different programs, such experiences which are typical of 
high tech missile and rocket-based programs that experienced a 
great deal of difficulty in the first stage and since then, 
have become some of our most successful systems.
    I would also like to point out that the hardest part of the 
way we do ballistic missile defense is the hit-to-kill aspect, 
one the Russians don't deal with because they use nuclear 
warheads on their interceptors and their Moscow defense system 
and also on their S-300 and S-400 systems that they have 
deployed around other parts of their country.
    However, something like 80 percent of the time that we have 
gotten our hit-to-kill technology in the terminal homing phase, 
it has actually proved to be successful. I think that's 
actually a remarkably good record.
    I give in my paper several--a whole list, in fact, of 
places where the ABM treaty is interfering with or compromising 
the development of our ballistic missile defense system.
    I would point out that in addition to the treaty now having 
been substantially violated by the Soviet Union, as was 
discussed earlier, and being a unilateral constraint on the 
United States, it is, in fact, playing a major role in limiting 
what we can do. Many of the criticisms of the current system's 
performance can be traced back to ABM treaty limitations. I 
give those in my paper, but I won't take the time to go over 
them in the testimony.
    Finally, I would like to say that a system design that 
would be effective would be different from the current system 
design. It would be a multilayer ballistic missile system 
design. It would involve ground-based components, sea-based, 
air-based and in the foreseeable future, space-based 
components. Virtually all of those are ruled out by the ABM 
treaty.
    But, in fact, with the ability to develop the full range of 
ballistic missile defense aspects and take advantage of the 
fact that we have the world's best instrumentation for 
observing foreign missile tests, and therefore, know today and 
will know in the future much more about the real world 
performance of their countermeasures than they will know, and 
be able to adapt to those when they test their countermeasures, 
if not before. I have no concern with our ability to overcome 
their countermeasures program, but I believe a foreign country 
deploying a countermeasure against us should have a real worry 
that we will know more about his countermeasure and its actual 
performance based on our ground, sea, air and space-based 
sensors, than he will have about the performance. This doesn't 
often come up in the discussion, but it is a very real worry to 
any potentially hostile country.
    So I don't believe the countermeasures is a limiting factor 
on what we can deal with. I believe it is a serious concern. I 
always have. I believe we should deal with it. We are dealing 
with it. We had an extensive experiment called MSX in which we 
put a satellite on orbit with a large array of sensors, fielded 
a large number of countermeasures against it, not just a few 
but a large number; not just simple but very sophisticated. We 
have the data on that. No one else does.
    So I would like to say, in conclusion, that if the United 
States were to carry forward a national program, drawing on our 
best capability from all of industry, not just from one 
contractor or a contractor and a few subcontractors but all of 
our capability, and had the constraint of the ABM treaty lifted 
from us, I have no doubt that we could develop an effective 
ballistic missile defense system and it would tend to 
discourage and deter other countries from building ballistic 
missiles rather than encouraging them to build them.
    Thank you, Mr. Chairman, and I apologize for having to 
excuse myself.
    Mr. Shays. Well, I understand. You told the committee staff 
that you did have to leave. It just didn't get relayed to me. 
Thank you.
    Mr. Graham. Thank you.
    Mr. Shays. Thank you for staying.
    [The prepared statement of Mr. Graham follows:]

    [GRAPHIC] [TIFF OMITTED] T4374.100
    
    [GRAPHIC] [TIFF OMITTED] T4374.101
    
    [GRAPHIC] [TIFF OMITTED] T4374.102
    
    [GRAPHIC] [TIFF OMITTED] T4374.103
    
    [GRAPHIC] [TIFF OMITTED] T4374.104
    
    [GRAPHIC] [TIFF OMITTED] T4374.105
    
    [GRAPHIC] [TIFF OMITTED] T4374.106
    
    [GRAPHIC] [TIFF OMITTED] T4374.107
    
    [GRAPHIC] [TIFF OMITTED] T4374.108
    
    Mr. Shays. Dr. Korb, thank you for your patience.
    Mr. Korb. I have a statement I would like to be made a part 
of the record.
    Mr. Shays. Put the mic in front of you. Is it on?
    Mr. Korb. I will make a few comments. First of all, I would 
like to commend you for holding this hearing and I think the 
testimony, particularly of Mr. Coyle earlier, demonstrates the 
wisdom of Congress in setting up that separate Office of Test 
and Evaluation.
    My testimony was prepared before President Clinton's 
decision, but I do support that decision as a victory for 
common sense, given the technological and diplomatic problems 
that we were having with the system.
    I point out in my testimony that the system we are talking 
about today has five components. All, to a certain extent, are 
pushing the technological frontiers and all must work all of 
the time in order for this system to be effective. I would also 
like to point out that in this system, two of the five phased 
array radars, as was pointed out by Congressman Tierney, are in 
other countries, and they are not going to let us use their 
nations unless they support the deployment. Ms. Bohlen, I think 
was quite diplomatic, but the fact of the matter is Denmark and 
Britain have said they will not let the United States do it, 
that is increase the power of the phased array radars if you 
violate ABM.
    In terms of technological challenge, as people always point 
out, we did the Manhattan project, we built the ICBM, we went 
to the moon. But the fact of the matter is nobody was defending 
the moon when we went there. This is a much greater 
technological challenge.
    I am sure with enough time and money, we could get an NMD 
system that's 85 percent effective with a 95 percent confidence 
rate, which as my colleague Dick Garwin, who worked on the 
hydrogen bomb and was a member of the Rumsfeld Commission, 
points out, is what you need with this system. This is not just 
any weapons system. NMD has to work and it has to work well 
when you use it.
    I am sure that with enough time and money we could hit a 
high speed warhead in outer space under controlled 
circumstances, but that's not what the Pentagon is doing. NMD 
is a concurrent weapons development program, and the last one I 
was involved in was called B-1, it happened when I was in 
government, in the early 80's and that darn thing still doesn't 
work because we rushed it into production. NMD has not yet 
really been tested, in my view, in a realistic battle 
environment.
    Again, as my colleague Dick Garwin notes in order to be 
confident that the system would work, you would need 20 
successes. If you have three failures, then you need 47 
successes, and we are nowhere near meeting those cirteria.
    Every time one system doesn't work supporters turn to 
another system. I have lived through Excaliber, Brilliant Eyes, 
Brilliant Pebbles and now I hear people talking about new, more 
robust systems. I recently debated former CIA Director Jim 
Woolsey on boost-phase. If the Pentagon is going to go to that 
system, it will need a new, more advanced intercepter as well 
as more sophisticated radar and command systems. In order to 
develop and test that system precisely; as we should, it will 
take 5 to 7 years. When supporters talk about a more robust and 
layered system, they should know the devil is in the details. I 
think it is important to find out what specifically they are 
talking about.
    Supporters of NMD are arguing that it doesn't have to be 
that reliable. But, this is not just any weapons system. Don't 
forget that we have spent $100 billion already and we have 
nothing, we have no guarantee that spending another $100 
billion will produce something that is technologically 
acceptable.
    The ABM treaty is still valid. President Bush was the one 
who wanted to make the Russians the Soviet successor state. In 
fact, Secretary Baker demanded that they do and the President 
made the statement. So if you want to go against it, you are 
going to have to modify it. It still is in effect and, in fact, 
Congress, in 1996 basically, by talking about modifications to 
ABM, implicitly recognized that the Russians were the Soviet--
were the successor state.
    And then finally, I would like to quote a man who I had the 
privilege of serving for 5 years, President Reagan. When he 
came up with this, he dictated no timetable and did not 
prejudge any specific technology.
    Thank you.
    [The prepared statement of Mr. Korb follows:]

    [GRAPHIC] [TIFF OMITTED] T4374.109
    
    [GRAPHIC] [TIFF OMITTED] T4374.110
    
    [GRAPHIC] [TIFF OMITTED] T4374.111
    
    [GRAPHIC] [TIFF OMITTED] T4374.112
    
    [GRAPHIC] [TIFF OMITTED] T4374.113
    
    [GRAPHIC] [TIFF OMITTED] T4374.114
    
    [GRAPHIC] [TIFF OMITTED] T4374.115
    
    Mr. Shays. I have just come to the conclusion that if you 
want to change a bland statement to one that's quite forceful, 
just keep the person waiting awhile. Your statement is said 
almost tongues compared to the way you spoke just this past few 
minutes.
    What kind of schedule do you have, Dr. Korb?
    Mr. Korb. Well, I am OK now, thanks to one of your 
crackerjack assistants here.
    Mr. Shays. OK. I know that you had another meeting. I 
appreciate you adjusting that. Thank you.
    I think we now go to Dr. Graham. Oh, Dr. Graham has left. 
He went.
    Dr. Gronlund. I am sorry. You were to be No. 2 and now you 
are No. 3. Thank you.
    Ms. Gronlund. That's fine. So do I need to do anything or 
am I live?
    Mr. Shays. You are live.
    Ms. Gronlund. I am live. OK. Thank you very much. I 
appreciate the opportunity to appear here. I am very impressed 
that you were able to continue to work without lunch.
    I have been asked to comment on two issues, the National 
Missile Defense testing program and the compliance of various 
proposed NMD systems with the ABM treaty. In light of President 
Clinton's recent announcement that his administration will not 
authorize deployment of its planned NMD system, I have focused 
my comments to be relevant to the decisions the next President 
might make about this or any other National Missile Defense 
system.
    If the next President does decide to proceed with 
deployment of an NMD system, it may differ somewhat from the 
one that is currently under development. For example, the 
United States could take a totally different approach by 
developing a boost-phased defense. However, if the United 
States continues to develop an NMD system designed to intercept 
missiles in the mid-course of their trajectory, it will 
necessarily operate in the same basic way as the one the 
Clinton administration has been developing. Any mid-course 
system, regardless of whether the interceptors are ground-based 
or sea-based or air-based, would use infrared homing hit-to-
kill interceptors guided by ground-based radars and space-based 
infrared sensors, as would the system currently under 
development.
    So let me now turn to the issue of the NMD test program. I 
will focus on several questions. What would the next 
administration need to know about the effectiveness of the NMD 
system before it could make a well-informed deployment 
decision? Based on the tests conducted so far, what do we know? 
Based on the planned test program, what will we know and when 
will we know it? And finally, what would a test program look 
like that was adequate to provide the next administration with 
the information it needs to make a deployment decision?
    What should the United States know about any NMD system 
before it could make a well-informed deployment decision? As 
noted in the 1998 report of the Welch panel, the first Welch 
report, three steps are needed to demonstrate that an NMD 
technology is viable. So the test program must demonstrate, 
first, reliable hit-to-kill; second, reliable hit-to-kill at a 
weapons system level and; third, reliable hit-to-kill against 
real world targets.
    I note that there is a significant difference between 
demonstrating the ability to do something--which may require 
only one test, and demonstrating the ability to do so 
reliably--which requires many tests.
    Now the NMD test program, as we heard previously from Dr. 
Coyle, has demonstrated hit-to-kill but not reliable hit-to-
kill nor reliable hit-to-kill at a weapons systems level. 
However, there is no fundamental reason to doubt that the 
United States can do so, perhaps by the end of the 19 tests 
scheduled so far through the next 4 to 5 years.
    So I will focus on the third and the most demanding 
criteria laid out by the Welch panel, demonstrating reliable 
hit-to-kill against real world targets; namely those that 
incorporate countermeasures.
    In his September 1st announcement that he would not 
authorize deployment, President Clinton stated that there, 
quote, remained questions to be resolved about the ability of 
the system to deal with countermeasures. Unfortunately, this is 
likely to remain the case unless major changes are made to the 
planned test program. At a fundamental level, the current test 
program is not configured to provide the next President with 
any information about whether the proposed NMD system could 
reliably intercept real world targets with realistic 
countermeasures. Although the current NMD program assumes that 
the countermeasure threat will continue to evolve and that the 
full system that might be deployed after 2010 will be able to 
deal with complex countermeasures, all the tests conducted so 
far and all those scheduled through at least the first term of 
the next administration will be only of the system against the, 
quote, defined C-1 threat.
    What is the defined C-1 threat? How does it correspond to 
the real world threat? The detailed definition of the C-1 
threat is classified, but there is some public information that 
allows us to understand something about how it has been 
defined. The most detailed publicly available official document 
that discusses countermeasures that would be available to 
emerging missile states is the September 1999 National 
Intelligence Estimate. It states that emerging missile states 
probably would rely on, ``readily available technology to 
develop countermeasures,'' and that they could do so, quote, by 
the time they flight test their missiles.
    Moreover, the NIE lists several of these technologies that 
emerging missile states could use. However, in response to 
questions during his testimony before a Senate Armed Services 
Committee hearing on June 29th, earlier this summer, Lieutenant 
General Kadish stated that the defined C-1 threat does not 
include many of the countermeasure technologies identified in 
the NIE as being readily available to emerging missile states.
    Thus, the targets the NMD system would be tested against 
exclude the very countermeasures that the U.S. intelligence 
community has stated would be available by the time the missile 
threat exists.
    Another fundamental limitation of the testing program is 
that the defense has known in advance what the expected 
characteristics of the decoy and the warhead would be, and 
there is no reason to assume that in the real world, the United 
States would know what the characteristics of an emerging 
missile state warhead would be.
    So unless the definition of the C-1 threat is changed, the 
test program continued by the next administration will tell us 
nothing about the ability of the proposed NMD system to 
intercept real world targets.
    So what would an adequate test program look like? The 
report, the Rumsfeld Commission report, called attention to two 
important issues relevant to countermeasure threat and 
analysis. First, the failure to detect direct evidence does not 
mean that no such development is occurring.
    Second, given the possibility of emerging missile states 
hiding their development programs, a threat analysis must 
assess what weapons or what countermeasures a country is 
capable of developing. This has been dubbed THINK-INT, or think 
intelligence.
    I was on a panel of 11 independent physicists and engineers 
that applied this THINK-INT methodology to understanding what 
countermeasures would be available to a country able to develop 
and deploy a long-range ballistic missile. Our premise was that 
missile and countermeasure capabilities would be consistent 
with each other.
    The panel produced a very detailed report, which I have 
here, which was published in April of this year by the Union of 
Concerned Scientists and the MIT Security Studies program. In 
our analysis, we assumed that the NMD system had all of the 
sensors and interceptors planned for the full system that would 
be deployed by 2010 or later. This is the system the Pentagon 
says will be effective against missile attacks using complex 
countermeasures.
    We, in the report, surveyed the types of countermeasures 
that would be available to an emerging missile state and then 
go into considerable detail on three of those. First, are 
biological weapons deployed on submunitions? The second, are 
nuclear weapons deployed with anti-simulation balloon decoys? 
And the third, are nuclear weapons covered with liquid 
nitrogen-cooled shroud?
    There is more detail about this in my prepared testimony 
and I will skip over that here, but say that we found that each 
of these three countermeasures would defeat the fully deployed 
NMD system.
    Now, none of the technical analysis in our report has been 
publicly disputed, and I believe in his testimony today, 
Lieutenant General Kadish acknowledges that.
    The main criticism levied at our report is that we 
underestimated how difficult it would be for emerging missile 
states to actually build and deploy the countermeasures we 
describe.
    We believe that this criticism is incorrect because a 
country capable of building both an intercontinental range 
ballistic missile and either a nuclear warhead or biological 
warhead to arm such a missile would clearly be able to build 
simple countermeasures. But there is a time-honored way to 
answer questions like this, which is: do the experiment. As we 
recommend in the countermeasures report, the United States 
should establish an independent countermeasures red team whose 
job it would be to develop, build and test countermeasures 
using technology available to emerging missile states. Because 
a red team would try to build countermeasures, this type of 
intelligence gathering has been referred to as TRY-INT. And I 
believe it was Dr. Graham who initially dubbed it TRY-INT.
    Then the planned NMD system should be tested against the 
countermeasures the red team determines would be available to 
potential attackers. So regardless of what NMD system the next 
administration pursues, it is essential that independent THINK-
INT and TRY-INT programs be established to analyze and build 
countermeasures to the planned NMD.
    Once these programs determined which countermeasures were 
feasible, the United States must then assess how effective they 
would be against the planned NMD system through analysis and 
flight testing. And it should only decide to deploy a system 
once it has met all three of the Welch panel's criteria. In 
particular, and I will end with this, no NMD system should be 
deployed until it is demonstrated that it can reliably 
intercept real world targets using countermeasures.
    Thank you.
    Mr. Shays. Thank you very much.
    [The prepared statement of Ms. Gronlund follows:]

    [GRAPHIC] [TIFF OMITTED] T4374.116
    
    [GRAPHIC] [TIFF OMITTED] T4374.117
    
    [GRAPHIC] [TIFF OMITTED] T4374.118
    
    [GRAPHIC] [TIFF OMITTED] T4374.119
    
    [GRAPHIC] [TIFF OMITTED] T4374.120
    
    [GRAPHIC] [TIFF OMITTED] T4374.121
    
    [GRAPHIC] [TIFF OMITTED] T4374.122
    
    [GRAPHIC] [TIFF OMITTED] T4374.123
    
    [GRAPHIC] [TIFF OMITTED] T4374.124
    
    [GRAPHIC] [TIFF OMITTED] T4374.125
    
    [GRAPHIC] [TIFF OMITTED] T4374.126
    
    [GRAPHIC] [TIFF OMITTED] T4374.127
    
    [GRAPHIC] [TIFF OMITTED] T4374.128
    
    [GRAPHIC] [TIFF OMITTED] T4374.129
    
    Mr. Shays. Dr. Holmes, thank you.
    Mr. Holmes. Thank you very much, Mr. Chairman. I feel like 
the last of the Mohicans here.
    Mr. Shays. Well, there is a little edge to this panel. I 
think it is maybe lunch or something.
    Mr. Holmes. Well, thank you very much for giving me the 
opportunity to be here today. I have with me, as mentioned 
earlier, Baker Spring, who is the Heritage Foundation's senior 
analyst on missile defense matters, to help answer any of your 
questions.
    I would like to take the opportunity this afternoon, if I 
could, to provide you with some of my conclusions regarding the 
implications not only of the July 7 missile defense test, but 
also how the entire missile defense testing program is going.
    My first conclusion is that weak missile defense technology 
was not the cause of the failed intercept test on July 7th. The 
primary reason the test interceptor did not destroy its target 
was because of the problem with a rocket technology that is 20 
years old and that was built 10 years ago. It is therefore 
factually incorrect to conclude that the failure of the July 7 
test proves that missile defenses are not technologically 
feasible. If anything, the results of other tests in the past 
suggest the opposite.
    During the first flight test of the kill vehicle in October 
of last year, the system found and destroyed its target without 
the benefit of many of the advanced tracking command, control, 
and communication technologies now being tested. And over the 
last year, the Ballistic Missile Defense Organization can claim 
six successful test intercepts of theater and National Missile 
Defense technology compared with only three significant 
failures. I think no fair assessment of the facts could lead 
anyone to conclude that a 66 percent success rate suggests that 
missile defenses are not technologically feasible and therefore 
should not be deployed. As a matter of fact, that is basically 
the conclusion that Secretary of Defense Cohen has reached.
    My second conclusion is that even if the July 7 test were a 
failure and can be blamed on new missile defense technologies, 
it would make no difference as far as the decision to deploy is 
concerned. A decision to deploy a National Missile Defense has 
already been made. The National Missile Defense Act of 1999 
requires the fielding of a national missile defense system as 
soon as is technologically possible. Signed by President 
Clinton on July 22, 1999, this act is the law of the land. It 
is therefore a legal requirement that the Federal Government 
continue to develop and test a variety of systems to find the 
most effective and near-term alternative. The Congress and the 
President have spoken. We must now find out how best to 
proceed, not whether to proceed.
    My third conclusion is that removing testing restraints 
will reduce technical risk in the program. The administration's 
National Missile Defense testing program is focused exclusively 
on the option of deploying interceptors at a fixed land-based 
site. This rules out other approaches that may prove to be more 
technologically feasible and more militarily effective. For 
example, despite the wealth of recommendations that the United 
States pursue a sea-based option, the administration policy 
bars even the development and testing, let alone the 
deployment, of sea-based systems.
    The Clinton administration's refusal to test sea-based 
systems is all the more puzzling because they appear to be so 
promising. For example, recent press reports indicate that a 
Pentagon study requested by Congress, but which the Congress 
has not yet received, states that a sea-based system would add 
significant capabilities to the land-based interceptors of the 
sort that was tested on July 7.
    Furthermore, the Chief of Naval Operations on February 18th 
stated in a memorandum to the Secretary of Defense that 
foreclosing the sea-based option would, ``not be in the best 
long-term interests of our country.''
    I agree with the CNO that foreclosing the sea-based option 
would be shortsighted, which raises a question: If testing is 
required to discern the feasibility of land-based technologies, 
why is it ruled out to discern the feasibility of sea-based 
systems?
    The answer appears to be in the administration's adherence 
to the ABM Treaty. The constraints that the ABM Treaty is 
imposing on the testing program are having serious effects, as 
Dr. Graham has said, both on the quality and the timetable of 
the entire missile defense program, as they have had on a 
number of missile defense programs over the last decades.
    For example, the Patriot missiles of Gulf war fame were 
deliberately downgraded during the 1970's and the 1980's to 
comply with the ABM Treaty. As a result, the United States had 
to deploy systems less capable than they could have during 
Desert Storm.
    Like the Patriot, the Navy's Aegis tracking systems and 
interceptors have been repeatedly downgraded to comply with the 
ABM treaty. The system was constrained in the 1980's to avoid a 
violation of the treaty, but the Bush administration later 
initiated a substantial upgrade to the system that would allow 
it to track and intercept ballistic missiles. Unfortunately, 
because of the ABM treaty, the Clinton administration severely 
cut and delayed this program.
    The Clinton administration imposed restrictions on the 
testing of theater defense systems which prevent external 
sensors from providing early warning tracking and targeting 
data about possible launches to the interceptor; likewise, a 
system of space-based, low altitude sensors, which could have 
allowed the Navy theater-wide system to provide a limited 
protection from attacks on American soil, also have been 
delayed.
    And as Chairman Shays mentioned this morning, I can find no 
other reason than the ABM treaty to understand why the Alaska 
radar was not being constructed. If there was, in fact, no 
technological reason, although we did not hear from the panel 
this morning, I would venture to say that the main reason was 
because they consider it to be a violation of the ABM treaty, 
and that was the main reason why they decided not to proceed.
    Despite the outcome of the July 7 test, the Pentagon, I 
think, must move forward quickly with the development and 
deployment of missile defenses for America. And to that end, 
Congress and the executive branch should make every effort to 
field missile defenses as soon as technologically possible, as 
the law requires. We should be abandoning the policy of trying 
to revive the defunct ABM treaty and lift all restrictions on 
testing of missile defense systems. We have been talking all 
morning about testing. The assumption apparently behind testing 
is to try to get the best system you can get. The ABM treaty is 
restricting the way we do that job.
    I also recommend that a sea-based element be included in 
all missile defense deployment plans and that Congress be 
holding more hearings at the earliest possible time about 
alternative technical options like the sea-based system that I 
mentioned before.
    Mr. Chairman, the Clinton administration has chosen to 
impose restraints on the testing of missile defense systems. If 
missile defense testing continues to be managed in this way, 
the testing restraints will produce the self-fulfilling 
prophecy of ineffective systems. By intentionally foregoing 
promising avenues of development such as the sea-based systems, 
the administration has chosen a course that will inevitably 
result in a system that will not be optimally effective. Our 
goal should be instead to develop and deploy the most effective 
missile defense system possible.
    Thank you.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Holmes follows:]

    [GRAPHIC] [TIFF OMITTED] T4374.130
    
    [GRAPHIC] [TIFF OMITTED] T4374.131
    
    [GRAPHIC] [TIFF OMITTED] T4374.132
    
    [GRAPHIC] [TIFF OMITTED] T4374.133
    
    [GRAPHIC] [TIFF OMITTED] T4374.134
    
    [GRAPHIC] [TIFF OMITTED] T4374.135
    
    [GRAPHIC] [TIFF OMITTED] T4374.136
    
    [GRAPHIC] [TIFF OMITTED] T4374.137
    
    [GRAPHIC] [TIFF OMITTED] T4374.138
    
    [GRAPHIC] [TIFF OMITTED] T4374.139
    
    Mr. Shays. This ought to be a very interesting panel to 
hear your answers to the questions, and we will start with 
Helen Chenoweth-Hage.
    Mrs. Chenoweth-Hage. You did that right, Mr. Chairman. 
Thank you very much. It confuses me sometimes, too.
    Mr. Shays. Thank you. You are very gracious.
    Mrs. Chenoweth-Hage. Thank you, Mr. Chairman.
    I wanted to direct some of my comments or questions to Mr. 
Korb.
    Mr. Korb, you commented on the Patriot missile, anti- 
missile missile. But wasn't the Patriot anti-missile missile 
designed originally as an anti-aircraft?
    Mr. Korb. That's how it started. As a matter of fact, it 
was former Vice President Quayle that got the Congress to put 
money into Patriot give it an anti-missile capability. That 
plan was not put forward by either the Reagan or Bush 
administrations, that is correct. Patriot was originally built 
as an anti-aircraft system.
    Mrs. Chenoweth-Hage. And a very courageous Army colonel in 
Huntsville, AL, actually directed the startup of the production 
lines on his own authority, recently retired but he upgraded 
the software and deployment system in the Patriot.
    You know, it's my understanding, Mr. Korb, that the U.S. 
aerospace community has repeatedly met more daunting and 
challenging engineering challenges than that posed by finishing 
up what we have already started. And it would seem to me that 
our biggest concerns, as a Congress, should be looking at 
better management practices. I mean, in your testimony you 
stated that we need to be involved in at least 7 more years of 
vigorous research before we can make an informed choice on 
deployment, but if we could concentrate on some of the 
management practices and removal of the political constraints, 
I think that we would be miles ahead.
    Mr. Korb, this is the reason I make this statement. We have 
had a number of successes that we are not talking about, and we 
muddle around in the ABM treaty and we forget the successes 
that have been instituted and have actually occurred since 1955 
when we first started this.
    Now, using pre-SDI technology in 1984, the Army's HOE 
experiment launched from an island in the Pacific, South 
Pacific, of a Volkswagen-sized kill vehicle to intercept a 
Minuteman missile, launch from Vandenberg Air Force base in 
southern California, that was a success, wasn't it?
    Mr. Korb. Are you talking about the homing overlay 
experiment?
    Mrs. Chenoweth-Hage. I am talking about the homing overlay 
experiment.
    Mr. Korb. Well, as it turned out, the Congress found out 
some years later that that test was rigged, this came to light 
after the Reagan administration left office. In fact, I believe 
there was a GAO investigation and a congressional.
    Mrs. Chenoweth-Hage. Well, I----
    Mr. Korb. I don't disagree with your point that we could 
eventually get the technology to work. I think that to the 
extent that you do concurrent research development, you are 
increasing the chances that you are going to have what General 
Welch called a rush to failure.
    I would also point out that not every system works. We have 
had spectacular failures. The division air defense (DIVAD) gun 
was a system that we tried to rush and it never worked, and in 
fact, it was because of the testing DIVAD there that Congress 
passed a law that set up Mr. Coyle's office.
    Secretary Cheney had to cancel the A-12 because it just 
wasn't working.
    So it may work, but my point is to the extent that you 
rush, you increase the chances that it won't.
    Another point, this is not just another system. This, if it 
doesn't work, then you are going to have what Chairman Burton 
talked about before, that is missiles raining down on the 
country. Then all the money you have spent will have gone in 
vain. It is not like flying a plane, where you get to go make a 
second pass.
    Mrs. Chenoweth-Hage. Well, you know, because there have 
been allegations of tests being rigged, I am not convinced that 
they were. What I am convinced of is this, that we learned a 
lot from that launch, that whole launch, and in addition to 
that the Air Force successfully intercepted a dying low 
altitude satellite with its miniature homing vehicle launched 
from an F-15, also using pre-SDI technology.
    The SDI program instituted a major technology demonstration 
program that placed priority on dramatically reducing the size 
and weight of critical compulsion and sensor and data 
processing and other electronic systems, we have already done 
that, and to enable an effective hit-to-kill interceptor 
system. Why are we continuing to drape crepe? Most notable 
among these demonstration systems was the delta series or what 
would has become familiar to us as the delta star series, in 
1989, which over a 9-month period gathered very important 
information. That's all been done.
    Also in 1989 the Army's E-risk program repeated the HOE 
experience with a much lighter interceptor kill vehicle, using 
mid-1980's technology. There have been numerous other 
experiments that demonstrate the maturity of the basic 
technology.
    So I don't want to see us just mull around in the ABM 
treaty while other countries are advancing their systems and we 
are muddled down trying to reinvent the wheel.
    The SDI program has produced the technology that was 
demonstrated in the award winning 1994 Clementine mission, 
which returned to the moon for the first time in 25 years and 
provided over a million frames of optical data. That's all in 
our history of what we have produced. But, unfortunately, 
President Clinton, in his short-lived veto, line item veto 
authority, killed the Clementine, an award-winning program that 
all of aerospace looked at.
    So, Mr. Korb, my concern is, as former President John 
Kennedy was noted as saying regarding the space program, one 
can always make the perfect the enemy of the good, and this 
seems to me to be exactly what we are trying to do, by not 
recognizing the accomplishments but focusing on our test 
setbacks.
    So I thank you for your testimony.
    Mr. Korb. Thank you.
    Mrs. Chenoweth-Hage. I wanted to ask Mr. Spring about the 
ABM treaty. You know, it seems to me that this treaty has 
succeeded in its purpose of blocking the development, testing 
and deployment of an effective defense anti-ballistic missile 
system, at least for the United States; and that last 
parenthetical phrase is what concerns us all.
    Mr. Spring. Sure.
    Mrs. Chenoweth-Hage. This seems to meet the objectives of 
those who wish to preserve the cold war mutual assured 
destruction policy that I have referred to earlier, a doctrine 
which may benefit some but certainly doesn't move us to mutual 
assured survivability.
    I wonder if you would like to comment on that?
    Mr. Spring. Well, certainly the treaty does--and it was 
designed to, from the outset--impose limitations on development 
and testing as well as deployment. Those restrictions are found 
in articles 5 and 6 of the treaty. They affect sea-based, 
space-based, mobile, ground-based and air-based systems. In my 
judgment, in terms of development and testing, to put it in the 
context of, say, for example, the moon mission, we would say 
that well, we are going to go to the moon, but we have a 
restriction that we can't use liquid-fueled rockets, or that we 
can't use advanced computer technology. That, in other words, 
all of the options that would otherwise be put on the table are 
now being taken off as a matter of political constraint and 
diplomatic constraint.
    The other restriction in article 6 says we can't take 
theater missile defense systems and upgrade them to give them a 
long-range or strategic ballistic missile defense capability. 
Well, the fact of the matter is that our most advanced 
technologies, because they have been proceeding in relative 
terms to the NMD system now in a relatively unconstrained 
fashion, are among the most advanced; and, therefore, some of 
the best avenues to providing, in my judgment, the most 
effective missile defense system that we can obtain as soon as 
possible, according to law, would be to upgrade our missile 
defense systems that are now categorized as theater defenses.
    Those include most particularly the Navy theater-wide 
program. So in my judgment, we are proceeding in this program 
essentially with one hand tied behind our backs, as a result of 
the diplomatic and political constraints that are imposed on it 
through what I view to be unilateral observance of ABM 
restrictions as a matter of policy by the Clinton 
administration.
    It is not, in my judgment, a free and fair exploration of 
all the technological options that would be available to the 
defense community.
    Mrs. Chenoweth-Hage. Thank you, Mr. Spring.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Shays. Thank you very much. Mr. Tierney.
    Mr. Tierney. Thank you. Dr. Holmes, Mr. Spring, I am a 
little struck by what I think is a rather extreme argument in 
your statement that the ABM treaty should no longer be 
considered binding based on an argument, I guess, that since 
the Soviet Union dissolved Russia is not bound by the same 
agreements, and I see that you cited a couple of prominent 
individuals who share that view but I would like to ask you a 
question about the implications of that.
    Do you believe on that basis that no treaties currently 
exist between Russia and the United States other than the few 
that we might have signed since the break-up of the Soviet 
Union? So I guess that would mean that no previous arms 
treaties, no status of force agreements, no trade pacts, none 
of these continue to exist in your mind?
    Mr. Holmes. Well, many of the treaties that existed with 
the Soviet Union have been handled on an individual basis, and 
so has, actually, the ABM treaty. There was a multilaterization 
treaty, a successor agreement that was signed with four 
countries, Ukraine, Belarus, Khazakhstan and Russia, that the 
Clinton administration signed and must be sent up to the Senate 
for its advice and consent before it becomes the law of the 
land. So even the administration believes that something must 
be done to have a legally binding treaty. Otherwise, they would 
not have negotiated that agreement.
    So, therefore, to answer that question you have to handle 
each one of these agreements separately. The ABM treaty has 
been handled separately. It is now a successor agreement that 
has to be sent up to the Senate. If the Senate approves that 
and ratifies it, then it will be binding. If it doesn't----
    Mr. Tierney. What about the status of forces agreement and 
trade pacts, do you think they are all out the window?
    Mr. Spring. Let me answer that question. The finding that 
we had done for us by the law firm of Hunton and Williams was 
that the ABM treaty is null and void by reason of impossibility 
of performance. That is, there was no state in existence today 
that could have fulfilled the obligations the treaty imposed on 
the Soviet Union, primarily for reasons of geographic scope.
    The ABM treaty imposed restrictions with regard to the 
territory of the Soviet Union which Russia does not control. As 
a result of the impossibility of performance on obligations 
that are unique to the ABM treaty, the treaty is null and void 
by force of international law.
    That does not speak to the obligations of the United States 
relative to other treaty obligations with the Soviet Union and 
the succession issues that would surround them.
    Mr. Tierney. Thanks.
    Mr. Holmes. Could I add one thing to that, if I may?
    Mr. Tierney. Sure. Sure.
    Mr. Holmes. This is also the view, by the way, not only of 
the chairman of the Senate Foreign Relations Committee, but 
also the Senate Majority Leader, who have, in many 
communications with the White House, made the same point that 
we have made here; primarily, that the successor agreement must 
be sent up to the Senate for ratification before it becomes the 
law of the land.
    Mr. Tierney. Terrific.
    Dr. Gronlund, let me ask you about the latest intercept 
flight test, the IFT-5. The Department of Defense provided a 
briefing and gave us some slides, and one of them listed all 
the mission objectives that were supposedly accomplished by 
that IFT-5 test. When you look at it--well, first you know what 
countermeasures were included in that target sweep?
    Ms. Gronlund. There was one large spherical balloon decoy.
    Mr. Tierney. What happened to the deployment of that 
particular countermeasure?
    Ms. Gronlund. It didn't inflate. It didn't deploy properly.
    Mr. Tierney. My problem is anyway, that would be an 
unsuccessful interceptor, wouldn't you think so?
    Ms. Gronlund. Well, they never got to the point of testing 
the intercept because the killr vehicle did not release from 
the booster properly.
    Mr. Tierney. Can you explain to me then how the Department 
of Defense indicates that for discrimination, the full 
objective of their plan was met? How would they get to that 
conclusion given that scenario?
    Ms. Gronlund. No, I don't know that, actually. I don't.
    Mr. Tierney. All right. Let me discuss with you a little 
bit, you mentioned three different countermeasures that you 
thought were--that you actually went into in further depth in 
your report.
    Ms. Gronlund. Yes.
    Mr. Tierney. One of them was submunitions.
    Ms. Gronlund. Yes.
    Mr. Tierney. As I understand it, you are not only talking 
about submunitions with nuclear warheads, you are talking about 
submunitions with biological or chemical warheads?
    Ms. Gronlund. Particularly biological warheads.
    Mr. Tierney. The premise being that any country like North 
Korea, Iran or Iraq, if they were to have the capacity to send 
up an anti-ballistic missile, they probably also have the 
capacity to use submunitions on those?
    Ms. Gronlund. Right. A country that had an ICBM and had a 
biological weapon would also be able to simply separate that 
agent into 100 or more bomblets. This was something that I 
believe the Rumsfeld Commission first noted would be an option 
for an emerging missile state, and people have raised various 
concerns about reentry heating, about disposal, and those are 
the things that we looked into in great detail in our report.
    Mr. Tierney. And your report indicated that submunitions--
--
    Ms. Gronlund. That if the country could already have a 
biological weapon that it could deliver by long-range missile, 
it could just as readily put them on submunitions.
    Mr. Tierney. Now, if you had as few as five missiles.
    Ms. Gronlund. Yes.
    Mr. Tierney. Could you put 100 submunitions on each one?
    Ms. Gronlund. Yes.
    Mr. Tierney. You'd have 500 submunitions of biological 
agent coming over, disbursing--in fact, that probably would be 
preferable if you were a rogue country and you really wanted to 
disburse that agent. It'd be better to have 100 different 
places of release than it would be just one, right?
    Ms. Gronlund. It probably would, yes.
    Mr. Tierney. So if you had 500 coming over, even after we 
go to C-3 on this stage, what are the total number of 
interceptors that the system currently envisions?
    Ms. Gronlund. Which is 250 interceptors. Even if they were 
perfectly effective, fewer than half of the bomblets would be 
destroyed.
    Mr. Tierney. So we should probably be real honest with the 
American people and tell them that in terms of biological 
weapons at least----
    Ms. Gronlund. Yes.
    Mr. Tierney [continuing]. This system doesn't cut it.
    Ms. Gronlund. Right, right.
    Mr. Tierney. And I would guess you might even make the 
argument that if I were a rogue nation, I would be encouraged 
to go that path as opposed to nuclear, since I knew you might 
be trying to provide some sort of a nuclear deterrent.
    Ms. Gronlund. That is a possibility. I mean, the other 
reason biological agents might be more attractive than nuclear 
weapons to an emerging missile state is that it's hard to get 
the fissile material that you need to make a nuclear weapon. 
And, for example, North Korea reportedly has enough material to 
make one or two nuclear weapons, but there's no, de facto limit 
to how many biological weapons it could make.
    Mr. Tierney. Can you talk to us for a bit about the 
difference between effectiveness and competence?
    Ms. Gronlund. Oh, boy. OK. Let's say that you want to have 
a system that is 95 percent effective but you also need to know 
with some amount of certainty what the effectiveness is. For 
example, if I gave you a coin, I said this coin is weighted and 
I want you to tell me what the weighting is, and I let you flip 
it once and it lands on heads, would you then say I am 100 
percent certain that this coin is weighted so it will always 
come up heads? No.
    OK. So there's both a certain confidence level of what the 
effectiveness is, or if you're looking at the coin example, how 
the coin is weighted, and the only way you can become highly 
confident of what the weighting of the coin actually is is by 
flipping it a lot of times. Or the analogy with missile defense 
testing, the only way you can know with high confidence how 
effective the system would be is to test it a lot of times.
    Mr. Tierney. Now, if we had--and I won't go into all of 
those of when we talked earlier--but a fairly significant 
number of relatively simple countermeasures that were available 
now to rogue nations, it wouldn't be enough to test against 
each one of those countermeasures individually. Wouldn't we 
have to test about them in different combinations?
    Ms. Gronlund. Ideally, to have confidence the system would 
work against an attack using countermeasures, you would want to 
consider a lot of different possibilities, a lot of different 
real world conditions, yes.
    Mr. Tierney. Mr. Korb, maybe if I just ask you to answer 
this: If we didn't have great confidence in the system, what 
good does it do us?
    Mr. Korb. Could you speak a little louder?
    Mr. Tierney. Sure. If we don't have a high level of 
confidence in the effectiveness of this type of national 
missile defense system, would it still be an important element, 
or what sort of an element would it be in our entire defense?
    Mr. Korb. Well, it obviously would be much more important 
than any other system because the purpose of this is to detect 
an attack by a rogue nation using a weapon of mass destruction, 
and if it doesn't work, all of the money the Nation spent on 
NMD is wasted. It is not just another weapons system. We have 
lots of weapons systems. If an airplane goes in and it misses 
its target, you can come back again and hit it, but you get one 
shot at this, and if you miss, then in fact you've wasted all 
your money. So that's why you have to have a higher degree of 
confidence that it will be effective.
    Mr. Tierney. So, therefore, the more importance of 
testing----
    Mr. Korb. It's much more important to test it more, say, 
than the B-1 bomber. The B-1 bomber was rushed into production; 
it hasn't worked well yet, but it didn't mean as much as NMD, 
because we then came with the B-2 we had other ways to deliver 
bombs on target.
    Mr. Tierney. One of the supposed purposes for this system 
is to avoid accidental launchings or to at least protect 
against accidental launchings from Russia or some other 
country. They already have sophisticated countermeasures, don't 
they?
    Mr. Korb. The Soviets have not only countermeasures, they 
have missiles with multiple warheads on them. Remember, that's 
why they first developed the multiple warheads was to be 
decoys. And then somebody said, gee, why do you want to just 
have decoys, let's make them real. And so in effect it spreads 
apart and you then have to--several of them even if you hit 1, 
the other 3, 4 or 10 get through.
    Mr. Tierney. So it's not really effective against a 
biological submunitions scenario and it has limited effect 
against an accidental launch from Russians with multiple 
warheads----
    Mr. Korb. If it's a multiple warhead, that's correct.
    Mr. Tierney. Thank you. Thank you, Mr. Chairman.
    Mr. Shays. First, I would like to ask if any of you would 
like to comment to any question that wasn't asked of you by 
Helen or John. Yes.
    Mr. Holmes. I'd like to comment on this idea that the 
missile defense system has to be perfect or near perfect before 
it can justify actually building it. First of all, I know of no 
weapons system that demands perfection before you actually 
begin deployment. But the idea that somehow we would have more 
or less permanently, after we made a decision to deploy, a 
national missile defense system that would forever be static or 
stays the way it is--it will not improve over time--seems to me 
to underestimate not only what we have learned from the history 
of the development of weapons systems, but also the 
technological capacity of this country. Because the fact of the 
matter is, it's hard for me to imagine if we made--if we 
actually deploy a missile defense system, that it will be a 100 
percent failure. It might have failure at the margins. Perhaps 
sometimes it would catch some missile; maybe it won't catch all 
of them. But it would at least catch some of them. And so, 
therefore, there would be some effect on the saving of lives of 
Americans even if it is only partially successful. So the idea 
that it has to be 100 percent successful before we even make 
the decision to deploy seems to me to be a false assumption.
    Mr. Spring. Maybe if I could just say something quickly 
with regard to biological threat, and that is that, first, the 
argument that is put forward with regard to the biological 
threat in my judgment is a perfect argument for why we need a 
boost-phase capability which we are currently prohibited from 
even testing and developing, let alone deploying.
    The second is that, at least with regard to biological 
attack by missile or any other means, there's at least some 
reasonable options for civil defense, and I certainly advocate 
that we move forward with regard to those capabilities for 
homeland defense. But with a nuclear weapon, I think that the 
options for that are limited indeed. So I think that you have 
some options with regard to biological attack that you wouldn't 
have in the case of nuclear attack.
    Mr. Korb. Let me make one comment on something that was 
said earlier about the National Missile Defense Act of 1999. I 
think an important point in the legislative history of that act 
is Senator Levin's amendment to it which talks about the fact, 
not just technologically feasible, but of the arms control 
implications of a deployment. I think you cannot just say just 
because it's technologically feasible, that's the end of the 
situation. As I read the legislative history and the Levin 
amendment, I think that also is a factor in the decision.
    Mr. Spring. Let me comment on that.
    Mr. Korb. Wait, we're going to be here forever. We all get 
one shot here because I've got----
    Ms. Gronlund. And I haven't gotten mine yet.
    Mr. Shays. I thought I was in charge.
    Ms. Gronlund. I'd like to comment on the notion of the need 
for a 100 percent perfection. There is a difference--this is 
the question Mr. Tierney asked me--between the effectiveness 
and the confidence level. At a fundamental level, aside from 
how effective the system would actually be, the United States 
will not know how effective it will be, which will make it very 
difficult to plan for using it.
    Now one of the things that Secretary of Defense Cohen 
says--in fact, he says the real reason we need this system is 
to preserve U.S. freedom of action so the United States can 
continue to use its conventional forces around the world 
without fear of threat of being hit by a ballistic missile. And 
he says if we have a national missile defense we don't need to 
worry about that; but in fact, if we have a national missile 
defense, the President and the policy planners will not know 
how effective it would be.
    So if we're now postulating that we're going to go around 
the world preserving our freedom of action to intervene and yet 
we don't know how effective our NMD system is, that could put 
us in a situation we're actually encouraging attacks that 
otherwise wouldn't have happened, and we still don't know how 
effective the system is. And, feelings aside, you know, whether 
or not people feel that the system would be somewhat effective 
is irrelevant. It hasn't been proven. We have no basis--we have 
no basis for knowing what the effectiveness is.
    Mr. Shays. Let me--you know, I don't know why I need to say 
this, but for anyone in my staff to suggest when a hearing ends 
is more difficult than developing a national missile defense 
system, and all of you have come before committees before. So I 
don't know how many Members attend a hearing, and they get the 
right to ask questions. Mr. Spring, I want to just hear what 
your comment is.
    Mr. Spring. On the----
    Mr. Shays. What did you want to say?
    Mr. Spring. I was going to say with regard to the National 
Missile Defense Act, what was very clear in my judgment from 
that legislative record is that there are dual goals of 
deploying the national missile defense system, or requirement 
in that case, and the goal of offensive reductions. Those also 
mentioned in the act are not dependent on each other. In other 
words, it is not a case that the search for offensive 
reductions is indeed a requisite for the deployment of a 
national missile defense system under the act.
    Mr. Shays. Let me just ask----
    Mr. Korb. I disagree respectfully on that, and I think the 
legislative history will support my position. I didn't comment 
on some of the things they said. If we're going to keep this 
hearing going, I think we ought to adjourn for lunch and come 
back. I thought you told us each to mention one thing we wish 
we were asked, but I have strong disagreements----
    Mr. Shays. I'd love to hear them and we'll get out of here 
at five of--I'll hit the gavel--but I'd like to hear them. The 
whole purpose of this is to have some issue of where the battle 
is. And so do you want to--let's hear where you disagree.
    Mr. Korb. I am not saying this has to be a perfect system 
but it has to be better than your average weapons system. In 
fact many weapons systems never do work. There is a history of 
weapons systems, even after the lot of money, you not, being 
able to function properly. And I think we have to recognize 
that as we go into this debate.
    Mr. Shays. You have 435 Members of Congress, 100 Senators, 
and we have been somewhat over the lot on this issue, but I 
have always believed in my heart of hearts that someday we will 
want a missile defense system. I didn't want nuclear weapons in 
space, but I didn't mind that we had sensors there, and I 
basically have come to believe that we need to have a limited 
national defense system. I'd just love to know in very short 
terms whether you, Doctor, would feel we need that or we 
shouldn't even consider it.
    Ms. Gronlund. I think that it is something the United 
States should continue R&D on, but I don't think it helps the 
cause to deploy something that can't do the job.
    Mr. Shays. Fair enough. But you are willing to say that we 
should continue to see if we can develop a system?
    Ms. Gronlund. Sure.
    Mr. Korb. I think we ought to continue research and 
development until we have a reasonable prospect that it will do 
what it's supposed to do. But like any other weapons system, 
you have to do a cost-effectiveness analysis in terms of what 
it will cost, what you will get, and what you will give up to 
get it.
    Mr. Shays. Dr. Holmes.
    Mr. Holmes. Well, yes, I think it's a strategic 
requirement. It's the law of the land. I think that the 
disagreements and problems of the Russians can be worked out. 
We were very near doing that in the early 1990's in the Bush 
administration. And I think that from what I have seen from 
talking to technical experts, that you can have a reasonable 
assurance that over time you will have an effective system.
    Mr. Shays. Now, is it true that ABM, some of you have 
suggested this, prevent us from developing a system--Dr. 
Gronlund, maybe you would respond--that gives us all the 
options for developing a system?
    Ms. Gronlund. Well, I'm not quite sure what you mean, but 
one charge that has been made is that the United States is 
prevented from developing a sea-based system by the ABM Treaty 
and that this would be much more effective. In fact, it would 
have the very same limitations that the land-based system would 
have. So I don't think the ABM Treaty is standing in the way--I 
mean, there are problems well before that in terms of 
developing an effective system.
    Mr. Shays. Let me just hear Dr. Korb.
    Mr. Korb. I agree that at some point the ABM Treaty will 
prevent you from doing what you want, but I don't think we're 
there yet.
    Mr. Shays. But doing what you want in terms of deployment 
or doing what you want in terms of even developing the maximum 
and best system?
    Mr. Korb. Well, I agree with, what Dr. Gronlund who said 
that we are not there yet; that in other words, I see no 
evidence that the program that has been started really since 
the mid-1980's has ever gotten to the point where you'd have to 
say, well, gee, if there wasn't an ABM Treaty, then I could 
start now, today, to go ahead and move to the--into the next 
step.
    Mr. Shays. Maybe, Mr. Spring, I should have--you're the one 
who introduced it, in your concept of liquid fuel versus----
    Mr. Spring. Yes, exactly. My concern more generally--and 
I'll come back to the sea-based system--is that if what we do 
is at the outset say that we're going to limit ourselves to 
R&D, and in fact limit ourselves to only a narrow scope of R&D, 
you will never be in the position to get to saying at the level 
of assurance that my colleagues on the panel want to obtain the 
level of confidence for deployment.
    Mr. Shays. But let me just specifically--is there any type 
of testing that we are prevented to be able to do because of 
the ABM Treaty?
    Mr. Spring. Absolutely, and let me just use a specific 
example. We cannot, under the administration's policy as it 
interprets the ABM Treaty and applies it today, test a sea-
based ballistic missile for ascent-phase intercept capability 
against a ballistic missile that flies faster than 5 kilometers 
per second.
    Mr. Shays. And that's a significant example. Any others?
    Mr. Spring. The same thing would obtain to range; 3,500 
kilometers, against a target ballistic missile with a range in 
excess of 3,500 kilometers.
    Mr. Tierney. I want Dr. Gronlund to respond to that.
    Ms. Gronlund. But we're not at the point where that is an 
issue. We don't have a sea-based system that is capable of 
intercepting long-range missiles; and if we did, it would have 
the same technical issues associated with it as the ground-
based system. The basing mode is irrelevant if it's a mid-
course hit-to-kill interceptor. Where it's launched from is 
irrelevant to whether it will work and whether it can deal with 
countermeasures.
    Mr. Shays. If we could just divide up the next 10 minutes, 
and then we'll call it quits.
    Mr. Tierney. Fine. Thanks. I actually have less than that. 
I think early on when Mr. Allen was making his remarks, he was 
pretty salient when he said that if we had a system that 
actually could work to a high degree of effectiveness that we 
had confidence in and that wasn't going to end up with less 
security for this country in terms of our relations with other 
countries and the effect that it would have overall, that we 
all should look at trying to implement it. And the fact is 
we're not anywhere near that yet. We're not anywhere near that 
in terms of the technical capability of this program. I think 
the evidence has shown that very clearly today, and I think 
there's still some larger questions as to how we relate to our 
former adversaries, now friends hopefully, as well as our 
allies, in all the other considerations and the further 
considerations of whether or not this is the best priority for 
us to be attending to, when in fact there are any number of 
other dangers, not the least of which are biological weapons 
and chemical weapons and other ways of delivery that we ought 
to be considering.
    So all of those things said, I think the President's 
decision was right where it should have been, that it was much 
too premature to deploy. And I think that the plan of the 
national missile defense at the current time does not allow for 
the degree of testing that would warrant us to feel real 
confident that this is the direction we want to go in.
    We should have a plan that has a lot more testing, that 
would give us a lot more confidence in the effectiveness of 
this particular system before we move forward. And then it 
should have a system or a regime where those tests are analyzed 
by a relatively independent agency, by an absolutely 
independent agency. And if it is going to be Mr. Coyle's 
group--and I think he's done a marvelous job on a lot of things 
that he's done--that people ought to have to listen to him.
    The legislation that we have now setting up his branch 
merely gives him advisory capacity. Although he was right on 
the money with the status, the current status of our situation 
and the fact that we shouldn't deploy, the Department of 
Defense was fully ready to ignore his advice on this particular 
occasion. I don't think that's a healthy thing for us.
    So I think the witnesses today have done us a considerable 
service, both panels. I want to thank this panel very much for 
taking your time and extending later into the afternoon than 
certainly you anticipated, but I think it's been extremely 
helpful, and want to thank you.
    Mr. Shays. I did want to ask another question before I said 
where I come down. So thank you for interrupting. I am not 
clear as to why I should care what Europe feels about ABM, when 
this was an agreement negotiated with the Russians, and in my 
judgment is somewhat outdated. And, Mr. Korb, you can respond 
to that and I'll throw it out to the others.
    Mr. Korb. Well, you've got one practical reason. If you 
want an effective system and one that's under development, 
you're going to need consent of Denmark and England to put 
the--enhance the radars in their country. That's one.
    I think, No. 2, you do have a whole set of relationships 
with Europe that go into lots of areas, not the least of which 
is the future of NATO. And if in fact you create a situation 
where there's a break between the United States and Europe in 
terms of the way that they approach problems, this will 
undermine us.
    Mr. Shays. But they didn't negotiate the ABM Treaty with 
us.
    Mr. Korb. No, I understand, I understand, and I am not 
arguing that you have to give them a veto. But your question 
is, should we be concerned? I think you need to be concerned 
with how they feel because we have a whole web of relationships 
with them that could be affected.
    Now, in the final analysis, I don't think anybody would 
argue that the United States should let other nations have a 
veto over its security. Nobody is arguing that. But what you're 
talking about here is you're not at a stage where you want to 
force that issue and the consequences, given what's happened 
with the technology. Even Dr. Kissinger, who supports that in 
the piece he wrote in the Washington Post, said, you know, 
before you go ahead with, you know, abrogating the ABM Treaty 
and causing all these things, you better decide what system you 
have and, you know, that you're ready to go ahead with it.
    Mr. Shays. Thank you.
    Dr. Gronlund, and then I'll come to you. Dr. Gronlund, 
comment about that question I asked in regards to paying 
attention to the Europeans. I think you----
    Ms. Gronlund. Yes, I guess--I think U.S. security is more 
than just the sum of the weapons systems that we deploy, and in 
part it relies on our alliance relationship and our 
relationship to countries that aren't our allies yet; in 
particular, Russia and China. So what we are trying to do, I 
hope, is to maximize our security overall, and it may well be 
that going forward with something that has marginal security 
benefits in terms of being able to defend against emerging 
missile states and upsets our allies in Europe and upsets 
Russia and China would be a net negative. So I think that's a 
valid question. That really is the big picture that we all 
should be looking at.
    Mr. Shays. Dr. Holmes.
    Mr. Holmes. I certainly wouldn't advocate ignoring our 
allies in Europe, but I think one of the reasons why they are 
so hesitant--it's not the only reason--but one of reasons why 
is they sense the administration is not fully committed to the 
program, and it's therefore sensing that they're not getting 
any leadership from the United States; say, for example the 
kind of leadership that you got from Ronald Reagan during the 
Euromissile crisis when there was also a tremendous debate 
about the deployment of SS-20 missiles in Europe. That kind of 
leadership shows the allies will come along when the United 
States leads. The United States is not leading on this issue. 
They sense weakness, they sense uncertainty, so therefore 
they're hesitating and holding back.
    The President said last week, when he announced his 
decision to delay deployment, that no nation has a veto over 
deployment. If you look at the speech the way that came, he had 
spoken for almost 6 or 7 minutes about why because of China, 
because of Russia, because of NATO allies, etc., he was making 
the decision because of their objections, he was not going to 
proceed; and then he proceeds to say that no nation has a veto. 
Is that a theoretical possibility or is in fact that always 
going to be the case because of the uncertainty that Russia and 
China have?
    Mr. Shays. Thank you. My observation is simply to say that 
our national missile defense system is, in fact, the law of the 
land. I'm not convinced, frankly, and I'm happy to have you 
comment, but I'm not convinced that the administration was an 
eager participant, and so it leaves me a little uneasy. I would 
have thought that we would have had an opportunity to force the 
question with our allies with the ability to move forward with 
the missile defense detection in Alaska and that we still would 
have left open tremendous options. But if I were our allies, I 
wouldn't be convinced that we're supporting this program, even 
though it is in fact the law of the land. But I recognize that 
it makes no sense to deploy it until we know, one, it works, 
and two, that we can actually afford it. Just a last comment 
from you or anyone else?
    Mr. Tierney. Just before we leave the impression that--the 
law of the land is as it was stated a couple of times here--Mr. 
Korb I think certainly hit on this--the law of the land is that 
we'll go forward if there's an effective national missile 
defense system that is technologically feasible and ready to be 
deployed, and keeping mindful of our relationships with our 
allies and the nonproliferation regime and things that we've 
been working on. So that all has to be taken together. I think 
the administration was fully aware of all of those different 
factors, and this system clearly wasn't ready to go to 
deployment when those things were considered and that's why the 
decision was properly made.
    Mr. Shays. With that, you get to go to your meeting that 
was 2 hours ago, and we will adjourn this hearing. Thank you 
all for participating. This hearing is adjourned.
    [Whereupon, at 1:55 p.m., the subcommittee was adjourned.]


</pre></body></html>
